<html>
<title> - NUCLEAR WEAPONS COMPLEX MODERNIZATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-160]

 
                 NUCLEAR WEAPONS COMPLEX MODERNIZATION

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 17, 2008


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                  U.S. GOVERNMENT PRINTING OFFICE
45-134                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
DAVID LOEBSACK, Iowa                 MIKE ROGERS, Alabama
NIKI TSONGAS, Massachusetts
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, July 17, 2008, Nuclear Weapons Complex Modernization...     1

Appendix:

Thursday, July 17, 2008..........................................    55
                              ----------                              

                        THURSDAY, JULY 17, 2008
                 NUCLEAR WEAPONS COMPLEX MODERNIZATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

.................................................................
Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     2
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

Aloise, Gene, Director, Natural Resources and Environment 
  Division, Government Accountability Office.....................    39
D'Agostino, Hon. Thomas P., Administrator, National Nuclear 
  Security Administration; Dr. George H. Miller, Director, 
  Lawrence Livermore National Laboratory; Dr. Michael R. 
  Anastasio, Laboratory Director, Los Alamos National Laboratory; 
  Dr. Thomas O. Hunter, President and Director, Sandia National 
  Laboratories; Dr. Stephen M. Younger, President, National 
  Security Technologies, LLC; J. Greg Meyer, President and 
  General Manager, Babcock & Wilcox Technical Services Pantex, 
  LLC; Vincent L. Trim, President, Honeywell Federal 
  Manufacturing & Technologies (FM&T), LLC; Darrel P. Kohlhorst, 
  President and General Manager, Babcock & Wilcox Technical 
  Services Y-12, LLC; Dennis Hayes, General Manager, Defense 
  Programs, Washington Savannah River Company, beginning on page.     4
Kelley, Marylia, Executive Director, Tri-Valley CAREs............    41
Robinson, Ambassador C. Paul, President Emeritus of Sandia 
  Corporation and Former Laboratories Director, Sandia National 
  Laboratories...................................................    45

                                APPENDIX

Prepared Statements:

    Aloise, Gene.................................................   120
    Anastasio, Dr. Michael R.....................................    76
    D'Agostino, Hon. Thomas P....................................    59
    Hayes, Dennis................................................   116
    Hunter, Dr. Thomas O.........................................    82
    Kelley, Marylia..............................................   133
    Kohlhorst, Darrel P..........................................   108
    Meyer, J. Greg...............................................    95
    Miller, Dr. George H.........................................    71
    Robinson, Ambassador C. Paul.................................   141
    Trim, Vincent L..............................................   103
    Younger, Dr. Stephen M.......................................    88

Documents Submitted for the Record:

    A Future Vision for NNSA's National Security Laboratories....   151
    Four charts submitted by Mr. D'Agostino......................   152
    Tri-Valley CAREs Public Comment and Analysis on Draft Complex 
      Transformation Supplemental Programmatic Environmental 
      Impact Statement, Parts One and Two........................   156

Witness Responses to Questions Asked During the Hearing:

    Mr. Everett..................................................   199
    Mr. Spratt...................................................   202
    Ms. Tauscher.................................................   199

Questions Submitted by Members Post Hearing:

    Ms. Tauscher.................................................   205
    Mr. Wilson...................................................   226
                 NUCLEAR WEAPONS COMPLEX MODERNIZATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                           Washington, DC, Thursday, July 17, 2008.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good morning. This hearing of the Strategic 
Forces Subcommittee will come to order.
    Today, we will consider the National Nuclear Security 
Administration's (NNSA) plan for modernizing the nuclear 
weapons complex, what the NNSA calls its plan for a Complex 
Transformation.
    I want to welcome our first panel of distinguished 
witnesses, starting with the Administrator of the NNSA, Under 
Secretary Tom D'Agostino.
    It is a pleasure to have you back before the subcommittee, 
Under Secretary, and thank you very much for all the 
cooperation and all the great work you and the thousands of 
people that you represent do every day for the American people.
    Following the Administrator's testimony, we will be joined 
at the witness table by the team of experts that manage and 
operate the NNSA nuclear weapons complex, whom I will introduce 
at that time.
    This topic has not received the attention it deserves. The 
maintenance and modernization of the nuclear weapons complex is 
a prerequisite to the continuing success of the science-based 
Stockpile Stewardship Program.
    For more than a decade, the Stockpile Stewardship Program 
has enabled us to successfully maintain the safety, security 
and reliability of our Nation's nuclear deterrent without 
underground nuclear tests.
    The Nation's success in this endeavor is a marvelous story 
and, frankly, it is not well enough publicized. But even where 
there is recognition of the effectiveness of the stewardship 
program, there is not always a recognition of the challenges of 
extending that success.
    With today's hearing, I want to have a frank discussion of 
what it takes in terms of both fiscal, physical and human 
capital to sustain and expand the success of the stewardship 
program.
    The backdrop for this discussion, of course, is the larger 
debate over the United States' nuclear weapons policy. I am as 
eager as anyone for a 21st century update to our nuclear 
weapons policies. That is why I led the effort last year to 
create the Congressional Commission on the Strategic Posture of 
the United States.
    I believe the Commission will foster and frame a national 
discussion on the role of nuclear weapons in assuring our 
national security. But as the Chairman of the Commission, the 
former Secretary of Defense Bill Perry, has noted, even as we 
try to move toward a world free of nuclear weapons, we must be 
realistic about the length of that process.
    It will take us decades. And so over that timeframe, we 
must ensure that the Stockpile Stewardship Program remains 
viable, which means we cannot simply sit on our hands and watch 
buildings erected during the Manhattan Project crumble, if in 
their absence, we have no space to do the work that stewardship 
requires.
    And it means that we cannot lay off thousands of scientists 
and engineers and then expect to do the science and technical 
work that stewardship requires.
    Our responsibilities are greater than that, and that is why 
we have called this hearing today.
    With that, let me turn to my very good friend, our ranking 
member, the distinguished member from Alabama, for any comments 
he might have.
    And before I turn to Mr. Everett, we don't have many other 
hearings planned for the rest of this year. We expect that we 
may be out in September. I am going to begin my process of 
saying goodbye to my friend.
    Mr. Everett is going to be retiring this year. He has had a 
number of years of distinguished service on this committee. He 
chaired this subcommittee. The little I know about being a 
chairman, I have learned from Mr. Everett. He is a great 
American and a great Alabaman, and I now yield time to the 
ranking member.

STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM ALABAMA, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. Well, I don't know quite how to follow that. I 
appreciate my good friend and chairman's comments. And what I 
can say is she is one of the brightest people I have ever 
worked with, and I appreciate her dedication to the issues that 
we face with this subcommittee, which are often, frankly, 
conflicts and sometimes controversial--often controversial.
    And you know, we are handling missile defense, all the 
overhead satellites and so forth, and then nuclear weapons. So 
I very much appreciate the partnership that we have had over 
the years in taking a look at these critical issues for the 
Nation. So thank you very much.
    Ms. Tauscher. You are welcome, Mr. Everett.
    Mr. Everett. And I would also like to extend a warm welcome 
to our witnesses. We have some exceptional brain trust with us 
today. I thank you for all your service and your dedication to 
what you do.
    We start down this path--we started down this path in April 
of 2006 when this subcommittee held a hearing on the 
Department's future plans for the nuclear complex--weapons 
complex. I think revisiting this topic is essential, and I 
thank the chairman for calling this meeting, which is critical 
and important and timely.
    I echo many of the concerns that she has. Our nuclear 
weapons complex is aging and our Nation's cadre of nuclear 
experts is aging. Without modernizing the infrastructure and 
fostering a new generation of nuclear experts, we put at risk a 
key portion of our Nation's defense, our strategic nuclear 
deterrent.
    Two years ago, this subcommittee was concerned that despite 
numerous studies there had been little change and almost no 
actual transformation. Since then, NNSA has put forward a plan 
for Complex Transformation.
    Its vision is to achieve a smaller, safer, less expensive 
complex--makes a lot of sense. However, there are a lot of 
questions about the particular course of action put forward by 
NNSA, and many are trying to understand how Complex 
Transformation relates to other nuclear policies and program 
issues being debated in Congress.
    Let me put forward some of the questions now and ask you to 
address them in your testimony. If you don't have time, then we 
will get to them in the questions and answers, starting with: 
What facility and infrastructure projects should move forward 
regardless of the future--on policy and size of the composition 
of the stockpile?
    How does the plan ensure long-term health for the 
stockpile--program?
    How does the plan rebuild human capital, as the chairman 
mentioned, across the nuclear enterprise in manufacturing, 
design, science, et cetera?
    How does the plan meet the military's need for a more 
responsive infrastructure and its need for weapons that are 
more reliable, safe and secure?
    How would Reliable Replacement Warhead (RRW) benefit the 
complex, and would it affect our transformation plan?
    How does NNSA fund transformation with a relatively flat 
budget?
    Last, for our second panel in particular, is there a better 
business model?
    What questions aren't we asking that we should be asking?
    Congress has before it some challenging nuclear policy and 
program issues that we do have--have many implications for the 
complex, and I am hopeful that the strategic commission that 
the chairman led the way in establishing last year will help to 
inform our decision-making on these issues.
    However, I believe our Nation will continue to maintain a 
strong nuclear deterrent, particularly as long as others 
maintain or seek nuclear capability. And our allies rely on our 
extended nuclear deterrent.
    A strong deterrent requires a strong infrastructure and 
workforce, and I fear without moving forward on modernization 
now, we risk weakening the stockpile we have been--that we have 
and jeopardizing our options for the future.
    Again, thank you all for being here.
    And I thank the chairman for calling this meeting at this 
time and for her leadership in the Commission. Thank you.
    Ms. Tauscher. Thank you, Mr. Everett.
    Under Secretary D'Agostino, the floor is yours. As we have 
received your prepared statement in advance, it will be entered 
into the record.
    I want to thank you again for delivering, once again, a 
very comprehensive review of the accomplishments and the 
challenges facing the complex. We welcome your remarks and the 
floor is yours.

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
    NUCLEAR SECURITY ADMINISTRATION; DR. GEORGE H. MILLER, 
 DIRECTOR, LAWRENCE LIVERMORE NATIONAL LABORATORY; DR. MICHAEL 
    R. ANASTASIO, LABORATORY DIRECTOR, LOS ALAMOS NATIONAL 
   LABORATORY; DR. THOMAS O. HUNTER, PRESIDENT AND DIRECTOR, 
     SANDIA NATIONAL LABORATORIES; DR. STEPHEN M. YOUNGER, 
PRESIDENT, NATIONAL SECURITY TECHNOLOGIES, LLC; J. GREG MEYER, 
   PRESIDENT AND GENERAL MANAGER, BABCOCK & WILCOX TECHNICAL 
  SERVICES PANTEX, LLC; VINCENT L. TRIM, PRESIDENT, HONEYWELL 
  FEDERAL MANUFACTURING & TECHNOLOGIES (FM&T), LLC; DARREL P. 
  KOHLHORST, PRESIDENT AND GENERAL MANAGER, BABCOCK & WILCOX 
 TECHNICAL SERVICES Y-12, LLC; DENNIS HAYES, GENERAL MANAGER, 
      DEFENSE PROGRAMS, WASHINGTON SAVANNAH RIVER COMPANY

    Mr. D'Agostino. Thank you, Madam Chair.
    And Chairman Tauscher, Ranking Member Everett, members of 
the subcommittee, thank you very much for the opportunity to 
discuss U.S. nuclear weapons policies and our programs.
    I would also like to take a brief moment as well to thank 
Ranking Member Everett for his great leadership on NNSA issues.
    I understand this is, in all likelihood, your last 
testimony--or last hearing as members of this important 
committee, and I want to thank you on behalf of the NNSA and 
all of us out in the field for everything you have done for us 
and for the Nation as a whole. We really appreciate your 
support.
    I would also like to acknowledge the representatives that 
we assembled behind me. These are the folks that work on our 
programs and our stockpile and our deterrent--not only that, on 
nonproliferation and counterterrorism issues.
    They spend their days and sometimes evenings and weekends 
working on these programs, worrying about them, and I 
appreciate your opportunity--the opportunity to have them come 
forward to show--talk to you about what they know.
    My written testimony, as you mentioned, goes into 
considerable detail on our vision shift from a 21st century--or 
from a Cold War era nuclear weapons complex to a 21st century 
national security enterprise. Both of those sets of words are 
different, and they are on purpose, but they are different.
    But what I want to convey today is that this vision of a 
smaller, safer but modern nuclear security enterprise is well 
thought out and is first based on requirements that we have 
received from the Department of Defense (DOD).
    Second, based on our ability to retain the human capital 
that is unique and world-class in performing their mission.
    And third, there is an urgency to act now to sustain key 
infrastructure capabilities necessary to maintain our 
deterrent.
    As we discuss these issues today, we must remember that the 
transformation of the stockpile and enterprise is, in some 
effect, already taking place.
    The first chart we have here before us shows the 
significant reductions in deployed strategic nuclear warheads 
that have occurred, and as planned for the future.
    As you know, the Moscow Treaty and President Bush's 
unilateral cuts to the nuclear weapons overall stockpile, which 
is now half of what it was when he took office--we really don't 
have a large Cold War weapons stockpile anymore.
    And since we don't have a large Cold War arsenal, we don't 
need the large Cold War complex that supported that arsenal and 
was so important to our Nation's security over the many decades 
in the past.
    And we have plans to reduce both the square footage of the 
complex to be more efficient and to focus on the capabilities 
needed to support future national security needs.
    A question has been raised by some individual--individuals 
that this Administration has not articulated an underlying 
strategy for our strategic posture.
    And in response to that, in March of 2008, just this year, 
Secretaries Bodman and Gates provided Congress a detailed, 
classified white paper entitled ``National Security and Nuclear 
Weapons in the 21st Century.''
    The document describes what type of deterrent strategy is 
needed; articulates the size and nature of the stockpile to 
correspond to that strategy; and three, articulates the type of 
infrastructure needed to support that stockpile into the 
future.
    As you know, we are the only declared nuclear state that is 
not, in fact, currently modernizing its infrastructure.
    Over the past three years, we have been aggressive in our 
efforts to analyze, describe and perform environmental studies 
associated with the type of security enterprises needed to meet 
the future requirements.
    As you can see from the stack of papers here, this isn't an 
approach we have taken idly. This is not a PowerPoint analysis. 
This is detailed business-case analyses, environmental analyses 
as required, and the team spent a couple of years, actually, 
pulling all this together.
    And it is remarkably detailed and thorough, and I am very 
proud of actually the work that they have done on each of these 
potential options.
    The draft ``Complex Transformation Supplemental 
Programmatic Environmental Impact Statement'' was published and 
posted in January of this year for public comment, and we are 
systematically in the process of considering well over 100,000 
oral and written comments on the documents, and those are the 
bottom 2 documents I have here.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    Mr. D'Agostino. My intention ultimately is to make a 
decision in 2008 on this three-year effort in order to continue 
on a viable path that will support the next Administration and 
the recommendations of the Congressional Commission on 
Strategic Posture, whose origin is from this very subcommittee.
    And I think the idea is to mesh the Record of Decision with 
the recommendations, so that the Commission has the 
opportunities, and I would call the space in order to make the 
recommendations appropriate to Congress and the next 
Administration. I think actually the synergy is quite nice 
here.
    As Members of Congress can appreciate, change can be 
unsettling, and the recent budget-driven dislocations and 
involuntary separations that have impacted this program have 
been very hard on employee morale and retention of younger 
staff members.
    When I announced the release of the ``Complex 
Transformation Supplemental Programmatic Environmental Impact 
Statement,'' I highlighted that scientific and engineering 
expertise are essential for the 21st century mission of our 
deterrent and nonproliferation missions.
    In addition, Secretary of Energy Bodman signed out a lab 
vision paper most recently setting forth the strategic mission 
of NNSA's three national security laboratories and the Nevada 
Test Site (NTS) to be able to respond to evolving 21st century 
global security threats.
    [The information referred to can be found in the Appendix 
on page 151.]
    Mr. D'Agostino. Enabled by our core weapons-related 
programs, these same individuals can and are using their skills 
in other areas of national security importance, such as 
nonproliferation programs, research and development (R&D), 
nuclear counterterrorism, and support to the intelligence 
community (IC).
    Simply put, it is that understanding of nuclear materials 
and properties, weapons and their effects, that supports these 
other critical national security needs out into the future.
    Regarding the physical transformation of our important 
plutonium and highly enriched uranium (HEU) capabilities, we 
need to make decisions and investments today in order for the 
sustainment of the strategic deterrent out into the future.
    Key construction projects such as the Uranium Processing 
Facility (UPF) at Y-12 and the Chemistry and Metallurgy 
Research Replacement (CMRR) project at Los Alamos are critical 
to sustain the uranium and plutonium capability that is 
necessary for any stockpile configuration and to continue 
nonproliferation and nuclear counterterrorism activities.
    Outside independent entities such as the Defense Nuclear 
Facility Safety Board (DNFSB) have noted that it is critical 
that the NNSA move quickly to replace uranium processing 
facilities located at Y-12 and the current Chemistry and 
Metallurgy Research (CMR) facility at Los Alamos.
    Over the last three years alone, NNSA has received about a 
dozen letters from the defense board citing concerns with the 
outdated Cold War-era uranium and plutonium operations.
    The board, as you know, is uniquely qualified to provide 
sound, independent, technical judgment with respect to safety 
and operations. And let me highlight one example.
    The defense board wrote just this year, in May, that they 
are ``concerned about the NNSA's ability to ensure safe 
operations of the CMR facility at Los Alamos, which may be 
essential for fulfilling NNSA's national nuclear security 
mission. Given the facility's age and seismic fragility, some 
upgrades may cost-prohibitive or impractical.''
    With respect to the relationship between the new facilities 
and the size of our stockpile, our investment in these projects 
is both sound and based on analysis of current and likely 
future scenarios.
    The reality is neither our workforce numbers nor facility 
square footage scale linearly with the size of the stockpile. 
In today's era of small stockpiles, the required square footage 
in a modern, well designed facility to provide essential 
capabilities frequently provides just the sufficient minimum 
capacity for our work.
    So just being able to maintain the capability is usually 
enough for the capacity that is required.
    This may be best shown on the second chart labeled ``Future 
Uranium Facility Requirements,'' and I will walk us through the 
chart, if I could.
    The Uranium Processing Facility is a facility that we are 
currently designing--we are not building it right now; we are 
going to wait--we have to wait for our appropriate 
authorization, of course--to function within various production 
ranges which are correctly tied to likely future scenarios.
    And we have considered scenarios from 0 up to about 150 
units per year as a range or so. There is a title here labeled 
``Baseline.'' It is the second one from the left--is at the 50 
to 80 level, consistent with the white paper, classified white 
paper, that has been up here since March.
    So in the end, this Uranium Processing Facility will 
replace a series--not just one, but a whole series of 50-year-
old buildings, Cold War-era buildings, down in Tennessee.
    It is being filled, as I said, to meet the modest 
requirements consistent with the white paper, 50 to 80, not an 
MPF-like number which could be considerably higher.
    And these are secondary. These are the components. It is 
actually the production piece. The bottom bar, which as you can 
see is almost two-thirds--or particularly on the column on the 
left is--that blue-shaded area just represents the minimum 
space required just to satisfy--not produce anything, just to 
take care of our deterrent, due to surveillance work that is 
needed; in fact, also to do work for Naval Reactors, the Naval 
Nuclear Propulsion program, to do the nonproliferation work, 
because as you know we are downblending a lot of highly 
enriched uranium, and do--and also do work for others in 
isotope production for scientific activities.
    So whether we build--to take the capacity required to build 
one more, one secondary--this is the production part--is that 
first yellow bar on--on the left there. So you see, just to 
make one secondary requires an increment of space.
    So whether you build 1 or 50 to 80, it is a very small 
variance in range. And in the end, what it shows is that what 
we are trying to do is make sure that our designs are flexible 
and such that just the required capacity to make one requires a 
certain amount of capability.
    In the end, this uranium processing facility, just space-
wise, will be about half of what the Cold War-era space was 
overall total, which was spread out across and, more 
importantly, will allow us to consolidate our security areas.
    Let me just take a minute, if I could, to focus on 
plutonium. The ability to work on and analyze and produce 
plutonium pits is essential to maintaining a deterrent and 
cannot be performed outside of the NNSA.
    Our current research, surveillance and manufacturing 
capabilities require and rely right now on old nuclear 
facilities. Last year, after a 10-year effort, we were finally 
able to reconstitute an interim production capability in a 30-
year-old facility.
    But just as important, our current research and analytical 
building, the Chemistry and Metallurgy Research facility that 
is essential to maintaining the stockpile, dates back to the 
early 1950's. It is well beyond its economic lifetime, and it 
is quickly approaching end of safe operations.
    The question is, what will happen if we do not transform 
and just maintain the status quo; I think the short answer is 
that we will reach a point where the NNSA will be unable to 
maintain our deterrent, not produce anything--we are not even 
getting to that point of producing, just unable to maintain the 
deterrent, because of the work that we have to do with the 
surveillance activities.
    Every year, the costs to maintain and secure and operate 
our facilities and infrastructures continues to rise, yet our 
program to sustain our infrastructure, to support a reduced 
stockpile is cut through the appropriations process.
    An independent group of scientists that advises the 
Government, the JASONs, the Defense Nuclear Facilities Safety 
Board, and the Defense Science Board have all issued reports or 
findings over the past several years highlighting the need for 
NNSA infrastructure improvements and modernizations.
    The last two charts that you will see--and we will show--
the first one will be the Y-12 before and after chart, and then 
the second one that will follow will be a future capabilities 
chart--kind of give you an idea of our overall approach.
    At Y-12, we are going to consolidate all the highly 
enriched uranium functions into 2 buildings, and take it from 
the 80-plus acres that we have right now into about 15 acres.
    So the image on the left shows the current image, and it 
may be hard to see from the rostrum--I apologize. The image on 
the right shows how a Y-12 of the future could look. You will 
notice a lot more green space, because we are going to be 
actually shrinking that security footprint down close to 90 
percent.
    That will save a lot of money, and it will drive our 
maintenance costs down, and it will make the operations of the 
Y-12 facility a lot more efficient, instead of having 
activities spread out over a much larger area.
    That core strategy--and if I could get the next chart--is 
going to be applied across the complex. This idea of 
consolidating capabilities--and over the next 10 years, by 
consolidating capabilities, what we are going to have is 
special nuclear materials (SNM) going from 7 sites to 5 sites 
in the future, with significantly smaller security footprints; 
consolidating mission functions across the enterprise, since 
our capacity requirements are no longer at Cold War levels; 
closing or transferring weapons activities from about 600 
buildings or activities, most of those by 2010; and reducing 
the square footage of facilities to supporting--that support 
weapons-only mission functions by more than 9 million square 
feet, so the idea of going from about 36 million square feet to 
25 million square feet or so of space.
    [The charts referred to can be found in the Appendix on 
page 152.]
    And ultimately, in the end, as Administrator, I am 
responsible for sustaining our capabilities to support the 
commitment to maintaining the lowest number of nuclear weapons 
consistent with our security requirements.
    I have taken a long, hard look at the weapons complex over 
many years and where I think it needs to be consistent with our 
future requirements. The need to change is urgent, as you have 
described.
    We must act now to adapt for the future and stop pouring 
money into an old Cold War weapons complex that is too big and 
too expensive.
    Assuming we all agree that for the foreseeable future the 
Nation has a need for a credible strategic deterrent, then we 
will need a national security enterprise that is safer for our 
workers than those used during the Cold War, regardless of the 
configuration of the stockpile.
    And perhaps more important, our dedicated workforce is the 
key to transformation and its success. Their expertise 
constitutes a key element of our Nation's security, and we must 
work to provide them the tools and facilities in order to 
perform their mission.
    Thank you very much, and I will be happy to take any 
questions.
    [The prepared statement of Mr. D'Agostino can be found in 
the Appendix on page 59.]
    Ms. Tauscher. Thank you very much, Tom.
    Now I would like to ask the impressive, hard-working team 
behind you to join you at the witness table, and I would also 
like to welcome each of them.
    Dr. Michael Anastasio, Director of Los Alamos National 
Laboratory (LANL).
    Mr. Dennis Hayes, General Manager, Defense Programs, 
Washington Savannah River Company (WSRC).
    Dr. Thomas O. Hunter, President and Laboratories Director, 
Sandia National Laboratories (SNL).
    Mr. Darrel P. Kohlhorst, President and General Manager, 
Babcock and Wilcox Technical Services at Y-12.
    Mr. J. Greg Meyer, President and General Manager, Babcock 
and Wilcox Technical Services, Pantex.
    Dr. George H. Miller, Director, Lawrence Livermore National 
Laboratory (LLNL).
    Mr. Vincent Trim, President, Honeywell Federal 
Manufacturing and Technologies, LLC, which manages and operates 
the Kansas City Plant.
    And Dr. Stephen Younger, President, National Security 
Technologies, LLC, which manages the Nevada Test Site.
    Thank you, each and every one of you, for being here and 
for the many, many people that you represent, all hard-working 
Americans. And thank you for working with us on the logistics 
of this hearing, and we look forward to our discussion with 
you.
    I am going to start with a question for Administrator 
D'Agostino.
    I commend you for noting the importance of maintaining the 
science and laboratory base of the complex and for announcing 
the laboratory vision for the future.
    At the same time, there have been literally thousands of 
laid-off staff from the national labs over the last two years. 
What specific steps do you plan to take to ensure that the 
critical human capital on which the Stockpile Stewardship 
Program depends is not permanently undermined?
    Mr. D'Agostino. Okay. Thank you, Madam Chair. There are a 
number of critical steps. The most important one, from my view, 
is exercising with the real work that we have in place right 
now. I think there is real work in the complex that the folks 
are doing, and to keep people focused on that work and make 
sure that they understand that I believe it is important, that 
the Nation believes it is important work.
    Folks out in the field--and I can let them speak for 
themselves. It is my impression, based on talking to a lot of 
people, that they pay attention to what Congress does. They pay 
attention to what we do here. They read our testimony. They 
listen in on these testimonies. And they read the paper.
    And the thing that worries me the most is the sense that 
the Nation does not care about this capability that has kept it 
so safe. So, a specific step from my standpoint is to 
reemphasize that this is important. I appreciate the 
subcommittee's understanding of their responsibilities in this 
area.
    Most specifically, you mentioned the Secretary putting out 
the lab vision for the future, which addresses the laboratories 
and the Nevada Test Site, and ultimately really extends to the 
rest of the nuclear security enterprise.
    But ultimately, that vision is--vision is important, and 
that vision described what I have talked about as making sure 
that we can go off and support other agencies as possible.
    But a vision is nothing unless it is implemented, and so 
the view--my view is to implement that vision. This year, what 
I can do is engage in what I have called ``strategic 
partnership agreements'' with other federal agencies for 
commitment of resources over multiple years of time that our 
directors can plan on arriving and to do critical work for 
these other agencies.
    And I hope within the next two months to be able to 
announce such a partnership, specific partnership, that is new 
and different from the past, and that maintains a long-term 
stability in a particular area. And if that works, we are going 
to continue to look at other areas where we can do more of 
that.
    Ms. Tauscher. Let's talk about the Life Extension Programs, 
because it has been argued that the LEPs, as they are called, 
for our nuclear weapons have, on occasion, exceeded the limits 
of simply refurbishing them. That is not my understanding, and 
I would like to clarify this for the record.
    Do Life Extension Programs add any new military 
capabilities to our nuclear weapons?
    Mr. D'Agostino. Ma'am, our Life Extension Programs are 
focused on, of course, first of all, extending the life, 
because components do change, but focused on safety, security 
and reliability-type functions.
    This is not about making a new weapon at all. The focus in 
many cases on safety and security--maybe a good example is the 
W76, where there--we focused on safety by adding the dual 
strong link mechanism, because we want to make sure that our 
weapons, where we can--make them safer than what we have had. 
Technology has changed over the last 30 years.
    With respect to reliability, fuses and--our fuses changed a 
little bit on the W76, because the radar technology has changed 
dramatically over 30 years. So why not put in a 21st century 
radar instead of a 1970's or 1980's radar in the system, 
duplicating exactly that it was done?
    But in the end analysis, what we are talking about is, you 
know, the exact same warhead. It has got the same mission that 
it had before. It has got the same yields that it had before to 
make sure it meets the same military characteristics that the 
Defense Department had originally set out.
    It is carried on the same platform; it is carried on the 
same delivery vehicle, potentially the same targets. I am sure 
the target set has changed a little bit. But in essence, it is 
the same warhead. So this is not about enhancing performance, 
or increasing yield, or making it a hard and deeply buried type 
of a thing at all.
    Ms. Tauscher. So effectively, Life Extension Programs are 
what they actually are said to be, life extension programs. 
They are not meant--they are not and do not change the 
performance, change the yield, change the military mission.
    Nothing in the Life Extension Program can be constituted as 
improving the weapon, other than in the sense that you are 
extending the life of the weapon.
    Mr. D'Agostino. That is right. And other than the fact 
that, in some cases--this probably doesn't apply to the W76, 
but some of our older systems have vacuum tubes in them. You 
can't buy those anymore. They don't exist in many cases. You 
would probably have to go on eBay or something like that.
    We are not going to do that, of course. We are going to use 
modern technology to replace that.
    Ms. Tauscher. There are people in the room that are too 
young to know what vacuum tubes are.
    Mr. D'Agostino. Okay, I apologize. I am dating myself, I 
guess.
    Ms. Tauscher. I have a question for Dr. Miller, Director 
Miller.
    What will the National Ignition Facility (NIF) contribute 
to the Stockpile Stewardship Program? And what specific areas 
of uncertainty regarding nuclear weapons performance will the 
NIF help resolve? It is the largest laser in the world, isn't 
it?
    Dr. Miller. Yes, ma'am. Thank you very much. When we did 
nuclear testing, there were several major areas that we did not 
have fundamental scientific understanding of. Many of these 
have been pointed out in a variety of studies and reviews, 
including the Defense Science Board.
    Let me call these ``the grand challenges of nuclear weapons 
physics.'' NIF is the only facility that allows us, in an 
experimental sense, without a nuclear weapon, to address all of 
the phases of a nuclear weapon that occur after the high 
explosive goes off and it goes into what we call the ``nuclear 
phase.''
    So the temperatures and the densities that occur, like 
occur in the center of the sun, would be achievable in NIF.
    And so issues of boosting, which the Defense Science Board 
called the largest challenge in weapons physics energy 
balance--there are about four of them that are addressable by 
NIF.
    They will allow us validate and understand how to do the 
simulations accurately so that we will enhance our confidence 
and move further away from the need to do nuclear testing.
    [The prepared statement of Dr. Miller can be found in the 
Appendix on page 71.]
    Ms. Tauscher. Thank you.
    My final question is for Dr. Anastasio, the Director of Los 
Alamos lab.
    If CMRR Nuclear Facility is not built, what are the 
consequences to the Stockpile Stewardship Program and to other 
national security functions, such as nuclear forensics?
    Dr. Anastasio. Thank you, Madam Chairman. The CMR, as 
Administrator D'Agostino said in his comments, is a capability 
that we use to--for the country to underwrite our stockpile 
stewardship activities.
    The Chemistry and Metallurgical Research facility is old. 
It came online in 1952. And the capabilities there are 
essential to carry out our mission. One example is in the 
Stockpile Stewardship Program, periodically we bring weapons 
back from the military, take them apart and do forensics on the 
components in that weapon.
    One of those is we actually take the pits apart and take 
samples out of the pit, take pieces out, and we use our 
analytic and metallurgical capabilities, our R&D scientific 
tools in this facility, to look at that material and see how is 
it aging, is it changing, can we project and predict its life 
and the issues that may or may not arise. So that surveillance 
activity is actually done in this facility.
    Of course, it also supports other missions. Besides our 
stockpile stewardship, we do a lot of work to support 
nonproliferation activities, counterterrorism activities, 
nuclear forensics, as you identified, and even the National 
Aeronautics and Space Administration (NASA) space missions are 
supported by the activities that go on in that building.
    So it is an essential capability that must be maintained 
somehow, but it is getting so old that it is very--and sits on 
an earthquake fault. It is difficult for us to continue to meet 
the evolving modern standards of safety and security.
    So building a replacement facility for it is a way to 
sustain that capability in a practical sense.
    And then the last point is, of course, it is part, as well, 
of the laboratories' transformation efforts to get to a 
smaller, more secure, more efficient footprint.
    And as an example, the new facility will be over 100,000 
square feet smaller. It will be relocated inside a consolidated 
nuclear area at the laboratory which is much more easy to have 
a security protection perimeter for. And we will be 
accommodating the activity that is going on now at the Lawrence 
Livermore Lab.
    So it is a way to make us more safe, more efficient and 
more secure, at the same time continuing to carry out both our 
stockpile stewardship mission and to support many of the other 
national security activities of the lab.
    [The prepared statement of Dr. Anastasio can be found in 
the Appendix on page 76.]
    Ms. Tauscher. Thank you, Dr. Anastasio.
    I am happy now to yield to the ranking member for such time 
as he may consume.
    After Mr. Everett is finished, we will go to member 
questions under the five-minute rule, and we would expect that 
we will have two rounds because we have such a large panel and 
we want to be able to get as much out of you as we can.
    So I am happy to yield to Mr. Everett.
    Mr. Everett. Thank you, Chairman.
    Mr. D'Agostino, you touched on this briefly during your 
testimony, but what facility and infrastructure projects should 
move forward regardless of future decisions on policy and size 
and composition of the stockpile?
    You also touched on the ``why,'' but also re-touch on the 
``why.''
    Mr. D'Agostino. Yes, sir. I will kind of answer it in two 
ways. From the large sense, it is important for those 
projects--all those projects that provide the bare minimum 
capability that is required to maintain a deterrent, should go 
forward regardless of size.
    Now, size should be considered, of course, but if, for 
example, a--to maintain a deterrent, I need to maintain a 
uranium capability. That doesn't mean I should build multiple 
uranium capabilities. I ought to have at least one good one. If 
I don't have one good one, I need one good one.
    So I focus it on, is this a matter of capability or 
capacity? And my first priority is to maintain capability, 
because without capability, I can't maintain our deterrent.
    The capacity part could come later, whether we need a 
second one or a third one. So I have to have kind of one of 
everything. And then I have to have it sized such that it 
allows for flexibility based on the bipartisan commission--the 
strategic commission that is reviewing it right now.
    So I am sizing it from like--from the--I am going to need 
one warhead up to where we currently are right now, and it 
turns out that because, in many cases, just having one of 
something means that you can actually build more than one of 
something, that is probably where we are going to end up.
    But specifically, the CMR replacement facility, because our 
plutonium capability and path forward is not sustainable.
    At Lawrence Livermore, for example, we have a plutonium 
capability. It is in a multi-decade-old facility, but it is 
also being surrounded by a community that is just growing right 
around it. That is not a plan that is sustainable. It doesn't 
make sense, costs a lot of money.
    And as Dr. Anastasio described up at Los Alamos, we are in 
an old facility there. So between the two, I only need one, and 
that is the CMR replacement facility.
    At Y-12, it is about uranium, and I described the idea of 
getting to fewer--consolidating our uranium capability. And 
that philosophy can be carried forward kind of across the 
nuclear weapons complex.
    But those are the two main ones right now that I am very 
uneasy about, because we are not on a good path, and we are on 
a very expensive path, and ultimately--you know, unless we 
fully support these functions or these facilities.
    Mr. Everett. To what degree would--to what degree would 
NNSA's Complex Transformation plans be altered based on whether 
it pursues a Reliable Replacement Warhead (RRW) strategy or 
continues the Life Extension Program strategy?
    Mr. D'Agostino. If the Nation decided it wanted to pursue 
that strategy, our plans could be altered probably in a couple 
of main areas.
    One is beryllium. Our plans for the future don't include 
beryllium, particularly beryllium metal, and then the oxides. 
But the idea of--that is a capability I won't have to maintain.
    Right now, we don't have a capability to do a significant 
amount of work with beryllium, and we don't actually want to do 
that into the future. So a reliable replacement approach that 
considers getting rid of some of these materials allows me to 
not have to worry about beryllium anymore.
    There is a heavy metal that is produced down and 
manufactured down in Tennessee that we would currently have to 
maintain. It is a mile-long production process stream down at--
down there. It is in very old buildings, as well.
    It is not highly enriched uranium, but if we didn't pursue 
another approach, I would need to maintain that capability and 
not have to rebuild that.
    So these are important, but they are marginal activities, I 
think. At a bare minimum, what I want to do is make sure that 
the plans we have in place sustain a capability to provide 
options for the strategic commission and the next 
Administration, so they can move forward down--down whatever 
path the Nation ultimately decides it wants to go in the long 
run.
    Mr. Everett. How does NNSA propose to fund Complex 
Transformation, given what many, and perhaps most believe to be 
a flat budget?
    Mr. D'Agostino. Okay. There are a number of steps. I will 
describe a couple of key ones, and then I could probably 
provide a more--a longer answer. I don't want to take up too 
much time.
    But the key couple of steps that we are already putting in 
place is material consolidation. By consolidating material--
let's say, for example, the work that we currently have under 
way at Lawrence Livermore to move plutonium, significant 
quantities of plutonium, that require his higher level security 
out--could save about $30 million a year.
    So that is real money. That is significant. Those are 
resources that can be put back into infrastructure. And we are 
not just doing it at Livermore. In fact, we have completed that 
job at Sandia. In the past, Sandia required a much larger 
security force, and most recently, within the last 12 months, 
we finished the job of moving those materials out.
    We have opportunities at the Nevada Test Site, because it 
is a very remote location, to do work there that could 
potentially reduce our security costs elsewhere.
    Right now, the NNSA spends over $800 million in security 
costs. It is money well spent, but there is a much more 
efficient way to do that.
    And there are other mechanisms, such as consolidating 
contracts, looking at doing supply chain management in a 
different way, which is already under way right now. We have 
demonstrated savings of $5 million a year through this concept 
called reverse auctions, and we are expecting that to grow 
significantly this upcoming year.
    And so these contractors have saved a lot of money by 
looking at business in a different way and working together 
more than just focusing on being completely independent of each 
other.
    So there is some good things there, and I am confident that 
we can fund a significant part of this. And we are going to 
have to balance our workload, there is no question about it, 
with respect to facilities.
    Mr. Everett. Largely, the savings from base closure 
commissions have not necessarily materialized. And I would--
when you give us--I would ask for a more detailed explanation 
and the underpinning of why you reached the analysis that you 
did----
    Mr. D'Agostino. Okay.
    Mr. Everett [continuing]. On this.
    Mr. D'Agostino. I would be glad to do that.
    [The information referred to can be found in the Appendix 
beginning on page 199.]
    Mr. Everett. Thank you, Ms. Chairman.
    Ms. Tauscher. Thank you, Mr. Everett.
    We are about to go to five-minute questioning from members. 
I would just like to note for the record that the unfortunate 
passing of former White House Press Secretary Tony Snow--his 
memorial service is now--has led some members obviously to not 
be here, and many of them will submit questions for the record, 
and obviously we extend to the Snow family our deepest 
condolences.
    We go to Mr. Loebsack of Iowa for five minutes.
    Mr. Loebsack. Thank you, Madam Chairman. I am going to 
pass.
    Ms. Tauscher. We go to Mr. Wilson for five minutes.
    Mr. Wilson. Thank you, Madam Chairwoman.
    And thank all of you for being here today. I am 
particularly happy to see Mr. Hayes. I am very pleased to, 
along with Congressman Gresham Barrett, to represent the 
Savannah River Site (SRS).
    And I had the background--I particularly appreciate your 
service. I was Deputy General Counsel at the Department of 
Energy (DOE) several decades ago, but I appreciate your 
dedication and service for our country.
    And indeed, the Savannah River Site has been located in 
South Carolina for the last--since the early 1950's, and it has 
had a terrific record of service. It has been so appreciated by 
the community. There is just strong community support.
    And indeed, I just want to thank Mr. Hayes for his 
leadership to continue the strong feelings that the people of 
South Carolina and Georgia have for the Savannah River Site.
    Mr. D'Agostino, as we are approaching issues, the Senate 
Energy and Water Appropriations Subcommittee included $22 
million in their bill to expand the Advanced Retirement and 
Integrated Extraction System (ARIES) mission, to bridge the gap 
between when MOX and the disassembly and conversion facility 
opens.
    Does SRS have the ability to help bridge this gap using 
existing facilities and material currently on or destined for 
the site?
    Mr. D'Agostino. Mr. Wilson, that is--they do. In fact, we 
are evaluating that right now. We are looking at this from a--
kind of a nuclear security enterprise response.
    We recognize the workforce at Savannah River, at the 
Savannah River Site, is dedicated. They know what they are 
doing. They have worked with plutonium, and they are part of 
our solution set as we look to figure out how do we bridge that 
gap between the startup of the MOX facility and the--and the--
you know, bridge that gap between the Pit Disassembly and 
Conversion Facility (PDCF) project and the startup of the 
facility.
    And my important view is we need to have the oxide material 
to keep MOX running, because I want to--I want to get all of 
the value out of that facility.
    Mr. Wilson. We certainly support your goal.
    The NNSA has determined that there is a need to--has it 
determined there is a need to expand the mission of ARIES?
    Mr. D'Agostino. That is right. In other words, right now, 
our current plan doesn't--because we expected there to be not 
much of a multiyear gap, and the reality is that because of 
funding profiles, there have been some shifts as a result of 
moving projects back and forth and not full funding that have 
caused the gap to widen.
    So we are going to have to do a little bit more, most 
likelihood, in the ARIES process. But ultimately, in the end, 
what we are trying to figure out is what makes sense in the 
long run.
    Mr. Wilson. And on funding, is this additional $22 million 
appropriation for ARIES necessary at this point?
    Mr. D'Agostino. I actually don't know the answer to that 
question, Mr. Wilson. I think it just came out recently. What 
we are trying to do is figure out what is the right thing to do 
programmatically and then figure out then what are the 
resources we need and where do we need the resources in order 
to support the ultimate goal of downblending the 34 metric tons 
(MT) of plutonium.
    And then, of course, just last year the Secretary added 
nine more metric tons of plutonium to the batch, if you will, 
that is going through, and we are looking at ways to continue 
to add more material to be downblended.
    And so I don't know if this is the right amount of money. 
But that is something that we are going to analyze and that Bob 
Smolen, who runs Defense Programs--he is the Deputy 
Administrator there--that is--he has got a team of people, 
including Savannah River, to look at that.
    Mr. Wilson. And of great importance to the community, how 
does an expanded ARIES mission fit into the--NNSA's vision for 
the new weapons complex?
    Mr. D'Agostino. Well, I think it really kind of depends on 
whether the expansion of ARIES where it currently exists is the 
right--is the right approach. We haven't made that 
determination.
    I think my goal ultimately is to make sure that--I mean, 
right now, ARIES is an activity that is being conducted, but we 
don't think it has got that pace and rate that is going to 
actually cover the gap.
    So in the end, we want a permanent solution, because what 
we have got is the 34 metric tons, plus 9 metric tons, plus 
potentially another sizeable piece or slice of plutonium that 
we are going to add to the capability.
    And you know, all of that material, whether it is 50 tons 
or not, or more, will be part of the answer, the business-case 
answer, that we will come up with.
    Mr. Wilson. And in conclusion, under DOE Project Management 
Order DOE-0413.3A, a full evaluation of the alternative 
analysis is required before making a decision. Are there plans 
to initiate a full analysis of alternatives?
    Mr. D'Agostino. Absolutely. Right now, the Pit Disassembly 
and Conversion Facility--what we call Critical Decision 2, 
where we establish our baseline, is scheduled--it is probably 
going to happen January timeframe or early next year.
    That 413 order requires us to reevaluate the previous 
critical decisions. And the previous critical decision is to 
reexamine all options, because it is important before we commit 
resources that we know that we are on the right path, and so we 
will do that as part of DOE 413, sir.
    Mr. Wilson. Thank you, Madam Chairwoman.
    Ms. Tauscher. Thank you, Mr. Wilson.
    Five minutes to Ms. Tsongas of Massachusetts.
    Ms. Tsongas. Thank you.
    And thank you all for your testimony. There is many of you 
up there, but I am going to address this question again to Mr. 
D'Agostino. Sorry.
    In the wake of recent Department of Defense nuclear 
mishaps, select independent reviews have highlighted an erosion 
across the nuclear enterprise. To what extent has this erosion 
materialized within the nuclear weapons complex? And how do 
NNSA's Complex Transformation plans address this?
    Mr. D'Agostino. Okay. Thank you very much for your 
question. I think that is a great question. It reflects 
something that I have--we have been thinking about for the last 
number of years, actually.
    We in this business have been--pay close attention to the 
Defense Department and work closely with them. About two years 
ago, the Defense Science Board wrote a report which described 
concerns about the infrastructure and attention on strategic 
issues such as these. In that report, there are recommendations 
for both the Department of Energy and the Department of Defense 
to undertake.
    Secretary Bodman, as part of that, because he was briefed 
out by General Welch, who headed up that report, in fact--he 
talked to the Secretary of Defense at the time and actually had 
a meeting with him, with the Deputy Secretary--took those 
actions very seriously and made a number of changes to our 
organizational structure and I think drove a tremendous amount 
of focus on the Department of Energy side.
    We initiated a program called ``Getting the Job Done,'' 
which focused on 10 specific items to restore the capability, 
to meet Defense Department needs. There was a bit of 
reorganization where the site office organizations that had 
previously reported up in the organization were shifted back 
down to Defense Programs.
    And in this case, I have got Air Force General, retired, 
Bob Smolen, in that job. He is tightly connected with the new 
Air Force leadership and has showed them what we have done and 
provided recommendations to the Air Force on how to address 
that.
    One final point is that as a result--Admiral Kirk Donald is 
dual hatted. He reports into the NNSA, to me, as well as to the 
Department of the Navy. He was the admiral that led the 
investigation for Secretary Gates and had shared what his 
lessons learned were as a result of his investigation.
    And Bob Smolen and I have chartered an independent group 
led by Bill Desmond, who was the former Chief of Defense 
Nuclear Security, to make sure and evaluate those lessons 
learned from the Defense Department--let's make sure we bring 
them back here in the National Nuclear Security Administration 
and make sure that we are doing the right thing and that we 
have covered all our bases.
    That review is underway right now and is expected--I expect 
to get some feedback--Bob Smolen and I expect to get some 
feedback in the October timeframe, roughly, this fall, because 
we want to take action, if any is needed, this year on that 
path forward.
    Ms. Tsongas. Thank you.
    Ms. Tauscher. Do you yield back?
    Ms. Tsongas. I do.
    Ms. Tauscher. Mr. Spratt for five minutes, Mr. Spratt from 
South Carolina.
    Mr. Spratt. Well, thank you all for your presence and for 
your testimony.
    Is the five-site complex that you now have in mind 
dependent on the RRW? Is it modeled around that particular 
focal point?
    Mr. D'Agostino. No, sir. The consolidation of materials to 
five sites--I think is maybe what you are referring to--is 
independent on whether--what approach we use for the future 
stockpile, whether we maintain a life extension strategy or 
look to add enhanced safety and security via other methods.
    Our view is that we need to consolidate our material for a 
couple of reasons. Efficiency right now is--and cost savings 
are huge parts of that.
    And plus there is the safety and security aspect. If the 
material is in fewer locations it is easier for us to protect, 
and it is easier to make sure that that workforce is trained 
and know how to work on that on a day-to-day basis, versus 
trying to spread that capability around at too many sites.
    Mr. Spratt. Since you speak of capital cost, can you give 
us an idea of what the likely capital cost is going to be, the 
incremental costs over and above your typical capital budget?
    Mr. D'Agostino. Right now, we spend on the average of--our 
capital budget in the NNSA averages somewhere between $250 
million to $450 million per year, depending on the year, 
because it goes up and down depending on the projects that we 
have overall.
    We expect that this modernization effort is probably going 
to increase that baseline to about $600 million, $650 million 
per year, so on the order of $150 million to $200 million per 
year more.
    So our focus is to drive down costs through better-business 
practices, through consolidation of materials across the 
complex, through supply-chain management----
    Mr. Spratt. But the incremental cost is $150 million to 
$200 million a year?
    Mr. D'Agostino. Roughly. And it depends on a couple of 
things. It depends on--there is unknowns out there. One is this 
Critical Decision 2 where we establish a performance baseline. 
That is kind of the--my contract with my contractors, if you 
will, saying you agree to provide this building at this date 
for this time for this amount of money on this rate of 
expenditure.
    Both the Critical Decision 2's for the two facilities that 
we are talking about, the UPF and the CMRR--we haven't reached 
those points yet.
    The CMRR Critical Decision 2 won't happen until we do a 
little bit more preliminary design work, until the year 2010, 
and that is something that the laboratory is working on fairly 
aggressively. And the UPF is a little bit--is downstream as 
well.
    When we get those Critical Decision 2's, we will have to 
marry-up and make sure that our cash flow is supported by our 
existing budget, and that will be--that is the work that will 
have to happen.
    Mr. Spratt. You indicate that you would anticipate removing 
about 600 buildings and facilities?
    Mr. D'Agostino. What we would do--yes. Some of those 
buildings and facilities are actually just underutilized and 
not needed anymore, so we would take them down. Yes, sir.
    Mr. Spratt. How many of them have contamination costs, 
cleanup costs, associated with them?
    Mr. D'Agostino. I don't have that--I don't have that 
accurate number on the top of my head. I would like to take 
that for the record, if I could. But what--there are a number 
of these facilities, for example, that have very little 
contamination and are fairly simple to take down.
    [The information referred to can be found in the Appendix 
on page 202.]
    Mr. D'Agostino. And our fiscal year 2009 request 
established a funding line--requested a funding line for--
called Transformation Disposition--in other words, dismantling. 
And this is not heavily contaminated buildings.
    There is a smaller subset of facilities that we are going 
to be working with our Environmental Management (EM) 
organization to see, you know, how we are going to do that. And 
that work--it really depends on the alternative. I have a draft 
plan that is out in public right now.
    When we get to the record of decision point, when we have 
agreement on what we will do, then we are going to sharpen our 
pencils on those particular points and figure out which ends up 
on which side of the line and how we want to move forward.
    Mr. Spratt. Okay.
    I have a couple more questions that I will come back to.
    Ms. Tauscher. Thank you, Mr. Spratt.
    I am happy to go to Mr. Reyes for five minutes, Mr. Reyes 
of Texas.
    Mr. Reyes. Thank you, Madam Chairwoman.
    My questions are along the same lines as Mr. Spratt. Mr. 
D'Agostino, because the consensus is pretty much that we are 
going to be seeing pretty flat budgets in the foreseeable 
future, probably the next decade.
    Mr. D'Agostino. Right.
    Mr. Reyes. So I have got some concerns that go back to when 
I was the ranking member and Mr. Everett was the chairman, from 
several perspective.
    Number one, as you go through this process of eliminating 
these buildings that--that aren't being used, and take into 
consideration the cleanup and all these other things, for me 
security has to be an issue.
    And so I am wondering, given the budget, given the 
challenge and given the transformation, how are you going to be 
able to reconcile that, or what is the plan to be able to 
provide and maximize security, given the challenges we have 
seen in the recent past?
    Mr. D'Agostino. On the security piece of it, within the 
security budget, the Defense Nuclear Security Program, there is 
a line on research and development and technology insertion. In 
other words, it is the idea of doing security differently, not 
doing it--doing less security, but doing it from a different 
standpoint.
    And there are a number of technologies that are being 
looked at to be implemented--Remotely Operated Weapons systems, 
for example--that can reduce the overall level of costs, since 
the cost in security is over $800 million a year.
    So this is not about less security. This is about doing it 
a little bit differently, because the biggest costs of security 
ultimately are the costs associated with maintaining a very 
large workforce. And the more guard stations there are that 
exist out there, the more numbers of guards that you have to 
maintain those and the like.
    There are some activities that are being considered across 
the complex, some of my colleagues may be able to provide some 
specific examples of security technologies that they have been 
able to actually implement in their areas.
    We know that we can save $30 million by shifting the 
Superblock facility at Livermore from a Category I/II facility 
to a Category III/IV facility, because--and that is--that is a 
pretty significant cost.
    We know in Texas, for example, at the Pantex plant, we can 
look at Zone 4, which is a remote weapons storage site for 
plutonium and the like, and that if we move some of that 
underground, and we have got capabilities across the complex, 
we can change the security posture dramatically.
    So right now at Pantex, we protect two very large areas, 
Zone 4 and Zone 12. If it were reduced down to one, I think the 
costs of security savings there are in the multiple tens of 
millions of dollars per year.
    And those are the areas that we are going to go 
aggressively after to try to drive that efficiency in the 
program, because we recognize--I recognize that, you know, 
there is not a--there is not enough room to add, if you will, a 
large multi-hundred-million-dollar line on top of everything 
else. It is just not affordable.
    So we have to look at doing business differently, and that 
is one--that is our third strategy, is change the way we do 
business.
    Mr. Reyes. Well, some of the concerns that I have--and 
again, predicated on the experience that I have had in--
particularly in this committee as a ranking member--is that we 
don't cut corners, that we don't--that I guess the--because one 
of the big issues that we identified previously was the culture 
of some of these facilities was that, you know, we are 
scientists, we don't have to worry about security that much, 
that is somebody else's--that is somebody else's concern.
    So cutting corners, the challenge that we have with the 
budget, the understanding that there was a commitment made to 
this committee, or the subcommittee, that training on an 
ongoing basis to make sure that there is--the workforce is 
sensitized to security and the breaches that we have 
experienced in the past, that that doesn't fall by the wayside.
    You know, in tough budget times, unfortunately, one of the 
first things that go--that goes is training, and that is an 
important part of this piece, given the track record of some of 
these facilities.
    So, I hope you keep the subcommittee informed of this 
ongoing--because it sounds like it is an ongoing and fluid plan 
that is evolving, so that we can, I guess, make sure that those 
concerns are addressed.
    Thank you, Madam Chairwoman.
    Mr. D'Agostino. Yes, sir.
    Ms. Tauscher. Thank you, Mr. Reyes.
    I am going to go to questions before we go to Mr. Larsen.
    I would like to talk--ask a question of Dr. Hunter from 
Sandia.
    Following the competitions for the contracts to manage and 
operate Livermore and Los Alamos laboratories in the last few 
years, some have begun to question whether for-profit entities 
are ideally suited to manage these institutions.
    Should the business model of governance of the national 
laboratories be a consideration in Complex Transformation?
    Dr. Hunter. Thank you, Madam Chairman--very important 
question, one that we spend a lot of time thinking about, 
because we--we like to look at our--for instance, our role at 
Sandia and ask, ``What is the best way in which we can support 
the Government?''
    I would like to make just a couple of points about how I 
feel about that and then directly address your question about 
for-profits.
    I think an essential ingredient which can't be bought at 
any price but which is critical moving forward is that each of 
the institutions be an institution committed to national 
service, that their primary and fundamental role is we are 
about national service, and all of our decisions and all of our 
incentives for decisions are about how we serve the Nation 
best.
    Second, it is very important that the incentives and the 
roles and the leadership of the institutions think about how to 
have both, not either, and not a balance, but both excellence 
in operations, including security, and excellence in science, a 
quest to try to maximize and provide both at the best possible 
level.
    And then getting more directly to your question, each 
institution, each person who leads and each person who has a 
responsible position, has to feel accountable for what they do. 
They have to feel accountable to this value of national 
service. They have to feel accountable to the fact that they 
must deliver.
    And with the accountability, and the feeling of 
accountability must go the authority to deal with it and the 
proper balanced role of what--who does what in the institution 
and who does what with respect to the Federal Government.
    And then last, the dominant criteria should be the 
stewardship of its people and the people, as reflecting on 
other comments, have to be felt to be valued and respected and 
supported.
    You cannot buy, and it is a good thing--you cannot buy 
people who know and care about nuclear weapons. They have to be 
created. They have to be invested in. They have to be 
supported.
    If you put all those together, I think it does not matter 
so much about profit or for-profit. What matters is what--what 
is the ethos or the value statement of the institution, how is 
it supported, and how is it managed, and how does the Federal 
Government then respond by acknowledging the accountability and 
the incentives that go with it.
    [The prepared statement of Dr. Hunter can be found in the 
Appendix on page 82.]
    Ms. Tauscher. That is a great answer. Thank you.
    Dr. Younger, of the Nevada Test Site, in your testimony you 
suggest that the Device Assembly Facility (DAF) at the Nevada 
Test Site is underutilized.
    What additional Stockpile Stewardship Program or national 
security activities could be supported there, and what sort of 
modifications, if any, would be required to enable such work, 
and what would they cost?
    Dr. Younger. Thank you. The Device Assembly Facility is 
currently being modified to house the Critical Experiments 
Facility that was formerly located at TA-18 at Los Alamos. That 
will result in considerable security savings while providing a 
full capability for the Nation.
    When that modification is complete, we will still have 
40,000 square feet of empty space--the Device Assembly 
Facility, at a time when nuclear capable space costs 
approximately $65,000 per square foot to build. That could be 
used for a variety of missions.
    We are looking at the possibility of augmenting--not 
replacing, certainly, but augmenting weapons disassembly in the 
DAF, or small lot special case disassemblies.
    There are a variety of plutonium operations that could be 
conducted in the DAF--business-case warrants, including 
surveillance, including an augmentation to the ARIES process at 
Los Alamos, and including other plutonium operations.
    The typical cost for the modification of the DAF, since it 
is a fully capable nuclear facility today, and since security 
is already paid for by other missions--and I might add that the 
DAF is considered one of, if not the most, secure facilities in 
the DOE complex.
    The cost of modification for a major mission would be 
between $100 million and $300 million, which is considerably 
less than construction of a facility.
    [The prepared statement of Dr. Younger can be found in the 
Appendix on page 88.]
    Ms. Tauscher. Just as an aside, many of our colleagues and 
I, with Administrator D'Agostino, took a tour of many parts of 
the complex a few months ago, and I think one of the most 
fascinating things that the American people don't understand, 
which is why this narrative that we are building is so 
important, is when you go to the Nevada Test Site, which--I 
would recommend you change your name.
    When you go to the Nevada Test Site, it is a warren of 
busyness. There is so much stuff going on there. You have got 
so many other things that you're doing that are very 
important--homeland security, national security--so much going 
on there.
    And I think that most people think that when you go to the 
Nevada Test Site you are moving away the cobwebs because it 
hasn't been used for so long. And the truth is, it is a dynamic 
facility.
    And I think it is very important that we continue to get 
the message out of all the other work that is being done there. 
And I am not kidding about changing the name.
    Dr. Younger. I cordially invite----
    [Laughter.]
    Dr. Younger. I cordially invite all the members of the 
committee to visit the site that is currently in Nevada that 
will shortly be renamed.
    Ms. Tauscher. We will be back.
    And also, we went to Pantex, and we have J. Greg Meyer 
here, who is from Pantex, and we would just like to talk a 
little bit about the operations and workload at Pantex.
    And would it be altered if the decision on Life Extension 
Programs was life extension programs only, or if we moved to 
something that was similar to the RRW strategy? What kind of 
workload would Pantex have? Would it be altered, and the 
mission that you have there at Pantex?
    Mr. Meyer. The exact mission would not change in terms of 
assembly/disassembly, but the mix of that workload would. But 
right now, if--we do a number of different weapons systems, 
both lifetime extension programs, as well as dismantlements, as 
well as surveillances.
    If the decision was made to do only LEPs, we would then 
focus very heavily on that and continue to do dismantlements, 
and then surveillances as necessary.
    If we were going to go down the RRW path, on the other 
hand, we would probably not do LEPs or surveillances to the 
same extent. We would be building one new weapons system, RRW, 
but doing very heavily dismantlement work.
    Bays and cells at Pantex are multifunctional in that sense. 
They don't wear out. We basically stage the tooling appropriate 
and do the training, so the workforce would be about the same. 
The training would be slightly different, especially if it is 
RRW.
    With RRW, since it is--it would be a new design--actually, 
we are working--we have been invited to participate with the 
laboratories and give some of the actual production input so 
that design would have our inputs in and make the assembly/
disassembly process easier for us.
    But the flexibility of the Pantex lab would support either 
role.
    [The prepared statement of Mr. Meyer can be found in the 
Appendix on page 95.]
    Ms. Tauscher. Thank you very much.
    And I have got a question for Vincent Trim of the Kansas 
City Plant.
    The decision was made to build a new facility at Kansas 
City. Talk very briefly, if you can, about how--what the 
process of evaluation was to make that decision? Assumably, the 
decision to build the new facility was--included cost savings, 
and if you could just tell us a little bit about why the 
decision was to build the facility as opposed to consolidation?
    Mr. Trim. Certainly. The current facility was built in the 
late 1940's and is approximately 3.3 million square feet. We 
believe the mission only requires roughly 1.2 million square 
feet of manufacturing space, so it is a pretty easy business 
case when you look at the cost of maintaining a Cold War 
structure, security, maintenance and a whole host of costs that 
go along with that.
    We had independent groups look at the business case, and 
primarily, the driver is that maintaining the capability is 
also about maintaining the talent that exists.
    We are more than just assemblers of nuclear--or builders of 
components. We have engineers, and we bridge that gap between 
design and manufacturability at the Kansas City Plant.
    But the business case is very compelling and will yield 
$100 million a year in savings when we hit rate production and 
get into the new facility in 2012. Thank you.
    [The prepared statement of Mr. Trim can be found in the 
Appendix on page 103.]
    Ms. Tauscher. Thank you. I have questions for Mr. Kohlhorst 
and for Mr. Hayes, but I will hold them till after Mr. Larsen 
of Washington asks his questions for five minutes.
    Do you want to pass?
    Mr. Larsen. Yes, I will pass.
    Ms. Tauscher. Mr. Kohlhorst, how are you? The Y-12 plant in 
Tennessee--the planned Uranium Processing Facility is being 
designed to accommodate potential shifts in our strategic 
weapons policy, I assume.
    Can you tell us a little bit about how that is being done 
and how you are facilitating the kind of flexibility that may 
be needed?
    Mr. Kohlhorst. Certainly, Madam Chairman. Working through 
the preliminary and concept designs of that facility, we have 
made sure that the maximum flexibility is there for changes in 
the stockpile, changes in the workload.
    The facility is being designed with all the correct safety 
systems and security systems built into the facility so that if 
these changes come about, we are prepared to move processing 
equipment, reconfigure the processing lines, add capability 
where we need it, reduce it in other areas.
    It is a general--it is a very general manufacturing 
facility on the inside of the processing area, although it has 
some--some nuclear safety systems that surround it that keep us 
safe no matter what we--so all of those are being taken into 
consideration as we do the design.
    [The prepared statement of Mr. Kohlhorst can be found in 
the Appendix on page 108.]
    Ms. Tauscher. Thank you very much.
    Mr. Hayes, what should the NNSA and Congress do to ensure 
that DOE planning for plutonium disposition at Savannah River 
Site--what do we do to make sure it is synchronized with the 
NNSA's Complex Transformation plans?
    Mr. Hayes. Good morning. I think the activities that Tom 
talked about before that are currently underway will ensure 
that the activities going on at Savannah River and with a 
broader perspective the NNSA are accounted for.
    We have several key experts at Savannah River, with years 
of plutonium experience, participating in complex councils to 
make sure that that information is communicated.
    [The prepared statement of Mr. Hayes can be found in the 
Appendix on page 116.]
    Ms. Tauscher. Thank you.
    Mr. Spratt for a second round for five minutes?
    Mr. Spratt. You may have answered this before, and I was 
listening to the testimony and reading the briefing memorandum 
at the same time. But what is the current plan for the location 
of the Pit Disassembly and Conversion Facility? Is it slated to 
go to Savannah River, or will it--is it being considered for 
location elsewhere?
    Mr. D'Agostino. I will take that, Mr. Spratt. Our current 
plan is to build a Pit Disassembly and Conversion Facility at 
Savannah River.
    The activity that we have underway this year is to make 
sure that the MOX Facility that we are also building at 
Savannah River has the material--the feedstock it needs to keep 
operating, because we don't want to operate it just for a short 
period of time and then have it shut down for a couple years 
while it waits for the PDCF to finish construction.
    So that is, you know, the--this discussion on the ARIES 
line was to--to make sure we fill the gap, if you will, or mind 
the gap, and make sure that that gap gets filled, or that that 
gap gets filled by modifying some facilities at Savannah River 
to fill the gap.
    Whether it gets done at Los Alamos to fill the gap, or 
Nevada to fill the gap, that business case is under way. But 
the program of record, and our path forward on PDCF is to build 
it at Savannah River.
    Mr. Spratt. One of the necessary facilities you have 
indicated will be plutonium production. And I have been through 
TA-55 a couple of times, and each time we have been--seen that 
facility, we have been told it has a production capacity of 1 
shift and a maintenance shift, I think, of about 50 pits a 
year.
    Is that not adequate for the stockpile that we are 
envisioning for the future?
    Mr. D'Agostino. Mr. Spratt, that is absolutely right. It is 
adequate for the stockpile we are envisioning, 50 to 80 pits 
per year. And maybe Dr. Anastasio can add on at the end of this 
to clarify my statements, since his--the expertise exists at 
both--at Los Alamos and Livermore.
    But in order to do what I would call basic surveillance--in 
other words, take care of our current stockpile, do the 
analytical chemistry and material characterization work, the 
TA-55 complex, which you just described, relies on this other 
building, which is not located there, to do the chemistry work. 
And it is that other building that is very old that we are very 
worried about.
    But the 50 to 80 pits per year, which is part of our 
current requirement in our classified paper--the laboratory 
believes that with changes--it would require some changes 
internally--glove boxes and lathes and things like that--that 
it could happen.
    Maybe----
    Dr. Anastasio. Yeah, Mr. Spratt, to amplify a little bit, 
the existing PF-4, which is in the TA-55 that you have visited 
in the past--we believe we had adequate space to support all 
the stockpile stewardship mission that we have, including up to 
a production capacity of 50 to 80 pits per year.
    We will have to do some reconfiguration of the glove box 
lines and so forth that is inside that building, but it will 
not--and of course, we have to do normal upgrades to maintain 
that facility over time. But we believe there is--we are 
convinced that there is adequate space and capability for that.
    That gives me the opportunity to also say the replacement 
building for CMR that we are contemplating, which would be co-
located there within the same security perimeter, again will 
give us the opportunity to get more efficiency for security, 
and more effective.
    But also, that is not a facility that we will use to do pit 
production, so we will not be doing Pit Protection in the new 
facility we are trying to build. It is just the capability to 
do the analytic chemistry and the metallurgy that goes along 
with our surveillance as a--and all the other missions that we 
carry out.
    We believe that that facility is needed regardless of 
whether we make 0 pits per year or 50 to 80 pits per year. That 
production role will go on in the existing PF-4 that you have 
seen.
    Mr. Spratt. One final question, if I may. We have talked 
all morning about facilities, bricks and mortar, but the real 
essence of this complex is people, and attracting in the next 
generation the kind of people you have had in prior 
generations.
    Do you build that concept into the design of this? Are you 
looking for missions you can accommodate with your new 
facilities complex that will be attractive, like the NIF at 
Livermore? Is this part of your planning? And how do you 
attract in the next generation the talent you have been 
accustomed to?
    Mr. D'Agostino. Mr. Spratt, I will start with the federal--
the answer on the federal side. And I may, if you permit, ask 
one of--somebody to comment on the contractor side, because 
there is multiple programs.
    On the federal side--in fact, we may even have in the room 
some of--we have a program called the Future Leaders Program, 
where every year we go out and recruit from universities and 
colleges all over the country to bring in top talent in both 
engineering and business practices, about 30-some-odd per 
class.
    We are into our fourth class right now--did the graduation 
not too long ago. And it is fantastic to have young folks come 
in with different ideas on how to--how to work things. These 
are people that are very smart.
    I have asked them to make sure to not rely on the way we 
currently do business; if they have got a question, to ask it. 
And in many cases--one gentleman in particular took a look at 
how we look at safety data, and because we compile a tremendous 
amount of data that our--these eight sites pull together--and 
we have been analyzing it for years in a certain fashion.
    And these young folks came in there and say, ``Well, what 
about looking at it this way?'' And it is amazing what we learn 
by that--just that one experience. So we are very much 
energized on the Federal side to bring in fresh talent on that 
standpoint. It is pretty exciting to see, actually, getting 
folks in like that.
    If I may, I could ask some of the other panel members to 
comment on your question.
    Ms. Tauscher. Briefly.
    Dr. Anastasio. Sure. I would----
    Mr. D'Agostino. Any takers?
    Dr. Anastasio. Run down the line.
    As an example, some of the new capability that--in place, 
like our new Road Runner computer that is the fastest computer 
in the world now, at Los Alamos, brings in talent because it 
is--it is the same capability that you need to use to do any 
kind of high-performance computing.
    It enables us to do our global climate modeling and 
understand much better La Nina, El Nino kinds of weather, 
because of water patterns in the Pacific that we can now 
analyze with much more resolution.
    At the same time, just this summer, we have over 1,000 
students at Los Alamos. We average about 350 postdoctoral 
students per year at the laboratory as our pipeline, and it is 
still a very high-quality set of workforce.
    So it is these other programs that we do that is the window 
of the--for the students to want to come to the laboratory and 
become part of all these other activities.
    Dr. Miller. Let me just step back a step. I think 
fundamentally--this is the comment that Tom Hunter made 
earlier. Fundamentally, people come to the laboratory to serve 
the Nation. They need to know that what they do is valued by 
the country. They also like the laboratory because we are given 
a set of scientific and technical challenges on behalf of the 
country that they find exciting. And it is a stable work 
environment.
    All of those things have to do, in a very fundamental way, 
with the way Congress and the Administration look at the 
laboratory and make use of the talents of the laboratory.
    And those underlying issues, or overarching issues if you 
care to think of them that way, are really as fundamental as 
the particular programs that we have.
    Ms. Tauscher. Tom, did you want to say something?
    Dr. Hunter. Thank you, Madam Chair, if I may, just briefly. 
This is not a dilemma for these institutions only. This is a 
dilemma for the Nation.
    And one important and, I think, essential way to look at 
these laboratories is we are not a small player now. We are a 
large player in where the Nation goes on its commitment to 
science and engineering.
    And these institutions stand at the very forefront of that 
today. We have to make sure that continues to be the case in 
the future, and we promise them just two simple things: If they 
come to these institutions, they can work on the Nation's 
security, and they can also work at the forefront of their 
scientific fields. We must maintain that as we go forward.
    Mr. Trim. Madam Chair, from a plant perspective, I think 
attracting talent is highly dependent on the impression these 
graduates have on the commitment to the complex, the 
recapitalization of the complex. And pivotal is the reframing 
of the mission to encompass a national security mindset. And I 
think that really resonates with people who want to serve the 
Nation and be part of the mission.
    Mr. Meyer. I would like to add that it is a challenge at--
especially in Amarillo. We have got a geographic challenge that 
some of the other sites don't have, and you have been there, 
Madam Chair and others.
    And it is a relatively modest site, so we recruit very 
heavily among university students and bring them on as interns 
and actually recruit them at that point and pay for them--their 
last year's tuition reimbursement.
    Three or four years later, those people have clearances, 
they have good experience, and they are somewhat tired of the 
Amarillo social life, and so they are ready to move on to 
bigger and better things.
    So we do have a retention problem that--and again, we--we 
are keeping up with it, but it is a continual battle, so--but 
we recognize that that is clearly our legacy. That is where we 
need to focus.
    Mr. Kohlhorst. Just a quick comment. Y-12 has just kicked 
off an apprentice program. Fifty new apprentices, and we had 
2,610 applicants. We have a manufacturing academy where we 
reach out to high schools, work with high schools; we have an 
exchange program with a community college.
    So all of us at plants are looking at that critical--making 
sure we have the pipeline full, making sure we have folks ready 
to step in as we see our population moving far more toward----
    Dr. Younger. I will conclude by saying that the Nevada Test 
Site can help with Amarillo's social problems.
    Ms. Tauscher. I was just going to recommend that. 
[Laughter.] Exchange programs. It is, what stays in Las Vegas 
obviously stays in Las Vegas.
    Dr. Younger. But seriously, as Dr. Miller said, it is all 
about mission. And people come to the Nevada Test Site because 
they believe they are doing something important for the Nation 
and they are doing technically excellent and interesting work.
    So, so long as there is important mission to be done, I 
feel confident we will attract the best in the Nation.
    Ms. Tauscher. Mr. Hayes, I assume you concur with all that.
    Thank you, Mr. Spratt.
    Mr. Everett.
    Mr. Everett. Thank you, Ms. Chairman.
    Very interesting conversation. I know that in many of the 
fields that we have advanced science and engineering that we 
have a lot of problems in finding people to go into those 
fields, young people.
    And I was wondering a couple things. Number one, how many 
of those applicants that you have, or those working for you are 
foreign born, and what troubles does--what does that present 
embedding them? And also, in the overall picture, everybody 
included, are you having a lot of trouble getting clearances 
for them?
    Mr. D'Agostino. I will start off on that. On the federal 
side, we don't--we don't have, I think, the same types of a 
problem. We have been recruiting to make sure we get a diverse 
workforce coming in at that young age.
    That is really important to us, because it is these 
different backgrounds that people bring to the table that allow 
us to look at problems in a different way, and ultimately 
solutions really arise out of that.
    We do have a challenge on security clearances. That is 
ultimately a responsibility of the government to grant those, 
and it has had--does have an impact. It ends up being a cost 
impact. I think both the labs and plant directors here could 
probably give an anecdote to describe the type of impact that 
it has.
    But my sense is that we have started trying to be smarter 
in how we hire to make sure that we do some pre-screening up 
front so we don't bring people in and then have them sit and do 
kind of unclassified work for a year while we try to get them a 
clearance, then find out that there was a problem in their 
background.
    So a lot of it has to do--and we flushed out a lot that, 
particularly in this organization that is a federal 
organization called Office of Secure Transportation, where we 
have a number of federal agents--these are Government Federal 
agents that protect the material and the warheads as they move 
around the country.
    So it has been a challenge. Money fixes it to a certain 
extent, but we don't want to throw money at something if we can 
fix it from an operational standpoint.
    And it might be worth getting some input from the field 
on--with respect to the other parts of your question, sir.
    Dr. Miller. I think the fundamental problem is a--is a 
problem at the national level.
    The country is failing to graduate the numbers of 
scientists and engineers, particularly in physical sciences, 
that it needs to sustain its level of economic competitiveness. 
There was an article in the paper just this week about that.
    At the graduate level, in--you know, increasingly large 
fractions of Ph.D.s are foreign-nationals, not that they are 
not U.S. citizens. They are not U.S. citizens, not that they 
are foreign born. They are not U.S. citizens.
    So far, we have been able to sustain our workforce. We have 
a program at Livermore called the Lawrence Fellows, which is a 
very prestigious postdoc program. A large fraction of the very 
best Ph.D.s that we see are foreign-nationals.
    And so it is a--again, it is widely recognized as a 
fundamental problem of the country. We see the impact. It is 
manageable to date, but I think it is something that is of 
major consequence.
    Dr. Anastasio. Madam Chair, if I could just add one other 
comment, please.
    Ms. Tauscher. Surely.
    Dr. Anastasio. That another concern I have with the future 
of science is if you look at the trends that we are already 
seeing that concern me for the future, if we look at NNSA, as 
we think of the budget--I think of it in three pieces--hands 
on, dealing with the stockpile, dealing with the 
infrastructure--we have talked a lot about today--and the 
science that underpins all the judgment we have to make about 
confidence in our deterrent.
    As the stockpile ages and gets older, it takes more of our 
hands-on effort to take care of it and be confident about it.
    We have talked about the investment we need to make to 
recapitalize the complex. If we have a relatively flat budget, 
as you have--this committee has indicated--if those two 
elements are growing and we have a flat budget, that means that 
the piece in the middle, the science, is going to get squeezed 
out.
    And that is a big concern of mine, that the workforce 
understands that. They feel that in a very visceral way. And 
can we keep the workforce we have today and still recruit the 
very best for the future? I am very worried about that trend.
    And as we are sorting through policy decisions on the 
direction, like the Commission you have in place, I really urge 
Congress to make sure that we do whatever we can to sustain 
that level of science we can in the interim so that we don't 
lose this quality workforce we have today.
    Ms. Tauscher. Before we go to Mr. Hunter, Mr. Everett, if 
you would yield for a second----
    Mr. Everett. Sure.
    Ms. Tauscher [continuing]. Do you have a raw number of what 
the throughput of engineers, for example, or postdocs in 
physical sciences that--that the labs and the complex need in 
the next five years, say, what the throughput is, what number 
it is?
    Because I think the Congress, and I think this subcommittee 
particularly would be very interested in working with our 
colleagues in other committees and certainly working with the 
Secretary of Education to understand exactly what it is we need 
to do to galvanize the forces necessary to begin to increase 
the number of Americans that are going through these classes 
and taking these courses.
    Mr. D'Agostino. Well, I can give you a--just in--but we 
will take that--because I think we want to give you a complete 
answer.
    [The information referred to can be found in the Appendix 
on page 199.]
    Mr. D'Agostino. An anecdote, if you will. There is 2,500 
federal employees in the NNSA. We have done surveys and we have 
checked it with our employees: Who is retirement-eligible? 
There is a difference between retirement-eligible and actually 
retiring, as we all recognize. And as economic times change, 
that has an impact.
    But retirement-eligible employees we have about 40 
percent--40 percent to 43 percent of our workforce, depending 
on what discipline they are in, whether they are engineers or 
business, are going to be retirement-eligible. And a number of 
those have indicated that they will actually retire.
    In fact, that is why we have started our Future Leaders 
Program, which will probably just hope to stem the tide, but it 
won't change the tide. That tide is going.
    So doing quick math, it is anywhere from 800 to 1,000 
people, out of 2,500. That is a pretty significant portion that 
we are worried about. The average age of the workforce is--you 
know, it is about 49 years old, roughly or so. And we are 
driving that down with the younger folks, but it is still a 
problem.
    Ms. Tauscher. Mr. Hunter, I think I interrupted you.
    Mr. Everett, you still have time.
    Dr. Hunter. Thank you, Madam Chair. And I will try to 
respond to both questions, if I could.
    First, to the question of numbers, we can always estimate 
anything as scientists and engineers. But roughly speaking, 
roughly speaking for our institution, we look at our five-year 
plan. Scientists and engineers, roughly, it is about 300 per 
year. So you could argue maybe similar to Tom's number, 1,500 
or so to 2,000 people over the next 5-year period would have 
expected to leave, and in--under a stable picture, which we 
see--if there is a stable picture, then it would be 
replacements.
    Back to the question, though, of the general availability, 
you asked how many specifically were foreign-nationals. In our 
case, very few, just--in only very special cases of 
international science engagement or special fields outside the 
classified area--you would have a few employees.
    We do allow them to be permanent employees under very 
special cases, but very few are actual employees that are not 
citizens.
    The other issue that--adding on to what Dr. Miller said--
was not only is the Nation not graduating enough science and 
engineers that are--that are--that are citizens, we do not have 
an adequate representation of both women and minorities in our 
physical sciences graduate programs.
    And so we have to work very--we work very hard in all those 
fields to try to seek out and find the best talent, but the 
Nation needs to do more.
    We have a lot of programs to do that. We are actively 
engaged on campuses all across the country. But it will be a 
challenge under any case, on the best of conditions, for any 
institution like these, who lead the country in the areas of 
physical sciences.
    Mr. Everett. Thank you.
    Michael, I think I detected a subtle--not-so-subtle plea 
for not a flat budget in your answer. [Laughter.]
    For our two directors of Los Alamos and Livermore, how will 
those labs continue to exercise their peer review functions as 
Complex Transformation, consolidation of missions and functions 
takes place?
    Dr. Miller. I think this is a very important--very 
important issue, particularly since the country is committed to 
no further nuclear testing. The best the Government can get is 
the truly independent answers of--from Livermore and Los Alamos 
on any particular question.
    So I think it is very--it is very important. It is 
something that Mike and I both spend a lot of time looking at. 
Through the annual assessment process, we do provide input to 
each other, so the people at Livermore provide input to Mike on 
the things that Mike is responsible for. He provides input to 
me on things that I am responsible for.
    I personally believe that this process could be 
strengthened by requiring that each laboratory do a complete 
analysis of the entire stockpile every year so this process can 
be strengthened. I think it is vitally important that it be 
strengthened.
    And the way we--again, the way we do the peer review is--is 
we work very hard at maintaining where it is important--
independent capabilities in the computer simulations that we 
do, in many of the different kinds of experiments that we do to 
validate them.
    So, we work very hard at making sure that we maintain that 
independence, because it is so critical to this.
    Dr. Anastasio. Yeah, I would just say I agree with what he 
said. And actually, your comment to me--I think there is other 
ways to deal with the issue without increasing the budget, but 
it really relies on having a strategy--a policy strategy for 
the country.
    Once we have that, I think we can work with the Congress 
and the Administration to come up with an approach to deal with 
the future that, you know, we can do with reasonable cost, but 
it really depends on what that policy direction looks like.
    And my plea was until we have that, let's hang in there and 
not do anything too detrimental to the science until we get 
that sorted out.
    Mr. Everett. Well, we would surely look forward to those 
savings that--that Director D'Agostino said that are 
forthcoming.
    And for our two directors that I addressed the question to, 
I won't take any further time here, but I would really 
appreciate any more specific detail on how you will continue to 
do that--not the fact that you talk to each other and that sort 
of thing. But thank you very much.
    Dr. Anastasio. We will be happy to get you something for 
the record.
    [The information referred to can be found in the Appendix 
beginning on page 199.]
    Ms. Tauscher. If I could engage the ranking member for a 
second, what I heard Director D'Agostino say was not 
necessarily more money but more predictability.
    Mr. Everett. I think that is a fair assessment.
    Ms. Tauscher. Thank you, Mr. Everett.
    Mr. Franks of Arizona for five minutes.
    Mr. Franks. I am not getting ahead of anyone here, am I, 
Madam Chair?
    Ms. Tauscher. Well----
    Mr. Franks. They have already asked questions?
    Ms. Tauscher [continuing]. Mr. Larsen----
    Mr. Franks. Okay. All right.
    Thank you, Madam Chair.
    I guess I just first want to suggest that there is not too 
many nuclear physicists up here on the panel, and there may be 
some things about tritium and uranium and plutonium that we 
still have to learn.
    And those of you in the R&D field have done some amazing 
things, and I think that the fact that you are--have been able 
to certify our weapons here for this long, with the 
supercomputer capabilities and the modeling that you have done, 
is really nothing short of astonishing, in spite of some of the 
challenges that you have laid out here related to getting new 
recruits into the system.
    And of course, Mr. D'Agostino, your efforts to consolidate 
work and realize efficiencies as we do this transformation to a 
new complex--I have got to tell you, those are pretty tall 
orders, so I have got two questions, because I know some of you 
will answer both of them.
    How can we on this panel help you in your effort to 
maintain and gain the necessary personnel to do the amazing 
work that you do? I mean, this is a--you guys are the--I have 
said many times, you are the hidden, front line of freedom, 
because a lot of times people don't see what you do, but it is 
vital to all of us. So, how can we help you with that?
    And secondarily, in terms of the efficiency--or 
inefficiencies, perhaps I should say, in the old complex that 
we are trying to transform here, what are the most glaring 
inefficiencies that you would postulate here, and how can we 
best facilitate or help you in the endeavor to correct some of 
those things?
    Mr. D'Agostino. Okay. I will start off, if I could, Mr. 
Franks, and open it up just a little bit.
    That is a great question. In fact, I think the subcommittee 
has started down the path by helping drive to a national 
consensus--the stability that the lab directors had talked 
about is actually vitally important.
    The workforce, whether it is federal or contractor 
workforce, does pay close attention. They want to know that the 
Nation values its work. They want to--and--because that is--
that is their job. That is what motivates them. That is what 
drives them.
    So being the Strategic Forces Subcommittee, of course, is 
essentially what we are really talking about here. You are in 
absolutely the right position to send the signal that--that 
there is a consensus on what the Nation should be doing in 
these areas, and that there is a sense of stability, because it 
does come down to being able to bring in the right kind of 
people.
    We can have the best computers in the world, the best 
lasers in the world, the best experimental sites in the world, 
but ultimately in the end it comes down to getting those A-plus 
students in here to operate those facilities.
    And that is all based on stability, because people make 
decisions that way, as you know, sir. And so the path forward 
that we have right now, the evaluation of the--both Secretaries 
have sent up a classified document describing our security 
policy and strategy.
    We have got a--the bipartisan commission that is coming 
forward to take a look at strategic issues. Kind of the melding 
of those two activities--and until we get a broader consensus 
that carries forward for both parties and spreads across, 
making sure that the support to the existing infrastructure, 
which we consider fragile at this point, is maintained.
    And so I appreciate the committee's support in that area.
    I would ask, are there any other comments? Okay. No?
    Dr. Hunter. If I could comment----
    Ms. Tauscher. Sure.
    Dr. Hunter [continuing]. Just very briefly, I think there 
are a couple areas that you have already begun nicely, 
Congressman. That is, first, to recognize the important--help 
us recognize the important role that the people and 
institutions play in this--in national security, and then, 
wherever possible, encourage and enable an objective, fact-
based national debate about what needs to happen in terms of 
policy, as this committee has done so well.
    And then at every possible avenue, encourage the role that 
we might play in support of these broader national agenda 
themes, such as the competitiveness of our scientists and 
engineers and the role we must play in broader national 
security.
    Mr. Franks. Madam Chair, if I might just follow up.
    Then in terms of the greatest insufficient aspects or areas 
that you think our existing complex is falling short, and the 
areas that you hope to address in the transformation process 
here, what do you consider to be your most significant 
challenges?
    And is there a time--this is not a very fair question, 
because I know your mission, essentially, is to provide a 
responsive infrastructure that will give the arsenal of freedom 
a safer, more secure and more reliable weapons.
    That said, is there a time that we are approaching in the 
country to where, with the existing aging of the arsenal, that 
you feel like certification is going to be a significant 
problem? And what can we do to head that off in the days that 
we have now?
    Mr. D'Agostino. Okay. In the near term, I have got the list 
of typically half a dozen to a dozen items that I worry about 
all the time. And it kind of depends on which is number one at 
the particular time.
    But they are basically--the list is fairly consistent, and 
I will give you a couple of the things that worry me the most 
right now--and that is a sustainable plutonium strategy. I 
don't think we--I know we are not on a path that provides 
sustainability.
    We have a plan to de-inventory Lawrence Livermore, which I 
think makes sense in the long run from a cost standpoint. And 
so we are starting to move plutonium out of Livermore.
    At the same time, I don't have consensus--I will say 
Congress broadly, if you will, I mean, from an appropriations 
process, that this replacement capability at Los Alamos will 
get built.
    So at some point, either myself or the person that follows 
me in this job will have to decide, do we need to stop 
consolidating special nuclear material, because we don't--we 
can't get consensus to rebuild that plutonium capability at Los 
Alamos, and therefore I have got to go with my next best 
facility, and that is one in California.
    But that goes against some other things about what is right 
for--from a safety and security standpoint. So plutonium 
infrastructure is one that kind of bubbles--is always in my top 
five at any given point in time.
    You are absolutely right on the continued aging of our 
stockpile. In an unclassified setting, I could--I can say that 
we--and the lab directors will comment on this specifically--
but that, you know, things do age, and we do have problems that 
come up every year. And right now, we are able to address 
those, but there will--there may come a time that we don't know 
if we will be able to address all of our problems.
    Right now, we can, and it is actually because of the 
support this committee has given over a number of years that 
has allowed us to bring in the tools and the people to make 
sure we can do that.
    Mike or George?
    Dr. Miller. I would just step back to an earlier theme. My 
biggest concern is sustaining the investment in the science and 
technology infrastructure, because that underpins everything.
    You know, the people at these three laboratories provide 
the ability to make decisions about plutonium, or uranium, or 
facilities, or the stockpile.
    Now, that intellectual capability is the fundamental basis. 
Mike and I have both over the last 2 years lost over 2,000 
people each.
    Dr. Anastasio. Each.
    Dr. Miller. Each. A substantial number of those are people 
with critical skills that are relevant Under Secretary 
D'Agostino's mission. That infrastructure, as many 
infrastructures are, is fragile.
    And so that is my biggest concern, is sustaining that 
infrastructure because it is the underpinning of the country's 
policy, whatever direction it chooses to go.
    Dr. Anastasio. Could I just add to that, Madam Chairman?
    Ms. Tauscher. Yes.
    Dr. Anastasio. I agree with what George said completely 
that the premise of stockpile stewardship in the absence of 
nuclear testing to minimize our need ever to go back was to 
have a more fundamental science-based understanding to guide 
our insights and judgments.
    And what I fear is the trend, is to move away from that at 
the same time--and this is the part I would like to add--is 
that if you look at the stockpile--and we had a classified 
discussion with this subcommittee some months ago, and I think 
you got to see some of the specifics.
    But as time goes on, as these weapons systems age, as we go 
and act--take action to--to deal with those issues as they 
come, we are moving further and further away. We are making 
small changes that are accumulating.
    Even if we do Life Extension Programs, as that progresses 
forward, I worry that the stockpile legacy--Cold War stockpile 
we continue to try to refresh will be harder and harder for us, 
will require more and more science to be able to have that 
confidence when you have systems that were designed to be low-
margin.
    And as our uncertainty about the changes we are making 
starts to grow over time and accumulates, I worry that we 
should be increasing the science focus in that kind of a world, 
and yet the trend feels as if we will be moving in the opposite 
direction.
    And so it is the two things together, I think, that worry 
me the most.
    Mr. Franks. Well, thank you all very much.
    And thank you, Madam Chair.
    Ms. Tauscher. I think Tom just wanted to say something 
quickly.
    Dr. Hunter. Yes, and I will be very brief. Thank you, Madam 
Chairman.
    I don't know if there is a time that is predictably, but I 
know there is an indicator of the time when we have passed the 
point when it is due, and that is when we have leadership in 
the laboratories who do not have the intellectual and intuitive 
sense about what it takes to honestly assess and certify 
weapons. They do not have the incentive or the value-base to 
make factual, objective opinions.
    Ms. Tauscher. I think Mr. Reyes has some questions.
    Mr. Reyes. Yes, just on a couple of issues.
    The first one, just to follow up on Dr. Hunter's comment in 
terms of diversity and particularly, you know, in STEM fields--
science, technology, engineering and math--which is a--has been 
a priority for Congress, I am one of the co-chairs of the 
Diversity Caucus that is working to facilitate programs and 
efforts to get more minorities into STEM.
    And I know, having had the opportunity to visit all the 
labs, that you work with historically black colleges (HBCs) and 
Hispanic-serving institutions (HSIs). Are you doing--and this 
is for the directors--are you doing any more in--by way of 
outreach to the HBCs and HSIs to increase that?
    And second, we are probably going to have some hearings--
the Tri-Caucus Group, the Asian-American, the Hispanic Caucus 
and the Black Caucus together--on how we can work on this 
issue. And we may ask you to come and testify. So we will be in 
touch.
    It probably won't be this year because of the election year 
and--but we have that on the radar scope.
    The other question that I have is--deals with energy. And 
whether we are talking about nuclear, or getting better gas 
mileage, or whatever, are our labs doing anything in that area?
    And if you would answer, I would appreciate that.
    Dr. Hunter. Thank you, Congressman. It is a very important 
question, but it gets back to this comment that all of us made 
earlier about the labs having this inherent science and 
engineering foundation that can contribute in other areas of 
national security, of which energy is a dominant one, I think.
    Yes, we are actively engaged in energy. We anticipate more 
programs in that area. We are working everything from the 
details of the combustion process and how to make cars more 
efficient and better environmentally compatible, to making 
engines work better, to using sunlight to helping nuclear 
energy be safe and secure and more proliferation-resistant--a 
broad range of programs.
    But these laboratories are uniquely positioned to 
contribute in many of those areas because of the skillbase that 
has been developed in nuclear weapons and applied to those 
other areas.
    Dr. Miller. Yeah, I think the answer to both of your 
questions is yes. We are continuously expanding our 
interactions with the historically black colleges and Hispanic 
colleges.
    We bring faculty to the labs for summer--for summer 
research, and so we have a very broad set of problems--projects 
and outreaches to a wide segment of the university community.
    And as Tom said, we have very, very broad programs in 
energy, again, using supercomputers to design more 
aerodynamically efficient trucks and cars, all the way to the 
use of the National Ignition Facility as a source of--as a 
source of energy, doing the research that would allow us to 
meet that promise, and essentially everything in between.
    So we have a lot of--today they are small programs because 
the government's investment is typically small. They were very 
large in the 1970's when there was an energy crisis.
    But the fundamental point is the one that Tom made, which 
is the underlying science and technology is ideally suited to 
take on these broader set of national issues.
    Dr. Anastasio. If I could add to those things, and then I 
would--I think Steve Younger has some comments, as well.
    On your first question about the diversity, yes, we are 
actively working with the historically black and Hispanic 
colleges. In northern New Mexico, we are also doing additional 
things, like our math and science academies as an example.
    We are trying to get to the students when they are younger 
to try to encourage them to consider math and science and 
engineering as a field. And so for me, a key is to try to get 
the teachers in the middle schools and high schools who teach 
science and math.
    We have them come--as an example, come to the lab and get 
engaged with our scientists and to try to get that passion and 
excitement about what modern science is like and help them come 
with modules that they can use in the classroom to teach 
students at whatever level they are teaching at. I think that 
is also a fruitful way--and again, in northern New Mexico we 
deal with a very diverse population and are trying to get them 
interested in these careers--a lot of scholarship programs, et 
cetera.
    Back to the other question about our participation, I agree 
with my colleagues on that. I would just add another thought, 
which is that I think these laboratories are rather unique in 
the country in another way.
    We have breadth and depth in science and engineering that 
is hard to find anywhere else. But we have one other thing--is 
we are institutions that span discovery, fundamental science, 
all the way through applied science to building demo products 
that can be transferred to industry.
    That full spectrum of activity goes on at these 
institutions, and they are--now that we don't have a Bell Labs 
anymore and those kinds of places in industry, these are some 
of the few places left in the country that have that kind of 
capability.
    And so when you are thinking of these ideas of energy or 
other related kinds of things, not only do we have that breadth 
and depth of talent, but we know how to take discovery science 
and translate it all the way into a real product that American 
industry could go use for the advantage of the American people.
    Dr. Younger. Congressman, I created and continue to chair 
the Diversity Council, Nevada Test Site. It is interesting that 
very early on, we focused on education as the dominant concern 
of diversity. And we have taken a comprehensive approach, 
starting with elementary schools, building science labs in 
local schools that never had them, particularly in impoverished 
areas.
    We bring high school interns into the company to show them 
what it is like to have a technical job to interest them in 
going into a technical field.
    When they get to college, we provide a large scholarship 
program to the local community and also to the children of our 
employees.
    And we have also started an employee scholarship program 
focused on minorities that will help them get the education 
sometimes they haven't been able to get because of their 
economic circumstances.
    We serve on advisory boards of black colleges and 
universities, and those with large Hispanic content. So we go 
everywhere, from kindergarten through graduate school, to 
encourage people to go into fields that are relevant to the 
national security--focus on.
    Mr. Reyes. Thank you.
    Thank you, Madam Chair.
    Ms. Tauscher. Tom.
    Dr. Hunter. Mr. Congressman, I didn't mean to not respond 
to your other question about--I think your question was about 
minority engagement. I thought we had closed that topic, but 
let me just say, you ask a very important question.
    And my simple response would be that we are very aware of 
the situation nationally. We are very engaged in the national 
scene. We are doing a lot, but not enough, and we would be 
happy to support your efforts in a broader committee framework.
    Mr. Reyes. Thank you.
    Ms. Tauscher. Under Secretary D'Agostino, thank you for 
your appearance today.
    And, gentlemen, thank you very much for your appearance 
today. Please extend, on behalf of the committee, our thanks to 
the thousands of people--patriotic, hard-working Americans--
that work in the complex, our very best thanks, and tell them 
to continue their hard work, please.
    And behind you, many of you, are your staffs that have--
that provide the committee and the members with constant 
support while you are back at your facilities. We want to thank 
them very much. We know that they had a lot to do with your 
appearances today and the great testimony we had.
    We have a second panel that we are about to see, so thank 
you again very much, Under Secretary.
    We are going to take a strategic pause to change out our 
folks, and if we could ask the second panel to come forward, 
please.
    Thank you very, very much.
    Mr. D'Agostino. Thank you, Madam Chair. I really appreciate 
it. Thank you.
    Ms. Tauscher. Our pleasure.
    We are about to start our second panel. We thank the panel, 
the second panel, for their indulgence.
    We had, as you know, a lot of people on the first panel. 
But we want to make sure that you understand how important we 
think you are, too. And we very much thank you for coming to 
testify before the committee.
    I want to welcome our expert witnesses on the second panel. 
We have Mr. Gene Aloise, Director of Natural Resources and 
Environmental Division of the General Accountability Office 
(GAO).
    My constituent and friend, Marylia Kelley, Executive 
Director of Tri-Valley CAREs.
    And Ambassador Paul Robinson, President Emeritus of the 
Sandia Corporation.
    As this panel demonstrates, the subcommittee is determined 
that our conversations about these critical national issues are 
inclusive and dynamic.
    Mr. Aloise, the floor is yours. We have your prepared 
statement, so we welcome any summary of your remarks that you 
might have.
    Mr. Aloise. Thank you, Madam Chair.
    Ms. Tauscher. The floor is yours.

   STATEMENT OF GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
     ENVIRONMENT DIVISION, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Madam Chairman and members of the subcommittee, 
I am pleased to be here today to discuss the National Nuclear 
Security Administration's plans to transform the Nation's 
nuclear weapons complex.
    Over the past decade, NNSA has invested billions of dollars 
sustaining the Cold War nuclear weapons stockpile and 
maintaining the aging and outdated facilities that make up the 
nuclear weapons production infrastructure.
    Modernizing the complex to be more responsive to a smaller 
nuclear deterrent offers NNSA the potential to save billions of 
dollars by consolidating special nuclear material into fewer 
facilities and avoiding operations and maintenance (O&M) costs 
by vacating buildings that are well past their design life.
    Transforming the complex, however, will be a daunting and 
expensive task. Existing facilities that maintain the current 
stockpile must remain operational during the transition to new 
facilities. NNSA must also take steps to minimize the potential 
safety, security and environmental impacts of relocating 
operations and constructing new infrastructure.
    In the face of these challenges, we believe that there are 
four actions that are critical to successfully transforming the 
weapons complex.
    First, DOD will need to establish clear, long-term 
requirements that define the types and quantities of nuclear 
weapons needed in the stockpile.
    Second, after DOD establishes its requirements, NNSA will 
need to develop accurate estimates of the costs of 
transformation.
    Third, NNSA will need to develop and implement a 
transformation plan with measurable milestones.
    And fourth, NNSA's Office of Transformation must have the 
authority to enforce its decisions and be held accountable for 
them.
    With regard to clear requirements for the stockpile, in our 
view, before any plans for a new weapons complex can be 
finalized, DOD and NNSA must determine the number and types of 
warheads that are needed.
    While DOD and NNSA have considered a variety of scenarios 
for the future composition of the stockpile, including new 
warhead designs, a final decision on the size and composition 
of the future stockpile has not been made.
    With regard to cost estimates for transformation, our work 
shows that NNSA had difficulty developing realistic, defensible 
cost estimates, especially for large, complicated projects.
    For example, in March 2007 we reported that 8 of the 12 
major construction projects DOE and NNSA were managing had 
experienced cost increases ranging from almost $80 million to 
$8 billion. These increases resulted largely from poor 
management and contractor oversight.
    Regarding a transformation plan, we do not yet know whether 
NNSA will decide to rebuild the complex at its existing sites 
or to consolidate operations at new locations.
    Regardless of its choice, however, NNSA will need to 
develop a plan with clear, specific and realistic milestones 
that it can use to evaluate progress and that the Congress can 
use to hold NNSA accountable.
    Finally, we have found that a key practice for successfully 
transforming an organization is to ensure that top leadership 
sets the direction, pace and tone for the transformation.
    Although NNSA has organized an Office of Transformation to 
oversee its efforts, it remains to be seen whether the office 
has sufficient authority to enforce its decisions.
    In conclusion, Madam Chairman, regardless of the approach 
chosen to modernize the weapons complex, any attempt to change 
such an extremely complicated enterprise must be based on solid 
analysis, careful planning and effective leadership.
    Tracking NNSA's progress in these four critical actions 
that we have identified provides a framework for the Congress 
to continue its vigilant oversight and to hold NNSA accountable 
for its efforts.
    Madam Chairman and members of the subcommittee, this 
concludes my statement. I would be happy to respond to any 
questions you may have.
    [The prepared statement of Mr. Aloise can be found in the 
Appendix on page 120.]
    Ms. Tauscher. Thank you, Mr. Aloise.
    Before I give the floor to Marylia Kelley, I would like to 
commend you for your leadership on the issues before us today.
    Additionally, you have been a tireless advocate for the 
former Department of Energy workers who seek compensation from 
the Government for the illnesses they contracted in the course 
of their service to the Nation.
    You are, frankly, a force of nature. And at home in 
Livermore, you are someone that I enjoy working with, and I 
really appreciate you being here. It has been a pleasure to 
work with you on the environmental and quality of life issues 
that you bring to the floor constantly on behalf of my 
constituents.
    The floor is yours.

  STATEMENT OF MARYLIA KELLEY, EXECUTIVE DIRECTOR, TRI-VALLEY 
                             CARES

    Ms. Kelley. Thank you, Madam Chairperson, and thank you to 
the subcommittee for inviting me here.
    I am Marylia Kelley. As mentioned, I am executive director 
of the Livermore, California-based Tri-Valley CAREs and have 
been since the group was founded in 1983.
    I ask that my written testimony be entered into the record.
    Ms. Tauscher. Without objection, so ordered.
    Ms. Kelley. And I am going to attempt to summarize and 
excerpt here today.
    My testimony will focus on three areas. First, the National 
Nuclear Security Administration's Preferred Alternative for 
Complex Transformation.
    Second, a stockpile management alternative that will better 
assure the safety and reliability of the existing nuclear 
weapons stockpile at lower cost, reduced scientific risk and 
superior nonproliferation benefit.
    And third, some specific alternative and recommendations 
for the future of nuclear materials and specific sites.
    The NNSA has stated that Complex Transformation is the 
agency's ``vision for a smaller, safer, more secure and less 
expensive nuclear weapons complex.''
    Beneath the rhetoric, Complex Transformation calls for a 
significant revitalization of the nuclear weapons complex. The 
plan's centerpieces include a new larger plutonium complex at 
the Los Alamos lab in New Mexico and a new Uranium Processing 
Facility at the Y-12 plant in Tennessee.
    According to the draft 2008 Programmatic Environmental 
Impact Statement (PEIS), Complex Transformation is based--
based--on the 2001 Nuclear Posture Review (NPR). Yet Congress 
has already mandated that the next Administration prepare a new 
posture review.
    Thus, the NNSA's plan, when it is completed will be dead on 
arrival, based on yesterday's policy, not forward-looking 
vision.
    The NNSA calls its Complex Transformation plan ``more 
secure.'' But as I will discuss in the Livermore lab section 
that follows, this plan keeps thousands of pounds of plutonium 
and highly enriched uranium in a vulnerable, untenable 
situation at Livermore lab until 2012.
    Then NNSA proposes to move the plutonium twice in service 
of Complex Transformation. This is not a plan that 
appropriately prioritizes the security of nuclear materials.
    Finally, the NNSA insists that the plan will be less 
expensive. But as you heard in the previous round of 
questioning, they don't have a cost estimate. And in fact, the 
Programmatic Environmental Impact Statement does not contain a 
cost estimate. Independent cost estimates begin at about $150 
billion and go up from there. The NNSA has said that the 
Reliable Replacement Warhead program, or RRW, ``will be the 
enabler for stockpile and infrastructure transformation.'' 
Since Congress has prudently cut the RRW budget since then, the 
NNSA has begun submerging the role of RRW in Complex 
Transformation.
    Make no mistake, however. The development of new and/or 
significantly modified nuclear weapons remains at the heart of 
the Complex Transformation approach, whether through RRW or a 
successor design program.
    The plan end-runs both the Commission that this 
subcommittee was instrumental in enabling through the National 
Defense Authorization Act (NDAA) of 2008 and the aforementioned 
new Nuclear Posture Review coming up.
    The NNSA has received between 115,000 and 120,000 public 
comments, spoken comments, comment letters on the draft 
Programmatic Environmental Impact Statement for Complex 
Transformation. This outpouring of comments represents a public 
referendum against the Preferred Alternative.
    In sum, Complex Transformation is wrong policy, enabling 
new nuclear weapons programs that run counter to U.S. 
nonproliferation aims; wrong direction, building unneeded 
nuclear weapons facilities; wrong priorities, costing $150 
billion or more, and failing to quickly secure the Nation's 
most vulnerable nuclear materials; and wrong timing, putting 
the cart of new bomb-building capabilities before the horse of 
new policy and posture reviews.
    The public has roundly rejected this plan. Congress has cut 
funds for some of its aspects. And the NNSA tells me it will 
release the final PEIS and execute a record of decision this 
fall. That is also what you heard from Administrator 
D'Agostino.
    In so doing, the NNSA willfully ignores an alternative 
approach to managing the nuclear weapons stockpile that is 
technically, politically, environmentally and fiscally superior 
to the agency's Preferred Alternative.
    So let me say a few words about curatorship. Curatorship 
focuses--it is an alternative. It focuses on careful 
surveillance, analysis and refurbishment of the actual weapons 
in the arsenal rather than pushing the envelope on new research 
and development, as is the case with the present Stockpile 
Stewardship Program and, to an even greater extent, the 
proposed RRW path.
    Under curatorship, only if NNSA's surveillance activities 
demonstrate compelling evidence that a component had degraded 
or would soon degrade, and further analysis indicated that such 
degradation would cause significant loss of safety or 
reliability, would NNSA replace that affected part.
    The replacement would be remanufactured as closely as 
possible to the original design, so changes to weapons would be 
minimized using the curatorship approach.
    One significant outcome of curatorship is that less 
uncertainty would be introduced into the stockpile over time 
than is the case with the present RRW program--I am sorry, the 
present Stockpile Stewardship Program or with RRW.
    And you heard Los Alamos Lab Director Mike Anastasio say 
that he is worried that the incremental changes that are 
introduced into the weapons with stockpile stewardship over 
time may cause certification problems. Curatorship would 
minimize this by minimizing changes.
    The curatorship will reduce the NNSA's environmental 
footprint and its operating costs. Under curatorship, NNSA 
would close numerous facilities that use high explosives, 
tritium and other hazardous materials beyond what is in the 
Complex Transformation Preferred Alternative.
    Curatorship would rein in costs. Right now, if you look at 
the annual budget, the NNSA spends about 50 percent of the 
Weapons Activities budget each year on R&D. Under curatorship, 
that would drop to about 20 percent.
    The curatorship approach to managing the nuclear weapons 
stockpile builds on an impressive lineage that I want this 
subcommittee to understand.
    It stands on basic concepts advocated by Norris Bradbury, 
who was the Los Alamos Lab Director from 1945 to 1970; Carson 
Mark, the former head of Los Alamos Lab's Theoretical Division; 
Richard Garwin, former nuclear weapons designer and current 
JASON and occasional testifier before this and other 
committees; Ray Kidder, senior staff scientist and former 
weapons designer at Livermore lab, and others.
    In recent years, the curatorship approach has been further 
developed by Dr. Robert Civiak, who some of you know, because 
he was with the Office of Management and Budget (OMB) until 
1999.
    And it has also been evaluated recently by Livermore lab 
staff, including Dr. Roger Logan, who served as head of the 
lab's stockpile work until recently.
    I would further ask that Tri-Valley CAREs' much more 
detailed 42-page comment on curatorship and Complex 
Transformation be entered into the record.
    Ms. Tauscher. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 156.]
    Ms. Kelley. Thank you.
    I would like to quickly end with a sample of alternative 
approaches and recommendations for specific sites. And first, 
Livermore lab.
    As Madam Chairwoman knows, but maybe the rest of you don't 
know, my community as well, the main site at Livermore sits on 
little more than one square mile, with homes and apartments, 
including my home, built right up to the fence line. Suburban 
neighborhoods lie only about 800 yards from the lab's 
Superblock and thousands of pounds of plutonium and highly 
enriched uranium.
    Tri-Valley CAREs has long held concerns regarding the 
safety and security of nuclear materials at Livermore lab. This 
spring, the Department of Energy undertook a series of security 
drills at Livermore lab, including a force-on-force test, in 
which a tactical security team played the role of an attacking 
force in order to see how the lab's security would respond.
    The mock terrorist team's objective was to get to the 
nuclear material and hold the ground long enough to construct 
an improvised nuclear device. A second scenario involved the 
would-be attackers stealing plutonium for use at a later date.
    While NNSA has yet to respond to Tri-Valley CAREs' Freedom 
of Information Act request for unclassified records regarding 
that security drill, the information we have gathered from 
multiple sources so far is that the mock terrorists succeeded 
in both of objectives.
    Remember, you have got 10,000 people on one square mile--
that the Livermore lab workforce and subcontractors--1,000 or 
so people across the street at Sandia, and thousands of us in 
the community right up to the fence line. Imagine what that 
means.
    Tri-Valley CAREs concludes that the plutonium and highly 
enriched uranium at Livermore lab is not secure, nor can it be 
made secure due to the compactness of the site, its 600 
buildings that are cheek-to-jowl, and the close proximity of 
the densely populated neighborhood.
    We oppose the NNSA proposal to leave these materials at 
Livermore lab through 2012, as outlined in the draft Complex 
Transformation PEIS.
    Our colleagues at the Project on Government Oversight 
(POGO) have released a report that suggests they should get it 
out by--and can get it out by 2009. Our research shows early 
2010 at the earliest in terms of safe packaging and removing 
that material.
    In addition to removing special nuclear material from the 
lab, any forward-looking plan for the future of the complex 
would conclude that there is no need to maintain two full-
service nuclear weapons design labs. It is entirely feasible to 
transition Livermore lab to new missions.
    This is the path, in my organization's view and in my own, 
and based on the numerous conversations I have had with 
Livermore lab folks, this is the true path to jobs and job 
security, is diversifying and changing the mission.
    Nonproliferation, research on global climate change, non-
polluting renewable energy technologies and other science in 
the national interest would replace weapons R&D at Livermore.
    Livermore would maintain a small weapons footprint with 
about a two dozen select staff supporting curatorship, about 
the same number, about two dozen, providing that peer review 
that was discussed in the first panel on certification and 
doing certification tasks.
    The security costs would plummet. This is very necessary in 
making Livermore lab competitive in attracting research 
projects. My understanding is for every $100,000 FTE right now, 
it costs about $400,000 to $450,000. We need to reduce the 
security footprint in order to make Livermore lab a competitive 
place to do other science in the national interest. And I am 
convinced that that can be done.
    Next, very quickly, Los Alamos lab--Tri-Valley CAREs 
opposes Complex Transformation's proposal to expand Plutonium 
Pit Production at Los Alamos lab from the current 20 pits per 
year to up to 80 plutonium bomb cores per year. And in this 
regard, we note that the proposed CMRR nuclear facility portion 
should not be built. If the Nation is doing curatorship for a 
declining arsenal, no additional capability is needed. So 
likewise, at Y-12, the Uranium Processing Facility should not 
be built.
    I want to conclude----
    Ms. Tauscher. You are really over time, so if you can 
conclude soon.
    Ms. Kelley. Okay. I will conclude with a couple of 
sentences from my paragraph on the Kansas City Plant.
    Here, the NNSA is poised to privatize a key part of the 
nuclear weapons complex which will circumvent the ability of 
Congress to authorize--this committee's ability to authorize--
and also Congress' ability to appropriate funds.
    The plan is to build and operate a new Kansas City Plant 
under a leaseback arrangement. Alternatives were given short 
shrift. NNSA and the General Services Administration (GSA) have 
undertaken activities that appear to support a predetermined 
outcome, which is a violation of law.
    It also appears that they have violated the OMB 
antideficiency guidelines, and we ask that Congress ask the GAO 
to investigate the lease arrangement and agency actions.
    Thank you.
    [The prepared statement of Ms. Kelley can be found in the 
Appendix on page 133.]
    Ms. Tauscher. Thank you very much.
    Ambassador Robinson, President Emeritus of the Sandia 
Laboratories, thank you so much for being with us again. You 
have appeared before the subcommittee many times. Your service 
to the American people is significant and very much 
appreciated.
    Your statement has been submitted for the record, and we 
would appreciate your summation of your statement, since we are 
about to have votes in about 15 minutes and we want to be able 
to get to questions. Thank you very much.

STATEMENT OF AMBASSADOR C. PAUL ROBINSON, PRESIDENT EMERITUS OF 
  SANDIA CORPORATION AND FORMER LABORATORIES DIRECTOR, SANDIA 
                     NATIONAL LABORATORIES

    Ambassador Robinson. Madam Chairman, let me just highlight, 
then, a couple of issues. I think we are all three here in 
agreement on one point, and that is the 2001 Nuclear Posture 
Review does not provide good guidance to move ahead with the 
complex reconfiguration.
    There are some fundamental flaws, I think, in what was 
done. A mixing of conventional forces and nuclear forces, which 
really don't mix well, was made and it sort of froze our 
planners in place, worrying about how do we do that.
    Nuclear weapons and our deterrent force is something to 
prevent war, not to fight wars. And this confusion of a global 
strike needs to be reconsidered and get us back on the right 
course of preventing wars as the main reason for this complex.
    The time since I have retired, I have served on a number of 
government panels, including more in the DOD. I am currently 
serving on the Nuclear Command Control Comprehensive Review. I 
served on the Nuclear Capability Study, which Johnny Foster and 
General Welch chaired. And we had a lot to say then about 
problems both in DOD and DOE, but more in their integration or 
lack thereof, that I believe is a very, very serious issue for 
us to draw this complex together. It has always been a problem. 
It has been good at times. Then it wanders apart. But we are in 
a particularly bad disconnect between the agencies at the 
moment.
    I did want to say to this committee I was present, I 
believe, at the birth of the concept of RRW. And General Welch, 
who is the Chairman of the Strategic Advisory Group for the 
Commanders Strategic Command, had challenged the lab directors 
at a meeting and said, ``Look, we are in an interim state where 
we are all trying to see if we can develop stockpile 
stewardship so we would not have to test weapons, but there is 
no proof yet that that is going to work, and there is a 
safeguard on the table that says if we go into a future 
President and say, `Mr. President, we have got a serious 
problem with the stockpile, we have had to take systems off 
alert, we believe we are going to have to test to fix whatever 
problems have been discovered,' '' he said, ``Well, every 
President in the future--have to exist that you might be coming 
in next week with such a conversation.''
    And the challenge he then gave was, ``What could you be 
doing now that could lessen that likelihood?'' And that really 
began the thinking process to give birth to what is the 
Reliable Replacement Warhead concept.
    I was disappointed that there were discussions in the 
Congress saying, ``Well, these people may be trying to do 
something to force nuclear testing.'' I assure you, it was 
quite the opposite motivation. It is what can we do to 
forestall the date.
    And I believe the approach is a reasonable one--genetic 
diversity, so that nothing in one leg of the stockpile is 
likely to fail, that you would have to go in and request 
permission for a nuclear test. It is a very good strategy and 
one worthwhile for our Nation to be pursuing in these 
circumstances in which we are in today.
    The question of the Preferred Alternative--I said in my 
testimony I have mixed reaction. They have done some good 
things. It is certainly much improved over the plan of the 
Complex 2030, but still, without specific guidance that only 
the Defense Department can prepare in detail, what stockpile is 
it we are going to work with?
    And then, last place an emphasis on fixing problems that 
are going to arise in the stockpile, whatever we do, whether it 
is life extension, whether it is Reliable Replacement Warheads. 
These are the oldest components in our history of nuclear 
weapons, the very oldest today, and they are only going to 
continue to age.
    So what can we do to prepare ourselves in the best 
position? Our deterrent does remain the best insurance policy 
for this Nation against a major war, and I am concerned we have 
got to preserve it for the future. Thank you very much, Madam 
Chairman.
    [The prepared statement of Ambassador Robinson can be found 
in the Appendix on page 141.]
    Ms. Tauscher. Thank you.
    I am going to reserve my time, and Mr. Larsen, who has not 
had a chance to ask some questions--I will yield him five 
minutes.
    Mr. Larsen. Thank you, Madam Chair.
    It is Aloise?
    Mr. Aloise. Aloise, yes.
    Mr. Larsen. Aloise. Mr. Aloise, your fourth point in the 
GAO study regarding successful transformation requires a strong 
Office of Transformation. Did you make a determination about 
whether NNSA needs an Office of Transformation at all in order 
to implement any of these changes?
    Mr. Aloise. Well, yeah, our thinking is we believe it does, 
but our recommendation was that it report directly to the 
Administrator. Right now, it reports to the Office of Defense.
    Mr. Larsen. Office of----
    Mr. Aloise. Defense Programs.
    Mr. Larsen. Okay.
    Ms. Tauscher. DP.
    Mr. Larsen. DP.
    Mr. Aloise. And our thinking was it would have to have the 
authority and the support of the organization to be worthwhile, 
the authority to make decisions and the authority--and the 
responsibility to be accountable for those decisions.
    Mr. Larsen. The office itself?
    Mr. Aloise. Yes.
    Mr. Larsen. And it currently does not?
    Mr. Aloise. It remains to be seen.
    Mr. Larsen. Can you explain that?
    Mr. Aloise. Well, it doesn't report directly to the 
Administrator, so once it starts making decisions, we will have 
to take a look at that.
    Mr. Larsen. Okay. And it does seem a difficult thing so 
long as policymakers and us in Congress and the Administration, 
presumably the future Administration--we haven't set long-term 
requirements for the weapons stockpile.
    And so I understand the debate we are having here about 
either going the wrong way, as Ms. Kelley has suggested, or 
getting it half right, perhaps, as Ambassador Robinson has 
suggested. Until we decide what we want for a stockpile, it 
makes it difficult.
    Ms. Kelley, I didn't gather from your testimony, though, 
what specific comments you had with regards to the sprawling 
complex that we have now. You just said--well, I don't want to 
characterize it as all negative.
    But it sounded to me like your views, and your group's 
views on where they are headed was all negative, but none of 
the issues you brought up had to do with the issue that--part 
of the issue we have is consolidating facilities so that we are 
not spending money on things we are not using or to be best--
money can be better spent if we had things closer together.
    Can you address that issue?
    Ms. Kelley. Certainly. One of the things I was trying to 
get across, and it was difficult with excerpting, is that if 
the Nation were to go to a strategy that was closer to 
curatorship, that you could have actually much more 
consolidation than you have with the Preferred Alternative 
under Complex Transformation.
    The Preferred Alternative under Complex Transformation has 
significant numbers of new facilities, and I talked 
specifically about the----
    Mr. Larsen. Right.
    Ms. Kelley [continuing]. CMRR nuclear facility portion in 
particular and the Uranium Processing Facility.
    So my group challenges the idea that you actually need to 
build these new facilities with all kinds of flexibility, which 
you heard in the first panel--too expensive, and if you are 
curating the existing arsenal and you are going down in the 
arsenal numbers, they are not needed.
    We certainly do not propose leaving the entire complex, as 
it now exists, in place. So there is a certain starting point 
agreement that we have with, say, Tom D'Agostino.
    But in the name of consolidating, they are moving from 
eight NNSA sites to eight NNSA sites once this is fully 
implemented. You still have eight sites. You have plutonium at 
a couple less sites. You have new facilities. So we are 
suggesting it is not really the consolidation that the country 
needs. We need a much more----
    Mr. Larsen. Well, I guess I would also say, moving from 
eight sites to eight sites doesn't mean there hasn't been 
consolidation. It is probably not a fair assessment of 
consolidation.
    If there are eight smaller sites, or five smaller sites 
within that eight, and--and the--and the facilities on those 
sites are smaller as well, it seems to be moving toward 
consolidation. I would be careful about comparing eight to 
eight.
    Ms. Kelley. And we think that--that you could get more 
consolidation if, for example, the Livermore mission could--
could change----
    Mr. Larsen. Change outright.
    Ms. Kelley [continuing]. Could change outright, although we 
would retain that peer review. We would retain a curatorship 
force of a couple dozen specialists and also----
    Mr. Larsen. With the--I am sorry.
    Ms. Kelley [continuing]. A certification force.
    Mr. Larsen. With the short time I have left, Ambassador 
Robinson, can you give me some perspective that you have on 
consolidation and the curatorship idea?
    Ambassador Robinson. Well, the program that was started in 
the early 1990's with the proposal to go under a test-ban 
moratorium----
    Mr. Larsen. Right.
    Ambassador Robinson [continuing]. Science was at its core. 
It was science-based stockpile stewardship. There are a number 
of things that are empirical in nuclear weapons.
    We do not have an adequate explanation to be able to depend 
upon large supercomputers and modeling codes. And everyone 
dedicated themselves to trying to develop that science 
understanding.
    The curatorship approach would throw that out and say, 
``Well, we just won't worry about whether we understand it or 
not. We will just try the best we can do to not make any 
changes and hope for the best.'' I don't think that is the 
right approach.
    I think that is not likely to lead to a suitable outcome 
and make it more likely that we would have doubts in our 
strategic deterrent force and more likely that we would be 
requesting the ability to test to prove out the force.
    Mr. Larsen. Just quickly, Mr. Aloise, in conclusion, have 
you looked at--were you responsible at all for looking at any 
of the alternatives that NNSA looked at as they prepared 
their--their impact statement?
    Mr. Aloise. No, sir, we didn't.
    Mr. Larsen. Okay. All right.
    Thank you.
    Ms. Tauscher. Thank you, Mr. Larsen.
    Mr. Everett.
    Mr. Everett. Thank you, Ms. Chairman.
    Dr. Robinson, the military has a--in the world that we live 
in, in the foreseeable future, with almost every country we 
know getting involved in nuclear weapons, and with many of our 
allies such as Britain, France, others like China, the military 
continues to need a--have a requirement for a more responsive 
infrastructure with more reliable, safe and secure weapons, I 
believe.
    Let me ask you, if we would like to do something about 
bringing down the stockpile even further--we have done a good 
job for the Moscow Treaty. And if we would like to get to the 
hedge weapon, would it not make sense that we--and I don't want 
to put words in your mouth. I am asking you the question.
    Would it make sense for us to continue down the path of RRW 
that does--absolutely does not increase yield or anything like 
that, that guarantees a safe weapon?
    Would the military--they don't want to give up those hedge 
weapons right now, and I can understand why. But if they had 
something like RRW, would this not be a way to further reduce 
the stockpile of hedge weapons?
    Ambassador Robinson. I believe that was our intent from the 
first, yes, sir.
    I should have probably added, I had the bitter experience 
when I headed the nuclear weapons program at Los Alamos early 
in my career--I had to make such a call to the commander of 
then Strategic Air Command to take a certain class of weapons 
off-alert and targeting because of a serious problem that had 
been uncovered. I remember every second of that day and relive 
it--would not like to relive it again.
    We need some alternatives that we can have confidence that 
we are not betting our country on a system we can't be sure of. 
I believe having a variety of designs will instill confidence 
to make sure we aren't taking a full deterrent force off-alert.
    I do have problems about the strategy besides the 2001 
Nuclear Posture Review. The weapons we developed were for a 
different time and place. The yields of most of our weapons are 
so high today that we are self-deterred from even considering 
their use. And so some of the things you can do with a RRW 
program--and we have done it with the existing weapon force in 
the past with secondaries--is go to lower yields, more 
appropriate to deter some of the rogue states which are now 
becoming nuclear.
    I think the Cold War stockpile is incredible to consider as 
a deterrent force for that. But we can do that without having 
to do nuclear tests. You can go lower in yield. You just can't 
go higher.
    Mr. Everett. Finally, just a comment. I do worry about the 
rogue states. I also worry about the non-actor--non-actor 
states----
    Ms. Tauscher. Non-state actors?
    Mr. Everett [continuing]. Terrorists, especially when we 
get to a point where we get launch vehicles such as the ones 
SpaceX is working on that--for $7 million to $10 million, and 
which can reach low orbit with a nuclear weapon and destroy 
basically an awful lot that this--the United States in 
particular depends on more than any other country, both--not 
our--not only our military but our economy also.
    I do worry about that, as well as rogue states. And I will 
have some questions for the record.
    Thank you.
    Ms. Tauscher. Thank you, Mr. Everett.
    Mr. Aloise, thank you for your great work. We really 
appreciate it. If one assumes a relatively flat budget line for 
the NNSA Weapons Activities, are the NNSA's Complex 
Transformation plans affordable and executable?
    Mr. Aloise. Well, if you look at the Preferred 
Alternative--we look at that basically as modernization in 
place.
    Ms. Tauscher. Right.
    Mr. Aloise. And the first thing they are going to have to 
do is get their stockpile requirements. They are going to have 
to know--NNSA has to know what it needs to right-size to before 
it does anything.
    While it is doing that, it has to maintain the current 
complex. And if there are cost increases and schedule delays in 
the Life Extension Program, like there has been in the past, 
that is going to affect funding in the future.
    And there are red flags already with the CMRR and the UPF. 
Two years ago when I testified on this subject, it was--the 
CMRR estimate was $840 million. Today, it is $2 billion. We 
don't have any confidence in those estimates.
    The UPF ranges from $1.4 billion to $3.5 billion. We don't 
have any confidence in those estimates. So, the NNSA has to 
come up with good, supportable, verifiable cost estimates based 
on a--stockpile numbers.
    Ms. Tauscher. I appreciate that.
    Ambassador Robinson, in your statement you state that the 
primary purpose for nuclear weapons must be for deterring 
conflicts, while the purpose of conventional forces is 
fighting. I agree with that.
    If the mission of the nuclear weapons is limited to 
deterrence--and I agree with it--do you see opportunities to 
reduce the number of deployed weapons below the level specified 
by the Moscow Treaty? And do you have any idea what those 
constraints might be?
    Ambassador Robinson. The Moscow Treaty only limits a 
particular class of weapons, and there was a new counting rule 
put into place that strategically deployed systems, or systems 
that are not on alert, and the full class of tactical nuclear 
weapons, which are very, very large----
    Ms. Tauscher. Very large.
    Ambassador Robinson [continuing]. In Russia, are not 
covered. I think we need to look at the whole counting scheme 
in your question, and we have not done that yet.
    Ms. Tauscher. I agree with you.
    Ms. Kelley, in your testimony you stated, ``Under 
curatorship, only if the NNSA's surveillance activities 
demonstrated compelling evidence that a component had degraded 
or could soon degrade, and further analysis indicated that such 
degradation could cause a significant loss of safety or 
reliability would NNSA replace the affected part. The 
replacement would be remanufactured as close to the original 
design as possible.''
    That sounds like the Life Extension Program to me. If you 
don't think it is the Life Extension Program, what do you think 
curatorship is, and why isn't it the Life Extension Program?
    Ms. Kelley. We believe that curatorship is the Life 
Extension Program as it should be, not as it presently is.
    Ms. Tauscher. Tell me the difference.
    Ms. Kelley. Yes. And I want to start by showing--and I 
realize it is pretty difficult from here--a view graph. This is 
from the Sandia stockpile life study. The curatorship really 
depends, at its heart, on a really good program.
    You said what do I like--a really good program that is 
headquartered at Sandia, Albuquerque, at Livermore, Los Alamos, 
and Pantex also participate in the DOE surveillance and 
evaluation program, or now NNSA surveillance and evaluation 
program.
    And this is 30 years worth of actual experience with U.S. 
nuclear weapons in the stockpile. And it shows without a doubt 
that the most problems--and they are called ``actionable 
defects''--that is the lingo--which are the ones that could 
impact safety or reliability, and so you do go out and fix 
them--that you get between 61 and 29 of them the first 3 years.
    So, any time you make a significant change or put a new 
design in the arsenal, you have to fix a lot of things, because 
mostly these are design flaws or production flaws and not sort 
of aging flaws.
    And then as the arsenal ages, you are talking about one to 
seven, one to nine per year. And you notice after 30 years, it 
is not a bathtub curve going back up--so that curatorship would 
really depend much more heavily than the Stockpile Stewardship 
Program does--it includes it but doesn't really depend on it 
heavily--the surveillance and evaluation program.
    And it would do the actionable defects. It would----
    Ms. Tauscher. I still don't understand.
    Ms. Kelley. Okay. So----
    Ms. Tauscher. The only time a weapon is--is tinkered with, 
so to speak, is when there is something wrong with it.
    Ms. Kelley. And----
    Ms. Tauscher. So if there is only--so you are effectively 
changing the name. You are saying your program is called 
curatorship. We are saying we have got that. It is called 
lifetime--Life Extension Program.
    Ms. Kelley. Okay. And----
    Ms. Tauscher. But I don't understand what--it seems to me 
you are suggesting that life extension--I don't want to put 
words in your mouth, but it seems you are suggesting that life 
extension does more than what you are characterization 
curatorship does, and what I am telling you is your curatorship 
is life extension.
    Ms. Kelley. Administrator D'Agostino sort of briefly, in 
his answer in the first panel said that there are times when 
new parts are put into a warhead because we are taking 
advantage of advances in certain kinds of technologies.
    Ms. Tauscher. What he said was----
    Ms. Kelley. And he----
    Ms. Tauscher [continuing]. Because we don't make vacuum 
tubes anymore----
    Ms. Kelley. Yes.
    Ms. Tauscher [continuing]. Because we don't, you know----
    Ms. Kelley. And under curatorship you would--you would sort 
of hew to the design--the original design more closely. For 
example, in the unclassified literature for the W76----
    Ms. Tauscher. So you are suggesting that you would keep 
vacuum tubes in a weapon system.
    Ms. Kelley. Or you would do something that would--that 
would hew more closely to the original design, for example. In 
the unclassified literature----
    Ms. Tauscher. So answer this question. Vacuum tubes--
unavailable. What do you--and so you are going to take them 
out.
    Ms. Kelley. And so you are going to look at that and you 
are either going to do vacuum tubes or something more like it.
    Ms. Tauscher. Can't get vacuum tubes.
    Ms. Kelley. In the W76, the unclassified literature 
suggests that they are changing the height of burst. So he said 
it doesn't--that they are not changing the yield, and that may 
be, but there are significant changes that are----
    Ms. Tauscher. But that is not a performance criteria. That 
does not change the performance of the weapon. It is something 
that is an effect of having to put new machinery in because 
what is in there is obsolete, not available, not reliable, 
can't find it, you know, whatever.
    Ms. Kelley. And what I am trying to say is that in the name 
of doing that there are changes that do not need to be made to 
weapons systems as they go through the Life Extension Program.
    Ms. Tauscher. But I think that that----
    Ms. Kelley. And that curatorship would----
    Ms. Tauscher. But that is a mistake. To assert that there 
are things being done to these weapons that are not responsive 
to some obsolescence of a part, some degradation of a part, 
some question of its performance I think is wrong, because that 
is not what Life Extension Programs do.
    And keeping in mind that the fences around life extension 
are pretty enormous--no change to the mission, no change to the 
platform, no change to the yield, no change to the constitution 
of the weapon--i.e., no change of performance.
    So life extension can't be--cannot be asserted by anybody 
to be a program that enhances the performance of the weapon. 
That is not what it does. It enhances the reliability of the 
weapon.
    Ms. Kelley. I think that if--if you think that changing the 
height of burst of a weapon isn't changing its performance, 
that that is--you know, it is difficult to talk about these 
issues, but that is debatable.
    Ms. Tauscher. Well, let me ask Dr. Robinson, 
hypothetically.
    Ambassador Robinson. Height of burst is something the 
military controls, and it is completely within their control at 
all times and always was. So, it is not an inherent part of the 
weapon. And we haven't changed the height of burst spectrum. It 
was all available. It is still available today.
    As I listen to this conversation, one of the things that I 
think could help enrich it is the fact that a modern U.S. 
weapon, nuclear weapon, has about the same number of parts as a 
new Toyota, about 3,800--3,800 parts. I can't give you the 
exact number here, but it is something under 50 parts are with 
the nuclear system itself, the so-called physics package, and 
the rest are all Sandia responsibilities for the maintenance, 
the non-nuclear package, the arming, fusing, firing and an 
enormous----
    Ms. Tauscher. Radar.
    Ambassador Robinson [continuing]. Plethora of safety 
devices to make sure they never go off in an accident.
    We do test all of those other parts than the nuclear parts, 
and that is why most of the actions are taken, is when we see a 
problem we do, indeed, fix it. And that is the bulk of the work 
that goes on in life extension.
    Ms. Tauscher. But life extension inherently is not 
performance enhancement.
    Ambassador Robinson. Correct.
    Ms. Tauscher. It is reliability assurance.
    Ambassador Robinson. And safety assurance, yes.
    Ms. Tauscher. Right. Okay.
    And that is, I think--I think that is an issue where we 
should--we should try to find congruence. You know, I think 
that what you are proposing as curatorship is life extension.
    And I think that if we could agree on that, then there are 
lots of other things where we could work, certainly on removing 
plutonium and things, where this subcommittee has worked 
significantly to accelerate, to add money, to make demands and 
move the plutonium, for example, out of Livermore.
    We could work significantly on that. But I don't think it 
is productive for us to take life extension, which is the most 
enormously successful program that we have had to maintain the 
deterrence of our nuclear weapons, which is still part of the 
military requirement of this country, as of now and probably 
into the not-too-distant future, and--and quibble around the 
edges of it, when I think that there is a lot of work that 
really needs your energy and your attention.
    Ms. Kelley. Well, part of the difference in the two 
approaches is the--is that the science-based stockpile 
stewardship approach places such a premium on pushing the 
envelope of nuclear weapons science, and curatorship--I mean, 
we actually said, ``Well, what does the weapon need?'' We 
understand what the weapons scientists want. What does the 
weapon need?
    And it is a program that tries to look at that issue, and 
so that you get a program that is based more on the test data, 
more on modeling that has to do with conformance to the test 
data. It is much more focused on the weapons themselves.
    And that distinction, when you play it out in terms of--of 
what kind of new facilities or modernized facilities has an 
impact. So we are not trying to come up with a program that has 
a different moniker for the same thing.
    We are really trying to look more narrowly at what the 
weapon needs to maintain the existing safety and reliability, 
to maintain it as close as possible to the warhead that was 
fully tested in Nevada as a method for ensuring that we don't 
return to nuclear testing, so you don't lock the weapons away 
and also lock the codes away, and potentially get into a 
situation some years down the road where they are a bit 
bollixed up.
    Ms. Tauscher. Well, I would join with my comments--with the 
comments of my esteemed and distinguished ranking member that 
he was teasing out of Ambassador Robinson. I think that you 
have to take this to its natural conclusion.
    When we have this military requirement, when we have the 
moratorium, which I certainly support--I would be supportive of 
the Comprehensive Test Ban Treaty (CTBT) being ratified.
    Ms. Kelley. Right.
    Ms. Tauscher. Probably not going to happen any time soon.
    But while we have these weapons, and while we are taking 
them down--and I think we are doing a lot of good work in 
dismantling them. We have issues about tactical and what are we 
going to do with the Moscow Treaty.
    While we have this military requirement, and we have this 
deterrent strategy, which I support, you have to have weapons 
that the military is going to believe are going to do their 
mission.
    If you are not going to have a science-based program that 
extends their life while at the same time not enhancing 
performance, but does what we believe stockpile stewardship 
does, what concerns me is that what you are proposing looks 
more like a hospice program than it does keeping their life 
going.
    And what worries me is that you are going to find that you 
are going to have a military that stands up and says, ``You 
better test.'' And that is not where we want to go.
    Ms. Kelley. And I am worried----
    Ms. Tauscher. So there is a sweet spot--there is a sweet 
spot here that--that I think we are trying to find, and once 
again, I encourage your work. I encourage you to consider, you 
know, pushing the envelope.
    But I think that--I am not sure it is productive, as some 
of the other things that you have done, to quibble about 
curatorship versus life extension, when life extension is the 
gold standard.
    Right now, we are concerned about in the next generation 
that we are going to be able to maintain without testing, but 
it has worked for a very long time. It is, I think, where most 
people want to be until we make a decision we don't need 
weapons.
    We are not going to unilaterally disarm in a multilateral 
world where weapons are proliferating, but I think--I think 
that this is, once again, a very important conversation.
    We have got votes. I apologize that we are going to have to 
close the hearing. Thank you so much for coming. Thank you very 
much for your service. Thank you very much for your testimony.
    Ms. Kelley. Thank you. I am honored that you invited me, 
and thank you very much.
    Ms. Tauscher. Of course. Of course. Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 17, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 17, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5134.001
    
    [GRAPHIC] [TIFF OMITTED] T5134.002
    
    [GRAPHIC] [TIFF OMITTED] T5134.003
    
    [GRAPHIC] [TIFF OMITTED] T5134.004
    
    [GRAPHIC] [TIFF OMITTED] T5134.005
    
    [GRAPHIC] [TIFF OMITTED] T5134.006
    
    [GRAPHIC] [TIFF OMITTED] T5134.007
    
    [GRAPHIC] [TIFF OMITTED] T5134.008
    
    [GRAPHIC] [TIFF OMITTED] T5134.009
    
    [GRAPHIC] [TIFF OMITTED] T5134.010
    
    [GRAPHIC] [TIFF OMITTED] T5134.011
    
    [GRAPHIC] [TIFF OMITTED] T5134.012
    
    [GRAPHIC] [TIFF OMITTED] T5134.013
    
    [GRAPHIC] [TIFF OMITTED] T5134.014
    
    [GRAPHIC] [TIFF OMITTED] T5134.015
    
    [GRAPHIC] [TIFF OMITTED] T5134.016
    
    [GRAPHIC] [TIFF OMITTED] T5134.017
    
    [GRAPHIC] [TIFF OMITTED] T5134.018
    
    [GRAPHIC] [TIFF OMITTED] T5134.019
    
    [GRAPHIC] [TIFF OMITTED] T5134.020
    
    [GRAPHIC] [TIFF OMITTED] T5134.021
    
    [GRAPHIC] [TIFF OMITTED] T5134.022
    
    [GRAPHIC] [TIFF OMITTED] T5134.023
    
    [GRAPHIC] [TIFF OMITTED] T5134.024
    
    [GRAPHIC] [TIFF OMITTED] T5134.025
    
    [GRAPHIC] [TIFF OMITTED] T5134.026
    
    [GRAPHIC] [TIFF OMITTED] T5134.027
    
    [GRAPHIC] [TIFF OMITTED] T5134.028
    
    [GRAPHIC] [TIFF OMITTED] T5134.029
    
    [GRAPHIC] [TIFF OMITTED] T5134.030
    
    [GRAPHIC] [TIFF OMITTED] T5134.031
    
    [GRAPHIC] [TIFF OMITTED] T5134.032
    
    [GRAPHIC] [TIFF OMITTED] T5134.033
    
    [GRAPHIC] [TIFF OMITTED] T5134.034
    
    [GRAPHIC] [TIFF OMITTED] T5134.035
    
    [GRAPHIC] [TIFF OMITTED] T5134.036
    
    [GRAPHIC] [TIFF OMITTED] T5134.037
    
    [GRAPHIC] [TIFF OMITTED] T5134.038
    
    [GRAPHIC] [TIFF OMITTED] T5134.039
    
    [GRAPHIC] [TIFF OMITTED] T5134.040
    
    [GRAPHIC] [TIFF OMITTED] T5134.041
    
    [GRAPHIC] [TIFF OMITTED] T5134.042
    
    [GRAPHIC] [TIFF OMITTED] T5134.043
    
    [GRAPHIC] [TIFF OMITTED] T5134.044
    
    [GRAPHIC] [TIFF OMITTED] T5134.045
    
    [GRAPHIC] [TIFF OMITTED] T5134.046
    
    [GRAPHIC] [TIFF OMITTED] T5134.047
    
    [GRAPHIC] [TIFF OMITTED] T5134.048
    
    [GRAPHIC] [TIFF OMITTED] T5134.049
    
    [GRAPHIC] [TIFF OMITTED] T5134.050
    
    [GRAPHIC] [TIFF OMITTED] T5134.051
    
    [GRAPHIC] [TIFF OMITTED] T5134.052
    
    [GRAPHIC] [TIFF OMITTED] T5134.053
    
    [GRAPHIC] [TIFF OMITTED] T5134.054
    
    [GRAPHIC] [TIFF OMITTED] T5134.055
    
    [GRAPHIC] [TIFF OMITTED] T5134.056
    
    [GRAPHIC] [TIFF OMITTED] T5134.057
    
    [GRAPHIC] [TIFF OMITTED] T5134.058
    
    [GRAPHIC] [TIFF OMITTED] T5134.059
    
    [GRAPHIC] [TIFF OMITTED] T5134.060
    
    [GRAPHIC] [TIFF OMITTED] T5134.061
    
    [GRAPHIC] [TIFF OMITTED] T5134.062
    
    [GRAPHIC] [TIFF OMITTED] T5134.063
    
    [GRAPHIC] [TIFF OMITTED] T5134.064
    
    [GRAPHIC] [TIFF OMITTED] T5134.065
    
    [GRAPHIC] [TIFF OMITTED] T5134.066
    
    [GRAPHIC] [TIFF OMITTED] T5134.067
    
    [GRAPHIC] [TIFF OMITTED] T5134.068
    
    [GRAPHIC] [TIFF OMITTED] T5134.069
    
    [GRAPHIC] [TIFF OMITTED] T5134.070
    
    [GRAPHIC] [TIFF OMITTED] T5134.071
    
    [GRAPHIC] [TIFF OMITTED] T5134.072
    
    [GRAPHIC] [TIFF OMITTED] T5134.073
    
    [GRAPHIC] [TIFF OMITTED] T5134.074
    
    [GRAPHIC] [TIFF OMITTED] T5134.075
    
    [GRAPHIC] [TIFF OMITTED] T5134.076
    
    [GRAPHIC] [TIFF OMITTED] T5134.077
    
    [GRAPHIC] [TIFF OMITTED] T5134.078
    
    [GRAPHIC] [TIFF OMITTED] T5134.079
    
    [GRAPHIC] [TIFF OMITTED] T5134.080
    
    [GRAPHIC] [TIFF OMITTED] T5134.081
    
    [GRAPHIC] [TIFF OMITTED] T5134.082
    
    [GRAPHIC] [TIFF OMITTED] T5134.083
    
    [GRAPHIC] [TIFF OMITTED] T5134.084
    
    [GRAPHIC] [TIFF OMITTED] T5134.085
    
    [GRAPHIC] [TIFF OMITTED] T5134.086
    
    [GRAPHIC] [TIFF OMITTED] T5134.087
    
    [GRAPHIC] [TIFF OMITTED] T5134.088
    
    [GRAPHIC] [TIFF OMITTED] T5134.089
    
    [GRAPHIC] [TIFF OMITTED] T5134.090
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 17, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5134.091
    
    [GRAPHIC] [TIFF OMITTED] T5134.134
    
    [GRAPHIC] [TIFF OMITTED] T5134.135
    
    [GRAPHIC] [TIFF OMITTED] T5134.136
    
    [GRAPHIC] [TIFF OMITTED] T5134.137
    
    [GRAPHIC] [TIFF OMITTED] T5134.092
    
    [GRAPHIC] [TIFF OMITTED] T5134.093
    
    [GRAPHIC] [TIFF OMITTED] T5134.094
    
    [GRAPHIC] [TIFF OMITTED] T5134.095
    
    [GRAPHIC] [TIFF OMITTED] T5134.096
    
    [GRAPHIC] [TIFF OMITTED] T5134.097
    
    [GRAPHIC] [TIFF OMITTED] T5134.098
    
    [GRAPHIC] [TIFF OMITTED] T5134.099
    
    [GRAPHIC] [TIFF OMITTED] T5134.100
    
    [GRAPHIC] [TIFF OMITTED] T5134.101
    
    [GRAPHIC] [TIFF OMITTED] T5134.102
    
    [GRAPHIC] [TIFF OMITTED] T5134.103
    
    [GRAPHIC] [TIFF OMITTED] T5134.104
    
    [GRAPHIC] [TIFF OMITTED] T5134.105
    
    [GRAPHIC] [TIFF OMITTED] T5134.106
    
    [GRAPHIC] [TIFF OMITTED] T5134.107
    
    [GRAPHIC] [TIFF OMITTED] T5134.108
    
    [GRAPHIC] [TIFF OMITTED] T5134.109
    
    [GRAPHIC] [TIFF OMITTED] T5134.110
    
    [GRAPHIC] [TIFF OMITTED] T5134.111
    
    [GRAPHIC] [TIFF OMITTED] T5134.112
    
    [GRAPHIC] [TIFF OMITTED] T5134.113
    
    [GRAPHIC] [TIFF OMITTED] T5134.114
    
    [GRAPHIC] [TIFF OMITTED] T5134.115
    
    [GRAPHIC] [TIFF OMITTED] T5134.116
    
    [GRAPHIC] [TIFF OMITTED] T5134.117
    
    [GRAPHIC] [TIFF OMITTED] T5134.118
    
    [GRAPHIC] [TIFF OMITTED] T5134.119
    
    [GRAPHIC] [TIFF OMITTED] T5134.120
    
    [GRAPHIC] [TIFF OMITTED] T5134.121
    
    [GRAPHIC] [TIFF OMITTED] T5134.122
    
    [GRAPHIC] [TIFF OMITTED] T5134.123
    
    [GRAPHIC] [TIFF OMITTED] T5134.124
    
    [GRAPHIC] [TIFF OMITTED] T5134.125
    
    [GRAPHIC] [TIFF OMITTED] T5134.126
    
    [GRAPHIC] [TIFF OMITTED] T5134.127
    
    [GRAPHIC] [TIFF OMITTED] T5134.128
    
    [GRAPHIC] [TIFF OMITTED] T5134.129
    
    [GRAPHIC] [TIFF OMITTED] T5134.130
    
    [GRAPHIC] [TIFF OMITTED] T5134.131
    
    [GRAPHIC] [TIFF OMITTED] T5134.132
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 17, 2008

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MS. TAUSCHER

    Mr. D'Agostino. The NNSA has not completed a review of what the 
sites in the Complex will need for personnel in five years, but we will 
have a clearer picture after the findings from the Congressional 
Commission on the Strategic Posture of the United States (Section 1062 
of the FY 2008 National Defense Authorization Act) are reported, as 
well as from the FY 2009 Nuclear Posture Review (Section 1070 of the FY 
2008 National Defense Authorization Act). Based on an assumption of 
steady state requirements, we can make some rough projections about the 
needs of the Complex in five years. We have projections from the sites:
    Los Alamos National Laboratory (LANL) expects about 625 career 
employee scientist and engineer terminations in the next five years. 
The number of expected career employee new hires or conversions from 
pos-doc or limited term positions is 500. LANL expects to lose about 
625 career employee scientist and engineer terminations in the next 
five years. LANL has historically relied largely on postdocs for many 
of its hires. However, the number of post-doc applications selected for 
consideration in 2003 was 279, competed with 175 in 2008, a significant 
decline due to budget constraints. From 2006 to 2008, the percentage of 
LANL post-docs who were U.S. citizens has been steady at 39%, compared 
with 52% in 2000, a significant decline.
    Lawrence-Livermore National Laboratory (LLNL) has over 6,400 
employees of which more than 2750 are scientists and engineers. The 
laboratory expects 1007 career employee scientist and engineer 
separations in the next five years and a like number of hires LLNL's 
post-doc population has remained constant from 2004 through 2000. 
However rates of conversion to permanent employees dropped from an 
average of 22 percent in 2004 to 3.8 percent in 2008. Almost seventy 
percent of the post-docs are U.S. citizens. Over 75 percent of LLNL's 
scientists and engineers have a master's degree or higher, with 50 
percent having a PhD.
    Sandia National Laboratory (SNL) projects from a total of almost 
4000 scientists and engineers a total attrition of approximately 950 
scientists and engineers over the next five years. The hiring estimate 
is 150-200 technical staff per year, or 750 to 1000 engineers and 
scientists over a five year period. Of these, 40% will have PhDs, 35% 
masters, and 20% bachelors and other degrees. For both attrition and 
hiring, Sandia's California site is projected to account for 13%. The 
total number of Sandia's employees is greater than 8400.
    National Security Technologies (NSTec) reports the Nevada Test Site 
currently has 450 scientists and engineers and estimates attrition of 
175 and hiring of 200 over the next five years. One fourth of the 
engineers have a master's or PhD, as do half of the scientists.
    The Kansas City Plant expects to lose 300 technical workers out of 
a total of 648 in the next five years and plans to replace 80-100% 
(240-300). Most are expected to be bachelor-degreed engineers, a third 
masters, and a few PhDs.
    The Pantex Plant has 524 scientists and engineers and anticipates a 
6% annual attrition for the next five years. To maintain a static 
technical workforce, 157 scientists and engineers with bachelors or 
masters degree must be hired over that period.
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. EVERETT

    Mr. D'Agostino. The NNSA has diligently worked over the past two 
years performing technical reviews and business case analyses of 
transformation alternatives. The business case analyses covered costs, 
risks, and benefits of each major alternative. These studies also 
included life cycle costs of alternatives; costs of decommissioning, 
deactivation, and decontamination of closure sites and facilities; and 
cash flow analyses. The selected preferred alternative in the Draft 
Complex Transformation Supplemental Programmatic Environmental Impact 
Statement (SPEIS) was typically the lowest cost and lowest risk option 
based on both our internal and independent business case analyses. 
These business case analyses were made available for public review on 
the web at http://www.complextransformationspeis.com in January 2008. 
Updated business case studies will be made available with the Final 
SPEIS.
    In our business case and environmental analyses for each major 
modernization alternative, an internal Integrated Project Team (IPT) 
was established to perform a business case analysis. Typically, this 
work proceeded in parallel with an evaluation by a non-NNSA independent 
review team. We evaluated consolidation options that could have 
resulted in closure of up to two major sites (Pantex in Texas and Y-12 
in Tennessee). However, we did not select these consolidation options 
because extensive internal and independent analyses indicated that of 
higher lifecycle costs and higher risks for time periods extending 
through 2060. For example, the Department of Defense, Office of the 
Secretary of Defense, Cost Analysis Improvement Group reported to me in 
a January 10, 2008 memo that a ``Consolidated Nuclear Production Center 
(CNPC) proposal is less cost effective than modernizing the existing 
nuclear weapon production facilities.'' [See page 15.]
    Dr. Miller. Great care must be taken during the anticipated 
transformation activities to ensure that foundation of our confidence 
in the stockpile, achieved through the independent scientific 
approaches to identifying and resolving issues offered by two-
Laboratory competition, be sustained and nurtured. Pursuing 
efficiencies such as a single simulation code system for both 
Laboratories or dictating common approaches to solving complex problems 
would destroy this foundation. Similarly, eliminating Livermore's 
expertise in a basic material like plutonium would cripple the peer 
review process. Appropriate consolidation of facilities is a valid and 
important step; however, consolidating expertise would create 
unacceptable risks. A more general concern is that during complex 
transformation the foundational science and technology of the 
Laboratories will be squeezed out by the large capital investments 
required for transformation and the work required to maintain the 
existing stockpile. The planned reduction of the Laboratories 
capabilities by an additional 20 to 30% is a cause for great concern.
    The United States has maintained confidence in the safety, 
security, and performance of its nuclear deterrent through a 
scientifically competitive process involving Los Alamos and Livermore 
for over 50 years. This process of managed competition, collaboration, 
and peer review has been essential because it has never been possible 
to fully test the nuclear explosive package in all of its delivery 
configurations and anticipated environments. With the current 
restrictions on any nuclear testing and the potential for ratification 
of a Comprehensive Nuclear Test Ban Treaty, this process, which 
provides the government with independent, expert advice on questions of 
national importance is more essential than ever.
    At its core, this process relies on having truly independent 
experts--trained people with experimental capabilities and 
computational simulation codes--who have the tools to do independent, 
hands-on work on particular issues and provide that independent 
scientific judgment to the government. Historically, this independent 
expertise was developed through the design, engineering, production, 
and maintenance of separate systems that made up the U.S. nuclear 
stockpile. Each Laboratory has its own process, culture, and 
organization for addressing stockpile challenges. These dissimilarities 
led to truly independent scientific approaches and continue to provide 
critical ``checks and balances'' in the process of maintaining the 
nation's stockpile. The cooperative competition between LANL and LLNL 
has yielded different approaches that gave us different weapons, new 
technologies, and solutions to difficult challenges. Examples of these 
are the modern, nuclear-safe, small weapon architectures; insensitive 
high explosives; fire safe designs and materials, and modern security 
features including active protection systems and permissive action 
links. The two laboratories have developed different specializations, 
resulting in unexpected discoveries, faster troubleshooting of 
problems, and cost savings.
    Today's system of peer review proceeds at several levels.

        <bullet>  Each Laboratory retains responsibility for part of 
        the overall stockpile: LANL has responsibility for the B61, 
        W76, W78, and W88. LLNL has responsibility for the W62, W80, 
        B83, W84, and W87. During the Annual Assessment process each 
        Laboratory does extensive experiments, evaluations, and 
        calculation of the systems for which it is responsible. Within 
        each Laboratory, ``red teams'' review the results of this 
        analysis and provide comments to the Director. The other 
        Laboratory also provides comments based on its expertise, but 
        generally a Laboratory without primary responsibility does not 
        provide any significant calculations, experiments, or 
        evaluations to the other Laboratory. Based on the work done by 
        his own Laboratory and the comments from the ``red team'' and 
        the other Laboratory, the responsible Laboratory Director 
        provides his annual assessment.

        <bullet>  Frequently, when there is a particularly complicated 
        or important Significant Finding or manufacturing issue, both 
        Laboratories provide independent assessments based on extensive 
        analysis, experimentation, and calculations. For example, 
        assessment of the aging effects in plutonium received this 
        level of peer review.

        <bullet>  Sometimes both Laboratories do extensive analysis, 
        experimentation, calculations, and evaluations of an entire 
        system and provide independent input to the government. The W76 
        Dual Revalidation and the competition for the Reliable 
        Replacement Warhead proceeded along this line.

    The current Annual Assessment process could be significantly 
strengthened by requiring that each Laboratory do an extensive 
evaluation--including independent calculations and experiments--of the 
entire U.S. nuclear stockpile. Each Laboratory's stockpile evaluation 
would be provided to the responsible Laboratory Director for inclusion 
in his annual assessment of the systems for which he is responsible. I 
believe that adding this more comprehensive peer review process is the 
single most important action that we could take to improve confidence 
in the nuclear deterrent in the absence of nuclear testing. [See page 
33.]
    Dr. Anastasio. The ability of the United States to sustain a safe, 
secure and reliable stockpile in the absence of testing rests on the 
ability of the 2 physics laboratories--Los Alamos and Lawrence 
Livermore--to carry out a comprehensive suite of experimental, 
analytical and computational activities that provide data needed by 
scientists and engineers to determine the overall health of the 
stockpile. These judgments however must be subject to a robust peer 
review process. The challenge will be to conduct technically credible 
inter-laboratory peer review.
    The experimental, computational and analytical tools that have 
evolved with the maturation of the Stockpile Stewardship Program are 
the same tools that are essential to the future conduct of technically 
credible inter-laboratory peer review. Simple reviews of data, 
technical reports and subject matter expert analyses do not constitute 
the type of inter-laboratory peer review that is needed to sustain 
confidence in the stockpile in the future. A Laboratory conducting peer 
review must be able to conduct its own experiments, simulate nuclear 
processes using its own codes and models and complete its own analysis 
of the results unconstrained by the perspectives of the other 
Laboratory. This will not be easy nor inexpensive, but I believe it is 
the prudent course for the Nation.
    NNSA's proposal to transform the complex has 4 fundamental 
objectives: Advance the science and technology base that is the 
cornerstone for long-term national security--nuclear deterrent, 
nonproliferation, counter terrorism and energy; transform the nuclear 
deterrent-smaller, safer, more secure, reliable without underground 
nuclear testing; transform to a modernized, cost-effective Complex; and 
create an integrated, interdependent enterprise that employs best 
business practices to maximize efficiency and minimize costs. NNSA's 
proposal creates several centers of excellence that directly impact on 
the ability of the two physics laboratories to carry out their 
challenging peer review functions. Specifically, both Los Alamos and 
Lawrence Livermore are designated as centers of Excellence for Nuclear 
Design and Engineering; and Supercomputing.
    This consolidation must be accomplished carefully and thoughtfully 
to avoid unacceptable risk to the Stockpile Stewardship Program and, 
derivatively, the ability of the Laboratories to conduct technically 
credible inter-laboratory peer review.
    It is critical that the current and anticipated tools of stockpile 
stewardship are available to both Laboratories to enable inter-
laboratory peer review. These tools include the Dual Axis Radiographic 
Hydrodynamic Test (DARHT) Facility, the National Ignition Facility 
(NIF), the Chemistry and Metallurgy Research Replacement (CMRR) 
project, Los Alamos Neutron Science Center (LANSCE), the Los Alamos 
Plutonium Facility, the Weapons Engineering Tritium Facility (WETF), 
supercomputing capabilities (Blue Gene and Road Runner) commensurate 
with the scale of issues that will have to be addressed and the many 
smaller but no less important experimental and analytical capabilities 
at the Laboratories. And, above all else, motivated scientists and 
engineers will have to be recruited, trained and given challenging, 
meaningful work to preserve our ability to conduct technically credible 
inter-laboratory peer review.
    Finally, a new approach to inter-laboratory peer review is needed. 
Director Miller and I agree that each Laboratory must provide the 
necessary teclmical transparency that would enable continuous inter-
laboratory peer review of each nuclear warhead. This fundamentally 
alters the classic inter-laboratory peer review process, which was 
executed to assess discrete events or decisions. Implementation of such 
an approach will require leadership, additional resources and careful 
management, and is essential to sustain our long term confidence in the 
United States' nuclear deterrent. [See page 33.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SPRATT

    Mr. D'Agostino. Currently, there are eight facilities within the 
list of 600 Assets which are considered process contaminated and have 
been proposed for transfer to DOE Environmental Management (EM). The 
eight facilities are located at the Y-12 National Security Complex and 
some of them are still operational. Six of the eight facilities have 
been proposed for transfer within the next five years while the 
remaining two are available for transfer after 2014.
    There are approximately six to eight additional operating 
facilities in the list of 600 Assets that are potentially process 
contaminated. As the plans for transformation of the complex mature and 
the facilities declared excess become more defined, the facilities will 
be characterized to determine contamination and scheduled for 
disposition. [See page 19.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 17, 2008

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. Why did NNSA reject the concept of a Consolidated 
Nuclear Production Center (CNPC), such as proposed in the 2005 SEAB 
report? If funding were not a limiting factor, would that be the 
preferred option?
    Mr. D'Agostino. NNSA did not select a Consolidated Nuclear 
Production Center (CNPC) because extensive internal and independent 
analyses indicated the concept of a CNPC as proposed in the 2005 
Secretary of Energy Advisory Board (SEAB) report was both a higher cost 
and higher risk approach. The SEAB task force underestimated three 
important factors: (1) the cost of replacement facilities at a new 
site, (2) the value of infrastructure at existing sites that would have 
to be replicated at a new site, and (3) the cost of transitioning 
operations to a new site (e.g., workforce development at new site). 
Business case analyses indicated there would be no positive lifecycle 
cost return on investment before 2060. While near-term budgets would 
have been a challenge, the lack of a lifecycle cost advantage means 
that a CNPC would not be our preferred option even if funding were not 
a limiting factor.
    The Department of Defense, Office of the Secretary of Defense, Cost 
Analysis Improvement Group reported to me in a January 10, 2008 memo 
that a ``Consolidated Nuclear Production Center (CNPC) proposal is less 
cost effective than modernizing the existing nuclear weapon production 
facilities.'' This is consistent with all our analyses of a CNPC. While 
many individual facilities require modernization, the net present value 
of existing buildings and structures at our eight sites is still 
measured in tens of billions of dollars and thus modernization is the 
preferred alternative.
    Ms. Tauscher. Has the National Nuclear Security Administration 
(NNSA) resolved concerns over the seismic safety of the proposed 
Chemistry and Metallurgy Research Replacement (CMRR) facility?
    Mr. D'Agostino. Yes. The CMRR design conforms to rigorous modern 
seismic design requirements for nuclear facilities and its site is 
fully characterized. The seismic design approach was reviewed and 
endorsed by external reviewers, including the Defense Nuclear 
Facilities Safety Board. The CMRR seismic design requirement derives 
from the recently completed probabilistic ground motion studies 
(approximately 2 years ago); resulting in setting the CMRR peak 
vertical acceleration at 0.52 g (1 g is the acceleration of gravity on 
the surface of the earth, which is approximately 9.8 meters per second 
per second). This value is higher than the prior acceleration value of 
0.31 g used as the site-wide design parameter. The value was updated 
based on recent geological information that reveals that the Los Alamos 
area had been subjected to larger earthquakes in the distant past than 
had been previously understood.
    The CMRR facility is designed to withstand earthquakes. This is a 
significant improvement compared to the existing CMR structure. CMR was 
designed to the building code in effect in the late 1940's before the 
current rigorous requirements for the design and construction of 
nuclear facilities existed and before the seismicity in the area was 
understood. In particular, CMR is built atop a seismic fault that was 
not discovered until well after the building was erected. Seismic 
engineers have reached a consensus opinion that CMR would not withstand 
severe but plausible earthquakes. For this and other safety reasons, 
NNSA has concluded that CMR can not be relied upon as a long-term asset 
in the Complex.
    Ms. Tauscher. Some have asserted that the CMRR is essentially a 
plutonium pit production facility. Please explain to the subcommittee 
the stockpile stewardship activities that will be housed in the CMRR, 
and their relationship, if any, to pit production. Please also 
describe, for each activity, the analysis conducted that led the NNSA 
to conclude that performing that activity in the CMRR--rather than in 
any other existing or planned NNSA facility--was the most cost-
effective alternative.
    Mr. D'Agostino. The Chemical and Metallurgical Research Replacement 
(CMRR) is a support facility for a number of programs requiring 
analytical chemistry support. Currently, these capabilities are 
performed in a 60 year old building that has numerous safety issues and 
needs to be replaced. CMRR is not a plutonium pit production or 
manufacturing facility. Pit manufacturing is conducted and will 
continue to be conducted in the Technical Area 55 Plutonium Facility 
(TA-55/PF-4).
    The following Stockpile Stewardship activities may or will be 
supported by the CMRR-Nuclear Facility analytical chemistry and 
material characterization activities:

        <all> Directed Stockpile Work (DSW):
                --Pit Surveillance
                -- Milliwatt Radioactive Generators Surveillance
                --Special Recovery Line
                -- Plutonium Measurements for Above Ground Experiments
                --Subcritical Experiments
                --Pit Manufacturing

        <all> Campaigns:
                --Material Readiness
                --Enhanced Surveillance
                --Primary Certification
                --Dynamic Materials Properties
                --Advanced Radiography
                -- Certification in Hostile Environments

        <all>  Readiness in Technical Base and Facilities:
                -- Materials Recycle and Recovery

    In addition, the facility will have the capability to provide 
analytical chemistry and material characterization support to other 
national security programs, including:

                --Pit Disassembly and Conversion
                --Arms Control and Nonproliferation
                --Nuclear Materials Stewardship
                --Nuclear Materials Stabilization
                --Advanced Fuels
                -- Waste Isolation Pilot Project Characterization Work

    The CMRR-Nuclear Facility will also provide nuclear materials 
storage in support of all programs.
    The major analytical chemistry and materials characterization 
processes housed in the CMRR-Nuclear facility and supporting all 
programs are:

                -- Assay Measurements
                -- Isotropic Mass Spectrometry
                --Trace Element Analysis
                --X-Ray Fluorescence and X-Ray Diffraction
                --Radiochemistry
                -- Analytical Chemistry
                -- Materials Characterization
                -- Sample Management
                --Standards and Quality Control
                --Waste Accountability and Handling

    Pit production uses all the processes above except x-ray 
diffraction and waste accountability and handling.
    The analysis and rationale for performing activities in CMRR is 
that no other adequate facility exists at Los Alamos, with the 
exception of TA-55/PF-4 which does not have sufficient floor space nor 
the facility infrastructure, to provide the large and varied amount of 
chemical activities required to support the myriad programs listed 
above. The current Chemical and Metallurgical Research (CMR) facility 
is an aging facility with operational, seismic, and safety issues which 
make it cost prohibitive to upgrade to required safety standards. 
Therefore, building a new CMRR facility was found to be the most cost-
effective alternative. A decision to not build CMRR will require 
contingency plans to relocate workloads. This may cause delays in other 
areas of Complex Transformation.
    Ms. Tauscher. NNSA has stated a requirement to produce 50 to 80 
pits per year. Can you explain the rationale for this requirement, and 
the relationship between the sizing of the CMRR facility and the 
planned pit production rate?
    Mr. D'Agostino. The requirement comes from the Department of 
Defense, not the NNSA. A key factor in a responsive nuclear 
infrastructure is the rate at which it can refurbish existing warheads 
or produce replacement warheads. Currently, the production of plutonium 
pits is the most constraining limitation on capacity. Needed pit 
production capacity will depend on stockpile size and composition, 
performance margins of warhead types comprising that stockpile, and the 
viability of pit reuse options. Uncertainties in each of these factors 
make it difficult to assess definitively future required pit production 
capacity. Currently, we have a very small sustainable production 
capacity at the Los Alamos Technical Area 55 (TA-55) facility as 
supported by the current Chemical and Metallurgical Research (CMR) 
facility, which could be as much as 10 pits per year (ppy) if CMR 
operates as desired or as little as zero if CMR is unavailable for a 
protracted duration. A rate of 10 ppy, we believe, is insufficient to 
support the stockpile for the long term for several reasons:

        -- Our best estimate of minimum pit lifetime is 85-100 years. 
        While this exceeds previous estimates, degradation from 
        plutonium aging still introduces uncertainty in overall system 
        performance, particularly for lower margin systems. As the 
        stockpile continues to age, we must plan to replace 
        considerable numbers of pits in currently stockpiled weapons.

        -- If a future decision is made to field replacement warheads, 
        we will require expanded pit production capacity to introduce 
        sufficient numbers of warheads into the stockpile.

        -- At significantly smaller stockpiles than today, we must 
        anticipate that an adverse change in the geopolitical threat 
        environment or a technical problem in the stockpile could 
        require manufacture of additional warheads on a relatively 
        short timescale.

    A variety of future pit production alternatives have been evaluated 
as part of the planning for transforming the nuclear weapons complex 
infrastructure. The best economic and technical alternative is to 
retain and build on the existing production facilities at Los Alamos. 
In light of the uncertainties, the NNSA program, recognizing the range 
of potential stockpile requirements and differences in pit types, is 
planning on achieving a production capacity of about 50-80 pits per 
year by 2017. This capacity has the potential to support smaller 
stockpile sizes than today, particularly if coupled with potential 
reuse of pits.
    In addition to providing required analytical chemistry support to 
numerous other programs, the Chemical and Metallurgical Research 
Replacement (CMRR) facility will provide required analytical chemistry 
and metallurgical support capacity to enable the manufacture of pits. 
Additional analytical chemistry and metallurgical support for 50-80 
pits per year would come from multiple shifts or selected operations 
being supported out of the TA-55 plutonium facility (PF-4). No pit 
manufacturing would take place in the CMRR-Nuclear Facility. Actual pit 
manufacturing would be accomplished within the current TA-55/PF-4 
plutonium facility through the addition of equipment, restructuring of 
the manufacturing flow, and displacement of some other non-pit 
programs.
    Ms. Tauscher. Why does the NNSA need an in-house non-nuclear 
manufacturing capability such as the Kansas City Plant? Could such 
components be acquired via commercial outlets?
    Mr. D'Agostino. The Kansas City Plant (KCP) manufactures or 
procures through outsourcing approximately 85% of the parts for modern 
nuclear weapons. As part of transformation of non-nuclear production at 
KCP, we are already planning to increase outsourcing to commercial 
outlets from currently less than 50% of components to over 65% of 
components. However, there are two reasons why we must maintain a 
limited in-house manufacturing capability such as KCP. First, KCP 
produces highly classified use-control components for nuclear weapons. 
As such, access to information on these parts must be controlled to a 
limited number of people with appropriate security clearances. Second, 
the quantity of parts produced are so low and the quality 
specifications so rigorous that commercial outlets are not interested 
in producing some of these parts at a price comparable with that of 
KCP. KCP continuously looks at make-buy options for components to get 
the best value for NNSA.
    Ms. Tauscher. What benefits to the Stockpile Stewardship Program 
can you discern as a result of the recent competitions for the 
management and operations contracts at Los Alamos and Lawrence 
Livermore National Labs?
    Mr. D'Agostino. As you are aware the previous contracts were in 
existence for a very long time at these two national laboratories. When 
we embarked on the recent competitions for new management and 
operations (M&O) contractors, we fully understood there would be a 
period of transition. During that period we expected some extra effort 
would be required by the new contractors to establish a new culture at 
these laboratories and clearly there would be some issues that had not 
been anticipated. At this point in the contract transition, we have 
seen clear signs of a refocus by the laboratories in those areas that 
are also consistent with our Complex Transformation. For example, 
Livermore has put forth considerable effort to meet the Secretary's 
challenge to accelerate the consolidation and removal of Special 
Nuclear Materials. In addition, the new M&O contractors at Los Alamos 
and Livermore have:

        <bullet>  Focused on identifying infrastructure savings through 
        footprint reductions, replacement of buildings that are long 
        past their economic lifetime and updated cost-sharing models 
        for ``work-for-others'' customers; assurance processes and 
        commodity purchase savings through a supply chain management 
        center; and

        <bullet>  Reduced staff supporting weapons activities through 
        attrition and reassignment to other national security missions, 
        while maintaining proper expertise to fully support on-going 
        stockpile missions.

    We expect continued performance improvements as the new contractors 
mature. There have been some challenges at each site and we are working 
with the M&O to work through these to everyone's benefit.
    Ms. Tauscher. Please comment on any cost or cost-benefit analyses 
completed by NNSA on its preferred alternative and any other complex 
modernization alternatives given consideration.
    Mr. D'Agostino. The NNSA has diligently worked over the past two 
years performing technical reviews and business case analyses (BCAs) of 
transformation alternatives, including the preferred alternative in the 
Complex Transformation Supplemental Programmatic Environmental Impact 
Statement (SPEIS). For each major modernization alternative, an 
internal Integrated Project Team (IPT) was established to perform a 
business case analysis. Typically, this work proceeded in parallel with 
an evaluation by an independent (non-NNSA) review team. These business 
case analyses covered costs, closure costs, life cycle costs of 
alternatives, cash flow analyses, risks, and benefits of each major 
alternative. The preferred alternative in the draft SPEIS was typically 
the lowest cost and lowest risk option that meets mission needs based 
on both our internal and independent business case analyses.
    The business case analyses supporting selection of the preferred 
alternatives in the Complex Transformation SPEIS were made available 
for public review on the web at http://
www.complextransformationspeis.com/links_ref_pdfs.html in January 2008. 
Hard copies of the business case analyses are also available to the 
public upon request. We are continuing to update our business case 
analyses as we prepare for release of the Final Complex Transformation 
SPEIS. We plan to make these latter analyses available to the public as 
well.
    In addition to the preferred alternatives for restructuring of 
special nuclear material and research and development facilities 
covered in the SPEIS, NNSA is pursuing modernization of non-nuclear 
production at the Kansas City Plant. An environmental assessment and 
business case analysis has also been completed to support this proposed 
action.
    Ms. Tauscher. Does the NNSA see opportunity costs, or risks of 
incurring greater future costs, by deferring infrastructure decisions 
to a later date?
    Mr. D'Agostino. NNSA does see higher risks of incurring greater 
future costs if infrastructure decisions are deferred to a later date. 
This particularly applies to major plutonium (e.g., Chemistry and 
Metallurgy Research Replacement (CMRR) facility at Los Alamos) and 
uranium (e.g., Uranium Processing Facility (UPF) at Y-12) facilities. 
Several existing nuclear facilities that support uranium and plutonium 
research and manufacturing operations are very old (greater than 50 
years) and cannot cost-effectively meet current facility safety and 
security standards. By deferring construction of modernized replacement 
facilities, mitigating actions such as expensive interim facility 
upgrades will need to be taken.
    The added costs of delay result from the cost of mitigating 
actions; costs of continuing to operate old, inefficient facilities; 
construction costs for replacement facilities that have been going up 
at a faster rate than core inflation; and finally the potential impacts 
of delayed deliverables to the nuclear stockpile resulting from the 
higher rate of work stoppages in facilities being operated well beyond 
their economic lifetime. We have estimates of many of these costs in 
various business case analyses undertaken as part of the Transformation 
planning process. The business case analyses can be found on the 
internet at http://www.complextransformationspeis.com/
links_ref_pdfs.html.
    Ms. Tauscher. How does NNSA's preferred alternative, which is 
heavily focused on consolidation and increased efficiency, address the 
military requirement for a more responsive infrastructure and a more 
reliable safe and secure weapons capability?
    Mr. D'Agostino. A guiding principle for NNSA's preferred 
alternative for Complex Transformation is to achieve more responsive 
capabilities in key research, design, development, production, and 
testing areas essential for more reliable and secure weapons. One 
challenge we face today is that overhead and support costs are 
consuming an increasing fraction of our budgets. Thus, we do want to 
increase efficiency and consolidate old and outdated facilities in 
order to maximize the percentage of our budget that can be devoted to 
direct national security mission work in a more responsive 
infrastructure.
    Ms. Tauscher. What role will advanced simulations and computing at 
Livermore play in the Stockpile Stewardship Program as the complex is 
transformed?
    Dr. Miller. Recognizing the advancements in computing pioneered by 
LLNL in support of the Stockpile Stewardship Program, NNSA is proposing 
LLNL as a center of excellence in computing as an essential component 
of its transformation plan. LLNL will serve as the host site for the 
ASC Sequoia system which will perform complex 3D calculations to 
explore and resolve weapons physics questions related to performance 
and safety that are currently incompletely understood. This knowledge 
is necessary to improve codes critical to maintain confidence in 
stockpile reliability, safety, and security. In addition, Sequoia's 
petascale computational capability will be required to run large suites 
of 3D simulations to quantify the level of confidence in the prediction 
of weapon performance. Sequoia's capability, combined with LLNL's best-
in-class weapons codes, will then be used to examine technical options 
both to maintain the stockpile and to improve the security and safety 
features to meet today's safety standards and threat environment.
    Advanced computational capability becomes increasingly important as 
the U.S. stockpile continues to age beyond the nuclear test base. 
Current codes calibrated to the nuclear test base are becoming 
increasingly suspect in describing the performance of the stockpile as 
it exists today. New, more fundamentally accurate and predictive 
physics and materials models are consequently needed and are being 
added to LLNL (and LANL) weapons codes--for instance, the NNSA boost 
initiative is part of this effort. Boost is the most significant 
remaining incompletely understood weapons performance process. This 
lack of understanding inhibits the nation's ability to incorporate 
improved safety and security features into the stockpile. Sequoia will 
be employed to improve the understanding of this fusion ignition 
process and to develop better predictive models. These improved, more 
complex models will require increased computing capability, in 
particular for running large suites of calculations to quantify the 
uncertainty in the predictions of performance. Additional computational 
challenges will emanate from the potential inclusion of enhanced 
warhead safety and security features in future Life Extension Programs 
to protect against accidents and unauthorized use in a changing 
worldwide threat environment. It is the case that LLNL is particularly 
well suited to address these challenges, which combine to require far 
faster computers and more advanced design codes. LLNL has a stellar 
track record in developing and employing reliable, production-computing 
systems with world-class user support. LLNL has successfully sited 
three generations of such systems, all of which have outperformed 
original expectations. This operational advantage, combined with 
continuously improving LLNL design codes, permit LLNL to bring a unique 
capability to the nation.
    In NNSA's transformed complex, LLNL will provide highly reliable 
tri-Laboratory access to Sequoia, just as it has with the previous 
machines sited at LLNL, in particular ASC Purple and White. Tri-
Laboratory usage of LLNL-hosted computational machines has enabled 
continued work on the W76 LEP, B61, B83, W87, W80 (as well as RRW in 
the past), Significant Finding Investigation (SFI) resolution, and 
support for experiments on Z, NIF, and DARHT. Purple utilization and 
availability rates have set a standard for the DOE. In providing this 
tri-Laboratory support, approximately 2/3 of the cycles on LLNL's 
Purple machine have been accrued by teams from the New Mexico Labs and 
similar usage rates are expected on Sequoia.
    LLNL's simulation capability will also be available to meet other 
national priorities as directed by NNSA. For example, modernizing and 
sizing the NNSA production complex for future needs will require the 
development and implementation of new manufacturing processes, the 
elimination of some legacy materials, and the inclusion of new 
materials. LLNL, using its advanced codes and computers, will develop 
innovative technologies and determine if these technologies can be 
safely and reliably implemented in the stockpile through rigorous 
application of Quantification of Margins and Uncertainties (QMU). 
Beyond this, NNSA computational capabilities contribute to programs in 
nuclear attribution, nuclear forensics, and weapon outputs and effects. 
LLNL's continued leadership in ASC will meet the mounting challenges of 
maintaining an aging stockpile was well as addressing broader 21st 
century national security issues.
    Ms. Tauscher. Could Category I and II Special Nuclear Materials 
(SNM) be removed sooner than 2012 from LLNL? Why or why not?
    Dr. Miller. LLNL has examined options for completing the de-
inventory of Security Category I/II SNM from LLNL sooner than 2012. 
However, since the rate of de-inventory activities under the current 
plan will utilize the full capacity of all available processing 
equipment, further acceleration is not possible. Additional processing 
capabilities over those currently available or planned would be 
required to further accelerate the schedule. Due to the time required 
to procure, assemble, install, commission, and initiate operation, any 
such additional capabilities would not be available until after over 
95% of the material is already processed, which precludes the 
opportunity to substantially impact the de-inventory schedule.
    The current plan ensures the safe and secure removal of all 
Security Category I/II SNM from LLNL by FY2012. It represents a two-
year acceleration from the original plan, which set the completion date 
in 2014. The timeframe for the safe and secure removal of SNM is 
dictated by several factors governing the requirements for the 
appropriate processing, packaging, and shipment of the material, 
including (a) regulatory, safety, and security requirements for 
packaging, shipping, and safety management; (b) applicable Code of 
Federal Regulations; (c) DOE orders, standards, and manuals; (d) 
receiver site processing and storage requirements; and (e) DOE Model 
9975 shipping package Certificate of Compliance requirement; as well as 
(f) the physical processes associated with safe and secure packaging of 
the material. Figure 1 indicates the rate at which SNM can be processed 
and made available for safe shipment to its end location, i.e., 
Savannah River Site (SRS).

[GRAPHIC] [TIFF OMITTED] T5134.133


Figure 1: Percentage of SNM packages complete and ready for shipment to 
                                  SRS.

    About 33% of the material has already been removed. Under the 
current plan, additional processing equipment is scheduled to be 
installed in the first six months of FY2009. This additional equipment 
enables 90% of the material to be removed in two years (December 2010). 
Because of the difficult nature of a small part of the inventory, it 
will take nearly two additional years to process the remaining 10% to 
meet shipping and receiver site requirements.
    Ms. Tauscher. Why did LLNL seek a waiver from responsibility for 
meeting the 2005 Design Basis Threat (DBT) security standards?
    Dr. Miller. LLNL did not request a waiver from responsibility for 
meeting the 2005 Design Basis Threat (DBT) security standards. LLNL 
received direction from NNSA's Livermore Site Office in November 2007 
to suspend expenditure of funds to meet the 2005 DBT following NNSA's 
designation of LLNL as a ``non-enduring'' site for Security Category I/
II Special Nuclear Materials.
    The NNSA Livermore Site Office Manager, Camille Yuan-Soo Hoo, 
issued a memorandum to George H. Miller, President, Lawrence Livermore 
National Security, LLC on November 7, 2007, informing him that based on 
NNSA's decision to de-inventory the Category I/II facilities at LLNL, 
he should not expend any funding to implement the 2005 DBT plan.
    Ms. Tauscher. What impacts will the closure of Site 300 have on 
LLNL stockpile stewardship activities?
    Dr. Miller. Site 300 has several capabilities that are routinely 
used to support stockpile stewardship and support U.S. counterterrorism 
efforts. These include:

        <bullet>  The Contained Firing Facility (CFF): a 55,000-square-
        foot building that houses a containment chamber in which high 
        explosives are detonated and associated state-of-the-art 
        diagnostics, including radiography. This facility provides 
        experimental data relevant to high explosives and weapons 
        performance.

        <bullet>  High-explosives storage, machining, inspection, and 
        waste treatment facilities: these facilities provide the safe 
        and secure infrastructure to conduct high-explosive related 
        stockpile stewardship and advanced conventional munitions 
        development for national security missions.

    These capabilities have enabled the life extension of the W87 and 
W76 weapons as well as critical assessments of the aging stockpile. In 
addition, LLNL has successfully conducted experiments to assess methods 
for safe multi-unit processing at Pantex. This has helped Pantex 
increase its dismantlement throughput in recent years.
    In addition to supporting CFF, the high-explosives storage, 
machining, inspection, and waste treatment facilities are essential to 
the operation of the High Explosives Applications Facility (HEAF) on 
the LLNL main site. As a center of excellence, HEAF provides critical 
support to the stockpile assessment and certification program, and it 
has enabled LLNL to develop new innovative conventional munitions for 
the U.S. armed forces.
    Termination of NNSA's programmatic activities at Site 300 would 
force the shutdown of the CFF and associated high-explosives 
facilities. LLNL's high explosives R&D activities would require a 
replacement facility, the HEAF annex, to be built on LLNL's main site 
to provide the machining and inspection capabilities necessary to 
support mission responsibilities at LLNL. Additionally, a new site 
would have to be found for high explosives storage and waste treatment. 
Initial analysis indicates that establishing an alternate high-
explosives waste stream is risky and likely infeasible. Without these 
Site 300 replacement capabilities, LLNL's on-site high explosives R&D 
would have to be terminated, jeopardizing LLNL's stockpile stewardship 
responsibilities. High explosives expertise and capabilities are an 
essential component of fulfilling the role of a nuclear design 
laboratory.
    NNSA's initial complex transformation plans called for all 
hydrodynamic experiments to be conducted at LANL's DARHT Facility. 
While the DARHT Facility has the forefront radiography capability, it 
is not equipped with a large-scale high explosives containment 
facility; rather, it uses smaller containment vessels. The technical 
approaches taken by the two nuclear design Laboratories at CFF and 
DARHT are unique and complementary. While DARHT can perform many of the 
experiments conducted at CFF, it cannot address all requirements for 
tests.
    The closure of Site 300 and CFF would result in the forfeiture of 
the capabilities that have been essential to assessing the enduring 
stockpile. In particular, NNSA would no longer be able to execute 
experiments for all of the enduring stockpile systems that have a 
particularly large high explosive load. DARHT's containment vessels are 
too small to contain all explosive loads. Neither LLNL nor LANL would 
have the capability to execute experiments to address SFIs that arise 
on warheads in this class. The use of containment vessels also limit 
the types of data that can be obtained. There is also one class of 
experiment, pertinent to all enduring systems, that could not be 
conducted on DARHT. Historically, these experiments have been essential 
to stockpile assessments. There is a high probability this class of 
data will be required in the future but will not be available if CFF 
closes with Site 300.
    Beyond Stockpile Stewardship, the potential closure of Site 300 
would impact LLNL and the nation's capability to do forensic analysis 
of radiological, chemical, and explosives samples, as Site 300 is one 
of two facilities in the nation capable of receiving large quantities 
of, or large items contaminated with, these materials for analysis.
    Ms. Tauscher. What Stockpile Stewardship activities are directly 
supported by the Chemistry and Metallurgy Research (CMR) building at 
Los Alamos?
    Dr. Anastasio. Essentially all stockpile stewardship programs that 
use plutonium or other actinides have used, and continue to require, 
scientific capabilities provided by the CMR facility. CMR provides 
analytical chemistry for purposes of characterizing material for 
programmatic work as well as basic analytical measurements to support 
material control and accountability and other activities needed to 
ensure safe and secure plutonium building operations. Some specific 
Stockpile Stewardship programs drawing on capabilities in CMR are: 
stockpile surveillance, manufacturing, annual certification, enhanced 
surveillance, dynamic materials research, pit disassembly & conversion, 
and test readiness. CMR also supports a broad range of national 
security programs including: power source technology for space and 
terrestrial applications, nuclear fuels research and development, 
nuclear non-proliferation, nuclear forensics and nuclear materials 
stabilization.
    The balance of workload among the different program elements that 
use the capabilities in CMR will vary from year to year depending on 
the details of program plans.
    Ms. Tauscher. How old are the lab facilities in the existing 
Chemistry and Metallurgy Research (CMR) Facility? What is the remaining 
useful life of these labs?
    Dr. Anastasio. The CMR facility began nuclear operations in 1952 
and has been operating for 56 years. Maintaining the viability of the 
aging CMR laboratories to maintain the capabilities it provides is an 
increasingly challenging activity. Significant investments were made a 
decade ago in facility upgrades and there have been, and remain, 
ongoing efforts in hazard reduction and maintenance, prioritized by 
urgency and need. For example we have recently performed fire door 
replacement and sprinkler head replacement. That said, the margin 
against failure is not large in this aging facility. To preempt 
projected failures, we anticipate performing activities including 
ventilation (HVAC) refurbishment, transformer refurbishment, and fire 
suppression upgrades in the near future. The current Basis for Interim 
Operations expires at the end of 2010, but a new Authorization Basis 
approval is currently being pursued.
    Ms. Tauscher. If and when the CMR building is deemed unsafe for 
work, where would the stewardship activities currently carried out in 
CMR be conducted?
    Dr. Anastasio. It is important to recognize that the CMR building's 
capabilities support more than the stockpile stewardship program. If 
the CMR building were declared unsafe for work today or in the near 
future (i.e., before the CMRR nuclear facility is available), there is 
no alternative path for the full suite of capabilities and the 
activities they support. Some operations could be conducted in other 
nuclear facility locations (e.g. PF-4 at TA-55) with significant costs 
and up to years of time required for renovation and retrofit, 
potentially displacing other operations or requiring compromise in 
capabilities available for program support. Since appropriate nuclear 
facility space is limited and in significant demand, this would lead to 
considerable impacts to national security programs that would have to 
be negotiated.
    The current plan is to: a) reduce the operational risk in CMR by 
removing material, consolidating operations inside CMR and moving some 
activities into both PF-4 and the CMRR radiological laboratory as 
appropriate and achievable; b) perform a limited set of activities in 
CMR to maintain the viability of its capabilities until the CMRR 
nuclear facility is available and; c) eventually transfer remaining 
operations to the CMRR nuclear facility. The proactive approach being 
pursued with the CMR facility is to allow the facility to be operated 
safely until the CMRR nuclear facility is available.
    Ms. Tauscher. As construction of the high profile experimental 
machines to support stockpile stewardship is completed, such as NIF and 
DARHT, what do the NNSA and Congress need to do to ensure the Stockpile 
Stewardship Program is robust in the coming decades?
    Dr. Anastasio. The success of stewardship to date has been based 
on: (1) a sense of national commitment to the nuclear deterrent and the 
Stockpile Stewardship program; (2) sustained investments in leading 
edge experimental capabilities, modeling and simulation, and 
computational platforms needed by scientists and engineers to 
understand the physics of nuclear performance; and (3) meaningful work 
to challenge the workforce across the Laboratories and the complex.
    The next Administration and Congress must restore the bipartisan 
consensus that existed on nuclear deterrence policy for the United 
States during the latter half of the 20th century. Without such 
consensus, U.S. allies and friends will increasingly question our 
Nation's commitment to security assurances, which could lead to actions 
to ensure their own security situation including exploration of nuclear 
options. Such a shift could also lead to questions regarding their 
long-term relationship with the United States. Further, our 
adversaries, including rogue states, could become emboldened to take 
actions counter to U.S. security interests.
    The next administration and Congress must also reach a consensus on 
an investment strategy to support the nuclear weapons complex and allow 
it to support whatever stockpile the Nation decides it needs for the 
21st Century. The budget uncertainties of the last several years have 
created much doubt and uncertainty in the workforce of the weapons 
labs, making it difficult for us to retain staff. Over the last several 
years more than 2000 employees have left Los Alamos through a 
combination of attrition, voluntary separation and reductions in the 
contractor workforce. It has also greatly complicated our ability to 
recruit the next generation of scientists and engineers.
    The Laboratory's role is to anticipate, innovate, and deliver 
leading-edge science and technology to meet a broad range of national 
security challenges. These challenges include maintaining the 
effectiveness of the nation's nuclear deterrent, supporting the 
nation's nonproliferation and threat reduction priorities, and 
addressing emerging national security issues--including energy 
security--with urgency and agility. Leveraging our capabilities with 
such broader national security missions will help sustain the leading 
edge capabilities that the weapons program will draw upon as needed. A 
strong basic research capability that interweaves the multidisciplinary 
talents of Laboratory scientists and our unique facilities is also 
essential to this mission. For Los Alamos, there are several key 
initiatives including Chemistry and Metallurgy Research Replacement 
(CMRR) project, Los Alamos Neutron Science Center (LANSCE)-R and 
Matter-Radiation Interactions in Extremes (MaRIE) that will ensure the 
continued scientific and technical excellence of the laboratory for 
decades to come. LANSCE-R is a compilation of facility and 
infrastructure subprojects focused on renovating and modernizing the 
LANSCE accelerator and related systems, to ensure reliable operations 
past 2020 in support of national security activities. MaRIE, though 
still pre-conceptual, will allow scientists and engineers to better 
understand properties of materials in extreme conditions, crucial to 
predicting their performance in applications and developing new 
materials and products to address national security challenges. CMRR 
will provide the nation with a state of the art facility for: nuclear 
fuels research and development, stockpile maintenance and manufacturing 
support, nonproliferation/threat reduction activities, and nuclear 
forensics.
    Ms. Tauscher. If the CMRR facility is not built, what specific 
stockpile stewardship program activities are at risk of interruption?
    Dr. Anastasio. CMRR will support a broad range of national security 
carried out by LANL. All stockpile stewardship programs that use 
plutonium or other actinides are at risk of interruption without 
continuous support for analytical chemistry, actinide R&D, materials 
characterization and vault storage. These services are planned for 
operation in the CMRR nuclear facility as Los Alamos transitions out of 
the CMR facility.
    Some Stockpile Stewardship programs supported in CMR are: stockpile 
surveillance, manufacturing, annual certification, enhanced 
surveillance, dynamic materials research, pit disassembly & conversion, 
and test readiness. Though as noted above, the balance of demand from 
different programs varies over time, capabilities needed by all these 
programs would be at risk of interruption. CMR also currently supports 
programs beyond stockpile stewardship including; power source 
technology for space and terrestrial applications, nuclear fuels 
research and development, nuclear non-proliferation, nuclear forensics 
and nuclear materials stabilization.
    Ms. Tauscher. If the CMRR facility is not built, what are the 
consequences to pit manufacturing in particular?
    Dr. Anastasio. Similar to other programs, the pit manufacturing 
program in TA-55/PF4 will rely on the CMRR nuclear facility for 
analytical chemistry, materials characterization and vault storage. The 
pit manufacturing program would be interrupted at any level of 
manufacturing without continuous support in these functional areas. 
That support is presently provided by the CMR facility and in the 
absence of CMRR, CMR would continue to serve that role.
    Ms. Tauscher. If the CMRR facility is not built, what are the 
consequences to other national security functions such as nuclear 
forensics?
    Dr. Anastasio. The Nuclear Forensics mission requires extensive 
analytical chemistry and materials characterization capabilities 
applicable to plutonium and other actinide elements in order to provide 
timely information concerning domestic and foreign nuclear materials 
and materials of unknown origin that may be obtain by U.S. Government 
agencies or other sources. Not having the analytical and material 
characterization services significantly diminishes our ability to meet 
technical and programmatic needs as those services allow us to 
ascertain processing signatures inherent to the material.
    Nuclear forensics and materials inventory programs are 
representative of the broader national security missions that can be 
supported by CMRR and associated facilities at Los Alamos. Other 
national security programs supported by these types of facilities 
include:

        <bullet>  Schools to train International Atomic Energy Agency 
        (IAEA) inspectors in order to strengthen the international 
        nonproliferation regime and meet U.S. treaty obligations;

        <bullet>  Schools to train domestic safeguards inspectors for 
        both the Department of Energy (DOE) and the Nuclear Regulatory 
        Commission (NRC);

        <bullet>  Criticality safety training to maintain U.S. 
        capability to characterize, manipulate, and ensure the safety 
        of critical and super-critical nuclear material assemblies;

        <bullet>  Training of international safeguards inspectors from 
        other countries in accordance with bilateral or multilateral 
        agreements, including training inspectors from countries such 
        as Russia, Pakistan, Brazil, and Argentina, and international 
        organizations other than the IAEA, such as EURATOM;

        <bullet>  Development of science and technology for safeguards 
        and arms controls functions;

        <bullet>  Assessment of materials and capabilities of foreign 
        states;

        <bullet>  Developments of nuclear detection technologies for 
        U.S. Government Agencies such as the Department of Defense, 
        DOE, Department of Homeland Security, and the Department of 
        Justice that are used to analyze, detect, deter, and act 
        against global nuclear and radiological threats.

    Without modern nuclear facilities the long-term viability of our 
ability to support these and related missions is very much in doubt.
    Ms. Tauscher. If the CMRR facility is not built, what plans if any 
does NNSA have to mitigate these risks?
    Dr. Anastasio. The laboratory is not aware of any NNSA plans to 
assure continuous support for programs other than the baseline plan 
described above. The present planning relies on the construction of the 
CMRR nuclear facility to replace the CMR facility. In the absence of 
the new facility, the CMR facility would have to continue operating 
indefinitely (with associated investments to extend the lifetime) or 
the nuclear operations presently in the CMR facility and planned for 
CMRR would have to be transferred into PF-4. Transferring activities 
into PF-4 is a long duration activity, displaces existing programs, 
requires considerable expense and results in compromises and impacts to 
both current capabilities and future program requirements.
    Ms. Tauscher. What are the implications of the plan to host 
supercomputing platforms at only Livermore and LANL? Do you believe 
Sandia's historic excellence in advanced computing architecture design 
will persist, in spite of the new arrangement?
    Dr. Hunter. Sandia considers supercomputing to be a vital element 
in support of all major lab programs and missions. Our world-class 
expertise in supercomputing has helped enable the stockpile stewardship 
program as well as numerous other national security applications. 
Planned changes in the nuclear weapons complex have presented 
challenges for retaining our computing expertise. In the near term, 
Sandia has developed a memorandum of understanding with LANL to partner 
in the design and operation of the Zia Computer, a next generation 
platform to be sited at LANL. Work on this machine will help maintain 
Sandia's expertise in computer architecture design while also providing 
a platform on which to run the many codes required in support of our 
missions. Sandia has also partnered to establish the Institute for 
Advanced Architectures and Algorithms with Oak Ridge National 
Laboratory. Funding and support for both of these endeavors is crucial 
for maintaining our high performance computing expertise.
    We are not yet convinced that the expertise that has provided the 
foundation for much of the nation's preeminent global position in 
computing can be maintained under these new arrangements. The Sandia/
Los Alamos partnership is not without risk to both institutions. We 
will need to demonstrate that this expertise can be maintained without 
the operation of a large capability computer platform at Sandia. 
Historically, this has not been possible. While we are somewhat 
apprehensive, we have agreed to give the new approach a chance. It will 
be essential for NNSA to execute a program strategy that supports the 
partnership with a platform procurement in fiscal year 2010 that meets 
the established requirements for maintaining and refurbishing the 
nuclear weapon stockpile.
    Ms. Tauscher. Sandia has a far higher percentage of work outside of 
NNSA Weapons Activities than either of the other two weapons labs. What 
lessons can LLNL and LANL take from Sandia as they seek to broaden 
their work scope?
    Dr. Hunter. Both LLNL and LANL successfully perform extensive 
programs outside of NNSA, and these programs are very important to our 
nation's security. We are not in a position to compare the 
effectiveness of the three laboratories, but can offer some insight 
into why Sandia has been particularly successful. First and foremost, 
we deliver for our customers. Our non-NNSA customers always have the 
option to go elsewhere if another organization can provide better 
performance or if our costs become unreasonably high. We have worked 
hard to develop a reputation among our customers as being a place that 
delivers unique technology solutions and meets our commitments. We 
carefully monitor our program performance and our customer 
satisfaction. Second, we have been working in these areas for decades 
and have always included these activities in our strategic planning. 
This is not an overnight success story. For example, we have been 
working in areas such as counterterrorism since the early 1970's, and 
as a result were well positioned to respond to the nation's needs after 
September 11, 2001. Third, in implementing our strategic planning, we 
have committed significant effort to development of capabilities and 
technical staff. Finally, we never lose the connectivity to our nuclear 
weapons program and leverage the two program areas for mutual benefit 
in enhancing our technical capabilities and keeping our staff 
energized. In this manner, we are able to deliver advanced technologies 
that are unique and at a reasonable cost.
    Ms. Tauscher. Is ``Work For Others'' a mission area the weapons 
labs should look to grow, particularly as their nuclear missions are 
consolidated?
    Dr. Hunter. Sandia views the resources of the national laboratories 
as assets to be applied to the nation's hardest national security 
problems. To the extent that our capabilities can be applied to solve 
these problems, we should do so. DOE support for national laboratories 
and their science and technology capabilities to support the broader 
national security missions of other agencies is important. However, 
these other agencies should retain full responsibility to competitively 
select and directly manage specific programs. Maintaining the direct 
relationships between the laboratories and other Work For Others 
customers is critical. With these thoughts in mind, growth of the 
programs should not be a goal in and of itself, although that may be a 
logical outcome, given the increasing diversity and complexity of 
threats to the nation. It is important to maintain the character of the 
laboratories as assets to the nation for solving our most challenging 
problems, rather than businesses with revenue targets. In many cases a 
laboratory has been most successful when it transfers a technology to 
industry for large-scale implementation, as opposed to developing an 
in-house revenue stream. That said, the problems facing the nation in 
energy, terrorism, environmental change, and various emerging global 
threats is likely to lead to growth in Work For Others programs in the 
future.
    Ms. Tauscher. What characteristics do you think are needed in the 
organizations that run the national laboratories? What is required of 
such organizations to ensure that the national interest is their 
paramount concern?
    Dr. Hunter. A contracting entity needs to understand and value the 
national laboratories' missions and unique attributes as Federally 
Funded Research and Development Centers (FFRDCs). National service, 
through implementation of the federal sponsor's mission, should be the 
primary motivation of the contracting entity, not financial interest.
    A contracting entity's role should be to support behaviors and 
processes that will facilitate the laboratory's ability to serve the 
nation and deliver with excellence. Companies or academic institutions 
contracting to operate an FFRDC should have a demonstrated commitment 
to ethical business practices and values of service that are evident in 
their record of operations. Moreover, they should share with the FFRDC 
a passion for excellence in science or engineering germane to the 
mission of the laboratory.
    The NNSA national laboratories are complex organizations. The 
operating contractor should also have a history of managing large, 
complex enterprises successfully and safely. The entity should have a 
visible record of integrity and ethics and an effective, auditable 
process for avoiding and mitigating organizational conflicts of 
interest. It should know how to provide an assurance system with robust 
internal controls for effective program execution and business 
management. The NNSA laboratories have a unique role in the independent 
annual assessment of the nuclear deterrent. It is essential that the 
leadership of these laboratories never be put in a position in which an 
unbiased, objective judgment cannot be provided. A contractor's value 
system must support providing this independent judgment without concern 
for corporate profit, contract performance, or personal gain.
    Ms. Tauscher. What role should nuclear test readiness play in a 
transformed and modernized complex?
    Dr. Younger. Stockpile Stewardship--maintaining the nuclear weapons 
stockpile without underground testing--should be regarded as an 
experiment. Scientists and engineers have no experience in maintaining 
complex objects in perpetuity without testing them, and there are 
concerns that the accumulations of small changes in weapons, some 
naturally occurring due to age and others the result of planned 
refurbishments, could affect our ability to accurately predict safety 
and performance. Significant progress has been made in developing 
sophisticated computer codes for describing nuclear explosives. 
Previously, computer codes had many ``adjustable parameters'' that 
could be changed to make code output match the results of nuclear 
tests. This was adequate so long as we were conducting tests that were 
required, since we lacked the computer power to do much better. Today, 
we have incredibly powerful computers that can include vastly greater 
detail in the description of the weapon (down to the threads on the 
bolts) and in the amount of physics included. Progress has also been 
made on quantifying the accuracy of our predictions via the 
Quantification of Margins and Uncertainty methodology that is part of 
the stockpile stewardship plan. However, two fundamental issues remain 
that encourage maintenance of a minimal capability to return to nuclear 
testing.
    First, it is impossible to demonstrate that all of the physics 
relevant to aging weapons is included in our computer codes. Science of 
any kind--be it a study of individual molecules or the description of 
nuclear weapons--proceeds through a sequence of prediction and 
experiment, the hypothesis-experiment sequence familiar to every 
student. Without experiments, there is no way to directly check the 
accuracy of a weapons computer code. Supporting evidence can be 
assembled, including data taken from laboratory experiments, previous 
nuclear test data, and from fundamental studies, but the question 
remains whether it is sufficient to accurately describe a weapon. We 
believe that our current methods are adequate, but we cannot prove that 
they are adequate without an actual test. Hence the issue is one of 
risk analysis and risk assessment. At present we believe that the risk 
associated with not conducting a nuclear test is low, but as we move 
further from the design lifetime of weapons, as changes are introduced, 
and as our experienced workforce ages and leaves the scene, this risk 
may increase. New capabilities will increase our confidence, but 
several key processes in nuclear weapons operation cannot be reproduced 
in any anticipated laboratory experiment. The notion that laboratory 
experiments and computations are superior to conducting an actual test 
of a nuclear device is factually incorrect and inconsistent with 
generally accepted scientific practice.
    The second issue affecting the need to maintain a capability to 
perform a nuclear test relates to the composition of our nuclear 
weapons stockpile. In contrast to every other nuclear nation, the 
United States does not have a program of regular remanufacture and 
replacement of our weapons. All other countries regularly remove 
weapons and either refurbish them or replace them with completely new 
units. The United States has a policy of refurbishing weapons when we 
have reason to believe that they require attention. We assume that the 
quality controls in place at the time of their original manufacture, 
combined with our occasional surveillance of a small number of weapons, 
will provide adequate confidence in the status of the stockpile. 
Moreover, the decline in the nuclear weapons industrial plant and the 
much stricter regulatory environment that governs the surviving 
capability limits our capability and capacity to refurbish or replace 
weapons. This might be adequate if the weapons in our stockpile were 
designed to be maintained for a long period, but they were not. The 
criteria that drove their design were focused on low weight (so that 
they could be carried on smaller aircraft and missiles) and minimal use 
of then-scarce nuclear material. They were highly optimized and, like 
other highly optimized complex machines, are sensitive to change.
    The fundamental scientific challenge of proving the accuracy of our 
computer predictions, combined with the highly optimized nature of a 
stockpile (one that we are hard-pressed to remanufacture) suggests that 
the United States maintain some capability to return to nuclear testing 
should the need arise. The cost of maintaining this capability is very 
low compared to the overall cost of stewardship--a reasonable estimate 
is $20M per year. This value can be kept low by exercising as many key 
test capabilities as possible in other parts of the stockpile 
stewardship program. For example, gamma and neutron diagnostics 
capability can be maintained via experiments on the National Ignition 
Facility. Timing and firing of test devices can be exercised in non-
nuclear hydrodynamic tests. However, some skills are unique to nuclear 
tests and are not maintained elsewhere in the stewardship program. 
These include the ability to demonstrate containment of a nuclear 
explosion underground, various pieces of special equipment including 
nuclear-certified cranes, and personnel who are familiar with the 
design of an underground test configuration.
    The potential consequences of not maintaining a nuclear test 
capability are severe. Given the age of our stockpile and our inability 
to rapidly remanufacture key components, a problem could arise that 
could severely impact our confidence in our nuclear deterrent. In a 
time of international crisis, such uncertainty could have negative or 
even disastrous results. Also, other countries, most notably Russia, 
are actively developing new classes of weapons and delivery vehicles to 
carry them. These new weapons are presumably tailored to the military 
requirements of the future, in contrast to the American weapons, which 
were designed to meet the requirements of the Cold War. Finally, while 
we have no reason to believe that we have missed a fundamental part of 
nuclear weapons science, there is always the possibility of technology 
surprise, the fielding of a new type of weapon by a foreign power that 
would affect the strategic nuclear balance.
    Most of these motivations for maintaining a minimal capability to 
return to nuclear testing will remain valid even in a transformed and 
modernized nuclear weapons complex. We will still worry about the 
sufficiency of our computer codes to describe objects as complex as 
nuclear weapons. We will still worry about the effect of changes on 
high-optimized nuclear weapons designs. We will still worry about 
foreign developments. Absent changes in our stockpile, particularly the 
introduction of more robust and more easily manufactured designs, 
maintaining some capability to perform a nuclear test is necessary.
    Ms. Tauscher. What are your primary concerns about the proposed 
complex transformation?
    Dr. Younger. Any transformation must start from a set of 
requirements. For the nuclear weapons complex, we must consider three 
fundamental questions: What types of weapons and how many is the 
nuclear weapons complex expected to maintain? What activities must be 
performed to sustain them? What physical and human infrastructure is 
required to perform these activities?
    At present, the U.S. nuclear weapons stockpile is a legacy of the 
Cold War. Our weapons were designed to hold Soviet targets at risk and, 
to reduce costs, were highly optimized to deliver the maximum amount of 
yield for the minimum weight. They were designed to remain in the 
stockpile for a fixed period of time and then to be replaced with fresh 
units. More consideration was given to performance than to longevity, 
to weight than robustness. These tradeoffs were made palatable by the 
ability to actually test a weapon to assure that it was safe, reliable, 
and that its performance was within acceptable bounds. Today, the 
requirements for weapons are much different. The geopolitical situation 
has changed fundamentally since the end of the Cold War and new 
technologies have arisen that can perform some of the missions formerly 
assigned to nuclear weapons. Thus the requirements for nuclear weapons, 
both their type and number, have changed. Partial consideration of 
these changing requirements are accommodated by agreements to reduce 
the number of nuclear weapons in our stockpile, but there has been 
virtually no willingness to change the types of weapons, to reduce 
their yield, make them safer, and lo improve the reliability by using 
more robust designs.
    In designing a transformed nuclear weapons complex, we must start 
with why we have nuclear weapons in the first place--in particular the 
missions that we expect them to perform. This mission space spans both 
military and political realms. Some targets simply cannot be destroyed 
by conventional means and require the energy of nuclear weapon for 
their destruction. Also, possessing a nuclear capability sends a strong 
message to would-be aggressors that the United States has the 
capability to project overwhelming force in the defense of our national 
interests. A rigorous assessment of what targets the United States 
wishes to hold at risk determines the composition of the stockpile 
required for the future.
    Having identified what types of weapons and how many are required, 
we can then address what actions are required to provide and maintain 
these weapons. Some capability to manufacture plutonium pits is 
essential, as is an ability to machine uranium and other unique 
materials. Scientists and engineers familiar with nuclear weapons 
physics, engineering, and manufacturing must maintain a sufficient set 
of skills, and demonstrate their proficiency on relevant activities, to 
assure their ability to carry out these tasks.
    Finally, the physical infrastructure required to carry out these 
activities must be provided. This is challenging given that we are not 
starting from scratch. The country has invested many billions of 
dollars in the nuclear weapons complex and there are significant 
environmental and political concerns about constructing new facilities 
or even closing old ones. Before constructing new facilities, 
especially costly nuclear facilities, I believe we should first fully 
utilize what already exists. This should be done on a national scale 
rather than a site-by-site basis. The time when the country could 
afford to build one of each type of capability at multiple sites is 
over--we must operate the nuclear weapons complex as a national 
enterprise where capabilities are located where they are most cost 
efficient and in particular where we can avoid expensive capital 
construction.
    Unfortunately, the nation has yet to clearly identify the 
requirements for its nuclear stockpile. Such ambiguity, combined with 
strong local interests at each of the NNSA sites, has made strategic 
planning difficult and has impeded much-needed consolidation efforts. 
My principal concern regarding complex transformation remains the lack 
of a clear requirements case that can drive businesslike planning for 
future capabilities and the migration from our present configuration to 
a sustainable complex.
    Ms. Tauscher. If a decision is made to make further stockpile 
reductions, would infrastructure upgrades be required at Pantex?
    Mr. Meyer. If a strategic decision is made to reduce the total 
number of units in the country's nuclear arsenal, the Pantex Plant 
would still need to maintain and upgrade the existing infrastructure.
    A decrease in the total number of stockpile units would mean an 
increase in dismantlements and storage requirements in the short term. 
This would be accomplished by working multiple shifts in existing 
facilities. Instrumental in meeting this increased short term workload 
will be the ability to sustain and perform essential upgrades to the 
site infrastructure, e.g. High Pressure Fire Loop Project.
    Once the dismantlement work is completed and the smaller stockpile 
is in place, B&W Pantex has identified out-year infrastructure projects 
to sustain the mission and provide life cycle replacement to Cold-War 
legacy facilities. These projects are required to sustain the Pantex 
Plant's capabilities and designated centers of excellence. In addition, 
these projects will allow the older facilities currently in use to be 
vacated and replaced by newer, smaller, more energy-efficient 
buildings. This will enhance operational efficiency at the Pantex 
plant.
    Ms. Tauscher. How advanced is the planning for the new underground 
Weapons Storage Area?
    Mr. Meyer. B&W Pantex has developed the Program Requirements 
Document and Mission Need Document required to obtain Critical Decision 
Zero (CD-0) approval for the project. National Nuclear Security 
Administration (NNSA) approval may coincide with the Complex 
Transformation Supplemental Programmatic Environmental Impact Statement 
(SPEIS) Record of Decision (ROD). This CD-0 approval will authorize B&W 
Pantex to initiate alternative analysis, conceptual design and initial 
funding for the project.
    On a parallel course Pantex is reviewing a storage facility design 
developed for the Department of Defense and its applicability to the 
Pantex operations.
    Ms. Tauscher. Why is such a facility needed? What are the expected 
benefits of the facility?
    Mr. Meyer. The new underground facility will result in safety and 
security improvements over the current facility. Although a detailed 
discussion of these benefits would require a classified forum, they can 
be summarized as:

        <all>  Reduced operational costs due to a decrease in 
        transportation, handling times, and number of security 
        personnel.

        <all>  Increased security and safety due to a modern design 
        incorporating contemporary nuclear safety and security 
        standards and configured to better resist any possible threats.

    Ms. Tauscher. What is the current status of the Kansas City 
Responsive Infrastructure Manufacturing and Sourcing (KCRIMS) 
initiative?
    Mr. Trim. The non-facility related aspects of KCRIMS, which include 
strategic sourcing activities, process consolidation, and business 
system transformation to reduce costs, are being executed as planned. 
The original GSA solicitation for the new facility was cancelled in 
July and a new solicitation was issued on August 16th with revisions 
made to improve competition and adjust for current market factors. 
Honeywell FM&T is continuing to work with GSA and NNSA to ensure this 
important project is successful and moves forward in a timely manner. 
Facility completion is now scheduled for FY11 with relocation and the 
operational transition complete in FY13. The final NEPA Environmental 
Assessment for the new site is complete and a Finding of No Significant 
Impact has been published.
    Ms. Tauscher. Please describe the analysis of alternatives that was 
conducted prior to the NNSA decision to build a replacement facility 
for the Kansas City Plant (KCP) near the current location, rather than 
moving the KCP mission to other NNSA sites. Please also describe the 
basis for NNSA's conclusion that this approach is the most cost 
effective alternative.
    Mr. Trim. The first analysis of alternatives was performed in 
conjunction with Critical Decision 1, part of the DOE Order 413.3 
Acquisition of Capital Assets process. This study was performed in 
March 2007 by Honeywell FM&T and concluded that the additional cost to 
move operations to either Amarillo, TX or Albuquerque, NM was $565M 
more expensive than the Kansas City option. A second analysis, 
chartered by NNSA-HQ and conducted by an independent third-party 
(SAIC), was completed in October 2007. This study concluded that 
Albuquerque was the most viable option and the additional costs would 
be $289M more than the Kansas City option. Both studies agreed that the 
major cost drivers of a distant relocation would be the transfer or 
rehire/retraining of a uniquely skilled workforce and additional costs 
associated with extended downtimes and requalification activities that 
would result from a long-distance relocation. Several examples of 
relatively recent major relocations of NNSA missions and capabilities 
(non-nuclear reconfiguration) served to validate both of these studies. 
The SAIC study was revalidated in conjunction with the second GSA 
solicitation.
    Ms. Tauscher. Could more aggressively down-blending surplus highly-
enriched uranium (HEU) reduce the need for storage of such surplus HEU 
in the HEUMF at Y-12? If so, could floor space in the HEUMF be 
configured for processing activities of the sort the planned UPF is 
designed to house?
    Mr. Kohlhorst. The HEUMF was designed and built to accommodate HEU 
for all viable stockpile scenarios. Down-blending of surplus HEU is 
occurring as soon as the HEU becomes available. However, should excess 
space be identified in the HEUMF, the facility was designed for storage 
rather than processing. Key systems such as air handling, electrical, 
and steam could not accommodate the unique operational requirements of 
wet chemistry, casting, and x-ray operations. The UPF is designed as a 
processing facility with different hazards, operations, deliverables 
and related regulatory requirements. The confinement strategy, fire 
protection requirements, criticality considerations and supporting 
infrastructure are all radically different than HEUMF and in many cases 
they are non-compatible.
    Ms. Tauscher. How will changes in the size of the U.S. nuclear 
weapons stockpile affect the scale and scope of work to be done in the 
planned UPF?
    Mr. Kohlhorst. This question has been studied extensively with many 
scenarios modeled and evaluated over the past year. One of the 
intentional features of the UPF design is its flexibility to 
accommodate a wide range of programs with a very limited set of 
equipment and minimal operating space. Accordingly, its size is driven 
primarily by capability and not capacity. The planned equipment set, 
combined with new technologies, allows for an impressive range of 
production capacity. The viable stockpile ranges being considered do 
not have a major impact on the scale or scope of the UPF design.
    Ms. Tauscher. What effect would delays in construction of the UPF 
have on stockpile stewardship program work at Y-12?
    Mr. Kohlhorst. First, HEU operations are performed today in 60+ 
year-old facilities that have exceeded their economic lifetime and must 
continue to function until UPF is operational. Any delay in the 
construction of UPF will amplify the risk to continued operations, 
incur increased operating costs, and likely require facility 
investments to remain operational. Second, approximately $200 million 
per year in annual cost savings are projected upon completion and 
operation of the new UPF. In addition, just a one year slip in the UPF 
schedule would cost up to $100 million due to escalation, schedule 
slippage, and demobilization.
    Ms. Tauscher. In your experience auditing National Nuclear Security 
Administration (NNSA) project execution and management, do you believe 
the agency is equipped to effectively manage the consolidation of 
missions, especially among the labs, called for in the Preferred 
Alternative?
    Mr. Aloise. For the better part of a decade GAO has reported on 
weaknesses in NNSA's and the Department of Energy's (DOE) ability to 
effectively manage large, complex projects. Poor project management has 
contributed to a history of cost overruns and schedule slips on major 
construction projects, as well as to changes in project scope and 
mission to accommodate cost and schedule constraints. For example, GAO 
reported in March 2007 (GAO-07-336) that 9 of the 12 major construction 
projects that DOE and NNSA were managing had exceeded their initial 
cost or schedule estimates, including three projects that exceeded 
initial cost estimates by more than 100 percent and four projects that 
were delayed by five years or more. Furthermore, our preliminary 
results from an ongoing review for this Subcommittee on NNSA's Life 
Extension Program show that NNSA's cost estimate for refurbishing each 
B61 bomb has almost doubled since 2002.
    GAO has testified that without clearly defined stockpile 
requirements to drive decision-making about Complex Transformation 
(GAO-06-606T, GAO-08-132T), we are not confident in NNSA's ability to 
effectively implement the Preferred Alternative. The construction 
project and programmatic examples above represent NNSA efforts that 
began with clearly defined requirements. In contrast, NNSA's Preferred 
Alternative is not based on clearly defined requirements to drive 
decisions about the scope of proposed facilities' missions--
specifically the size and capacity requirements for the Chemistry and 
Metallurgy Research Replacement facility at the Los Alamos National 
Laboratory or the Uranium Processing Facility at the Y-12 Plant--which 
NNSA estimates together will cost as much as $5.5 billion. Further, the 
absence of stockpile requirements calls into question the basis on 
which the Preferred Alternative consolidates other missions, such as 
high explosives testing, which is currently conducted at five sites 
within the nuclear weapons complex and, under the Preferred 
Alternative, would continue to be conducted at all five sites, though 
to differing extents.
    Transforming the nuclear weapons complex is a far more demanding 
task than any of the individual construction projects NNSA has managed 
and executed, and the Preferred Alternative for this transformation was 
crafted without grounding in stockpile requirements. For these reasons, 
GAO is concerned about NNSA's ability to effectively manage and execute 
the Preferred Alternative.
    Ms. Tauscher. What elements of the NNSA's Preferred Alternative 
would you identify as warranting special congressional attention?
    Mr. Aloise. In our testimony before the Committee, GAO identified 
three elements of NNSA's Preferred Alternative that we believe warrant 
special congressional attention: (1) ensuring that the Preferred 
Alternative is ultimately implemented to meet specific stockpile 
requirements; (2) overseeing major projects called for in the Preferred 
Alternative, including the Chemistry and Metallurgy Research 
Replacement facility and the Uranium Processing Facility; and (3) 
holding NNSA accountable for meeting detailed schedules and cost 
estimates for implementation of the Preferred Alternative.
    First, because Complex Transformation must be driven by clearly 
defined stockpile requirements, the Congress should ensure that once 
stockpile requirements are set the Preferred Alternative is 
systematically adjusted to meet these requirements. For example, once 
NNSA and the Department of Defense settle on a requirement for pit 
manufacturing, the Preferred Alternative should be revisited to ensure 
that the nuclear weapons complex's plutonium manufacturing capability 
is correctly sized to meet the requirement.
    Second, given NNSA's historically poor track record in managing 
major projects, the congress should pay special attention to overseeing 
all major projects associated with the Preferred Alternative, 
particularly construction of the Chemistry and Metallurgy Research 
Replacement facility and the Uranium Processing Facility.
    Third, the Congress should require NNSA to submit detailed 
schedules and cost estimates for implementation of the Preferred 
Alternative that the Congress can then use to hold NNSA accountable for 
its management performance. These schedules and cost estimates should 
be tracked against their original baselines and a review triggered if 
these schedules and cost estimates are significantly exceeded.
    Ms. Tauscher. Does Tri-Valley CAREs believe Livermore should meet 
the 2005 DBT standards, even though all Category I and II special 
nuclear material (SNM) is expected to be removed by 2012?
    Ms. Kelley. In theory, all sites with nuclear weapons usable 
quantities of plutonium and highly enriched uranium should meet the 
standards of the most stringent and most recent Design Basis Threat 
(i.e., the 2005 DBT). The potential for a terrorist attack from an 
outside force, insider ``plants'' or a disgruntled employee exists on 
any given day and is not limited to dates after 2012.
    That said, the spring 2008 security test that Livermore Lab failed 
was calibrated to the less stringent 2003 DBT. The number of attackers 
presumed in the 2003 DBT is only about half those in the 2005 DBT. 
Moreover, Livermore Lab did not fail the force-on-force drill on a 
peripheral, minor technicality. The Lab failed the central core of the 
test, in that it allowed mock terrorists to obtain special nuclear 
material and detonate an Improvised Nuclear Device. Moreover, the mock 
terrorists also succeeded in a second objective; to steal special 
nuclear material for use at a later date and place of their choosing. 
As a Livermore-based organization, Tri-Valley CAREs finds this 
situation intolerably dangerous.
    As you know, Tri-Valley CAREs has long called on the Dept. of 
Energy (DOE) National Nuclear Security Administration (NNSA) to 
initiate a timely, transparent and credible analysis of the most safe 
and secure location for Livermore's special nuclear material. We have 
advocated that these decisions should not be politicized or tied to the 
Department's nuclear weapons plans (e.g., Complex Transformation,'' in 
which the preferred alternative is to move Livermore Lab's plutonium 
twice to serve expanded pit production at Los Alamos Lab, a location 
that would not likely to be chosen if security were the primary 
determining factor).
    And, Tri-Valley CAREs has consistently called on Congress to press 
the Department and Livermore Lab management to prioritize safe 
packaging of the Lab's plutonium, in particular.
    Thus, in 2008, we find ourselves understandably frustrated by the 
seeming conundrum of whether the focus of security activities and 
funding at Livermore Lab should be geared toward compliance with the 
2003 and 2005 DBTs or toward getting the material safely and swiftly 
moved to a more secure location.
    This is a choice that remains only because of DOE's inaction. 
However, if choice be required of me, I must pick the latter. I have 
been told by knowledgeable people that Livermore Lab's plutonium could 
be safely de-inventoried by 2010, two years ahead of the DOE's proposed 
date of 2012. If the plutonium is de-inventoried by 2010 instead of 
2012, that cuts a 4-year risk in half. This should be the preeminent 
goal. Simply put, Livermore Lab's special nuclear material is 
vulnerable every day it is left here--and so are we.
    Congress, and this subcommittee in particular, can productively 
impact this dangerous situation by:
    1. Mandating immediately a scientifically credible and independent 
analysis of the present procedure and schedule for de-inventorying 
special nuclear material from Livermore Lab with the goal of 
determining strategies to accelerate the schedule.
    2. Ensuring sufficient funds (and application of existing funds) to 
do the job. In this regard, it might be necessary for Congress to 
specify in legislation that qualified, certified plutonium handlers and 
packagers at Livermore Lab not be laid off. Word on the street is that 
Livermore Lab management earlier this year laid off some of the very 
workers who are needed to accelerate and complete the job. And,
    3. Passing legislation that mandates a date certain by which all 
weapons usable quantities of plutonium and highly enriched uranium must 
leave Livermore Lab. As you note in the wording of your question, the 
DOE ``expects'' to move the material by 2012. We believe it can be 
accomplished by 2010. But no law at present requires any date, 
including 2012.
    The crux of the problem of the vulnerability of nuclear materials 
at Livermore Lab is that the physical site (about 500 buildings and 
nearly 10,000 people crowded into one square mile), the encroaching 
community (homes, little league fields and apartments crowding up 
against the site), and the surrounding Bay Area (seven million people 
within a 50-mile radius) make this an unacceptable location for nuclear 
bomb-making materials.
    Therefore, the solution cannot be found in installing more Gatling 
guns, which also pose a risk to workers and the community if they are 
ever fired. Instead, the only right thing to do is to de-inventory the 
site by the earliest possible date.
    Ms. Tauscher. Is Tri-Valley CAREs ``curatorship'' model compatible 
with the military's requirement for a more responsive infrastructure 
and more reliable, safe, and secure weapons capability?
    Ms. Kelley. Yes! A ``Curatorship'' approach to managing the arsenal 
will achieve the goals of safety, reliability and security more 
credibly and at lower cost than either the current Life Extension 
Programs or the (so-called) Reliable Replacement Warhead program.
    Curatorship is designed to better utilize and focus the nation's 
stockpile maintenance capability. Minimizing changes to the well-tested 
warheads in the U.S. nuclear weapons stockpile keeps them more 
reliable, safe and secure than either making ``enhancements'' to them 
that are not absolutely required to resolve an actionable defect in the 
warheads or designing new ones without nuclear tests.
    An historical note of importance here: In 1993, the President and 
the Congress established the Stockpile Stewardship Program with the 
goal of maintaining high confidence in the stockpile absent full scale 
underground nuclear testing. The DOE NNSA's 2003 budget documents 
revised that goal to read, ``Maintain and ENHANCE [emphasis added] the 
safety, security, and reliability of the Nation's nuclear weapons 
stockpile to counter the threats of the 21st Century.'' The idea of 
enhancing the stockpile was intentionally omitted as a goal in 1993 for 
two reasons. First, it was generally agreed that the existing stockpile 
was extremely safe and reliable and, thus, no changes were needed. 
Second, it was generally agreed that if major changes were made to 
nuclear weapons, without full scale underground nuclear testing, there 
would be a significant risk that the modified weapons would be less 
safe and reliable than the well-tested versions they replaced. Neither 
of those reasons is any less true today.
    Adding enhancement of the stockpile as a DOE NNSA goal is the type 
of major policy change that should have triggered significant debate at 
the time it was proposed. That debate is late in coming, but is no less 
needed.
    The choice is between ``curating'' the existing nuclear test 
pedigree of the arsenal or walking further and further away from that 
pedigree in favor of interesting new projects for bomb designers, 
whether they be RRWs or unnecessary changes bootstrapped into Life 
Extension Programs.
    Additional detail on how a Curatorship approach compares to other 
methods can be found in Tri-Valley CAREs' 2000 report, ``Managing the 
U.S. Nuclear Weapons Stockpile: A Comparison of 5 Strategies.'' Further 
analysis of how to ``modernize'' (this subcommittee's term) or 
``transform'' (DOE NNSA's word) the U.S. nuclear weapons complex to 
reflect a Curatorship approach can be found in Tri-Valley CAREs' 
comments on the Complex Transformation draft Supplemental Programmatic 
Environmental Impact Statement, ``Part One: The Nuclear Weapons 
Complex-wide Impacts,'' April 30, 2008.
    Your question also asks about the requirement for a ``responsive 
infrastructure,'' which was introduced in the 2001 Nuclear Posture 
Review. Congress has already mandated that the next administration 
produce a new posture review. That said, Tri-Valley CAREs would like to 
offer a few observations on the general thrust of the question. A 
nuclear weapons complex with a more clear and narrowly defined mission 
and scope of work focused on the safety, reliability and security of 
the existing (pedigreed) stockpile will be more responsive to fixing 
``actionable defects'' in the stockpile than the Complex Transformation 
plan, as maintenance will not be competing with other priorities in the 
DOE NNSA complex--as is presently (and increasingly) the case.
    Furthermore, we find the DOE NNSA poised on the brink of building 
large new production facilities (for example, more plutonium pit 
production capability at Los Alamos Lab in NM and a new uranium 
processing facility at Y-12 in TN). This approach is not only wasteful 
and counterproductive to our nation's global nonproliferation aims, but 
it locks in the departing administration's nuclear weapons policy for 
the next 20 years or more. So-called Complex Transformation is neither 
responsive to needed (and likely) changes in U.S. policy nor to 
prioritizing maintenance of the existing nuclear weapons stockpile as a 
principal organizing feature of the weapons complex. In contrast, 
Curatorship is more responsive to both.
    Ms. Tauscher. Does Tri-Valley CAREs imagine that at some point, 
Life Extension Programs (LEP) for existing nuclear weapons could be 
riskier than the development of something like the Reliable Replacement 
Warhead (RRW)? On whose judgment would you rely for such an assessment?
    Ms. Kelley. First, thank you for asking this question. Tri-Valley 
CAREs seeks to limit and restrain the Life Extension Programs and 
terminate the RRW program in large part to ensure that the U.S. is not 
forced to the very precipice posited above.
    Curatorship is grounded in the principle that staying as close as 
possible to the existing nuclear test base is the best technical 
approach to maintenance of the arsenal while carrying the least 
technical risk that there will be future pressure to resume full-scale 
underground nuclear tests. If this is the goal, then Curatorship has 
distinct advantages over either the current LEPs or the RRW.
    You ask on whose judgment for these assessments Tri-Valley CAREs 
would rely. In general, Tri-Valley CAREs leans toward ensuring that the 
``table'' at which such judgments are made includes the broadest 
spectrum of voices, and that the decisions themselves are conducted in 
the most transparent manner possible. In this regard, we have concerns 
that the new management structures of the Livermore and Los Alamos labs 
may be headed in the misguided direction of enabling not more but 
fewer, and more uniform, voices at the ``table.''
    Tri-Valley CAREs supports genuine scientific peer review--which we 
believe need not necessitate and does not justify the continuance of 
two full service nuclear weapon design labs--along with ``outside'' 
independent analysis. Moreover, we support the Federal Advisory 
Committee Act, the Freedom of Information Act and other open government 
laws to ensure that the American people can also participate 
appropriately in decision-making.
    Ms. Tauscher. What is your assessment of the NNSA complex 
transformation proposal? Are there other viable alternative approaches 
to provide a more responsive infrastructure?
    Ambassador Robinson. As I said in my testimony, ``My reactions [to 
the Complex Transformation Plan] are mixed. While it is doubtless 
improved over the previous version (Complex 2030), it still does not 
present a compelling solution to the many problems facing the nuclear 
weapons complex.''
    A more viable (and sensible) approach would be to:
    (1) Establish at a national level the purpose and sizing of the US 
arsenal of nuclear weapons--appropriate to the threats we and our 
allies must likely face going forward. The DoD has not taken up this 
issue for at least 15 years (under two administrations) but continues 
to try to preserve a Cold War arsenal that (a) no longer fits the world 
we live in, (b) nor fits the threats we face. The US Strategic 
Commission you created is one attempt to develop same, but whether it 
will stall over the polarizations (of the left and the right) is yet to 
be seen. There is no substitute for the US uniformed military once 
again developing its own detailed plans (that would implement such a 
national strategy.) Having DOE move forward to transform the Complex 
without having coordinated plans [with the DoD] is unlikely to succeed. 
The drafters of the current SPEIS were ``flying blind'' in trying to 
develop a plan to transform the complex without such guidance.
    (2) Reorganize the management structure of the complex to have a 
nuclear weapons enterprise that is coherently managed and budgeted for. 
Just look at the DOE and NNSA org. chart: there is no direct management 
of the production complex. The overall management--including cohesive 
day-to-day management of the GOCOs--used to be performed by the 
Albuquerque Operations Office for the entire complex, and the AOO 
depended on the weapons labs to help it establish the technical 
directions and design and quality acceptance requirements and the labs 
served as the final approval for any deviations. This arrangement 
worked for 40 years, and no one has filled the vacuum left by 
abolishment of the Albuquerque Operations role. (b) The plants mostly 
exist in an ``every man for himself '' environment, and--in that 
vacuum--many plants have sought and achieved close political 
relationships with their own Congressional representatives and 
Senators. The effect of such actions has only increased ``the 
centrifugal pressures tearing the complex apart.''
    (c) There never was effective, cohesive management of the three 
weapons labs, although in truth it was never possible to ``manage'' the 
labs in any traditional sense. The fact has been well established that 
the Federal government is incapable of ``managing the advancement of 
science'' (even though periodically it tries this, through civil-
service labs, but untarnished by success.) Because of this fact, the 
GOCO system (Government-owned, Contractor-operated) was created. The 
GOCO contractors originally were the nation's best companies (or 
universities) in science and technology, who brought their business 
practices and approaches to the labs. There are only one or two of 
these left today, with the rest being mostly small outfits whose main 
business is ``running the labs for the government', motivated by fees 
they can earn (which was never the case in the original complex.) Worse 
yet, the bureaucracy of DOE (ERDA, or AEC) has continued to grow and 
have attempted to ``take control'' of the labs, and the model has 
deteriorated more and more to a ``government-owned and operated'' 
complex. There are now no longer any barriers to preventing the 
constantly burgeoning government bureaucracy from being imposed on the 
labs (and plants) and the advantages of having ``private-sector'' 
organizations for their functions has long since vanished. The original 
approach had been to have the labs responsible for innovations. The 
labs would propose their ideas to the government and to the military, 
and once agreement was established between them on ``What was to be 
done'', the labs took over the process of how it should be done and 
carried the responsibility for achieving the agreed goals. My deeply 
held conviction is that the GOCO model has deteriorated so far, that it 
must now either be eliminated or drastically rejuvenated (with a new 
agency and a ``clean sheet of paper.'')
    In summary, there is little to suggest that the US weapons complex 
is a common team, smoothly interfacing, with clear guidance to carry 
out its mission. That is what is needed.
    Ms. Tauscher. Ambassador Robinson, you have witnessed previous 
efforts to modernize or transform the nuclear weapons complex. What 
lessons have you learned from previous efforts?
    Ambassador Robinson. The whole issue of budgeting for either 
facility maintenance or constructing new facilities has never been done 
well through the process of ``annual budgets.'' One of the helpful 
improvements was the NNSA requirement for a five-year plan, although 
seldom were the last 3 years of any such plan ever realized. Setting 
priorities should be easy enough in today's ``shortage environment'' 
where we no longer have the capability to produce Plutonium pits in 
sufficient numbers. Reviving a plutonium production capability must 
have top priority.
    I believe that the organization of the Congress for budgeting has 
become a serious problem. Having two subcommittees in both the House 
and Senate that provide separate appropriations for DOE and for DoD 
have left us with little alignment or even correlation of these 
budgets. Personally, and after many years of believing that it was 
important to keep the nuclear weapons design, development, and 
production separate from the Defense Department, I have now reached the 
point that I believe it is worth considering removing the weapons 
responsibilities from DOE and placing it as a new agency within the 
DoD. The presence of a uniformed military could provide a continuity 
that has been lacking as different administrations came and went. The 
nation's nuclear deterrent has only suffered from these short-term 
upheavals in what must be a long-term commitment.
    Ms. Tauscher. As transformation efforts take shape, what steps can 
Congress take to mitigate against the risk that the vast intellectual 
capital in the complex--the people that make the Stockpile Stewardship 
Program a success--is not lost or permanently impaired?
    Ambassador Robinson. I am glad that the Subcommittee does recognize 
how crucial the bright, highly, trained, and dedicated people are to 
ensuring the US deterrent. In this regard I am more concerned, than I 
have ever been, over the more than forty years I have worked in this 
complex, that the morale of these rare people has reached an all time 
low. The recent Chiles study (a DSB Task Force on Nuclear Personnel 
Expertise) examined the problems of the fractionated management within 
DOE for nuclear weapons, safety, and security and said ``Worker 
feelings range from anger to resigned despair.'' Note also, that his 
investigations took place before the lay-offs of more than a thousand 
people at both Los Alamos and Livermore this past year. The situation 
at both of those labs is far worse now. While the labs had always been 
able to attract the best and brightest to come to the laboratories (for 
somewhat less pay than they would have earned in the private sector), 
the freedom to pursue new ideas and the fact that the work was so 
vitally important to the security of our country was reward enough to 
keep them. However today, it is impossible to make these arguments, 
when the burgeoning bureaucracy suppresses individual voices, and it is 
apparent that most officials within the Executive branch and the 
Congress pay little attention to the nuclear weapons efforts. It is all 
too obvious that too much in government no longer care about its 
future.
    On an historical basis, one principle that has proven itself to be 
valid for many centuries was well expressed by Edward Gibbon (``The 
Rise and Fall of the Ancient Roman Empire.''), who wrote `That which is 
not advancing must surely decline.'
    Thus, until only very recently, the mission to perpetually try to 
improve the US deterrent weapons was a necessary and accepted mission 
for that intellectual capital embodied in the weapons labs. That 
guiding principle is still uppermost in the Russian and Chinese 
programs, and in the French program, but it has now been successfully 
eliminated in the US labs. However, this issue seems to be forbidden 
from discussion, in the badly mistaken view that to hold such a view 
would stimulate other nations to proliferate (in the ridiculous 
viewpoint that somehow if we--the United States--stop striving for a 
stronger deterrent, the rest of the world will stop as well.) The 
safeguards--that were agreed upon to be in place with the signing of 
the CTBT by the US--state that the US will continue to keep a strong 
design and development capability, but this capability is now well down 
the path to going out of existence.
    Ms. Tauscher. Do weapons designers need to design and build weapons 
to exercise their skills?
    Ambassador Robinson. This question can only be answered by an 
understanding of what used to happen, and how it has changed over the 
past 20 years. The driving force for new developments was always the 
Phase 1 and Phase 2 joint projects with military Project Officer's 
Groups (POG's) teaming with the labs to evaluate possibilities (which 
the labs and the POG's would both suggest), and then jointly settle on 
``Military Characteristics'' that would guide the next weapon systems. 
The proposals would then move forward through the military chain of 
command and the DOD leaderships and separately through the DOE (ERDA, 
AEC) chain as well. Finally arriving at a Presidential decision, 
which--if approved--would be passed to the Congress for their approval, 
or disapproval.
    That process seems to be broken today, with little or no attention 
having been paid to the configuration of the US deterrent arsenal since 
the end of the Cold War. Also, members of the legislative branch have 
interrupted this process from moving forward, by placing specific 
language in Authorization and Appropriation bills to prohibit any work 
(either Phase 1 or Phase 2 as well), until they have approved any 
proposed systems. The result unfortunately has been a stalemate, with 
no new systems being approved by the Congress and hence new starts 
becoming non-existent since the end of the Cold War. The labs often, 
but not always, would work together to establish mutual directions 
which could substitute for lack of guidance on future weapons, but 
depending on personalities at the individual labs (at any point in 
time), these were never really a successful substitute.
    Thus the plain truth is that today the US continues to try to 
maintain an arsenal of weapons for deterrence purposes that no longer 
matches the threats we face (and hence whose ultimate use would be 
credible), nor the delivery systems which would be most likely to 
succeed, and hence the legacy systems are less likely to deter 
aggressive behaviors of major adversaries. The very high yields of the 
legacy systems are no longer needed because of the huge improvements 
that have been made in delivery system accuracies over the intervening 
years. Many of us believe that if such high yields remain the only 
options available, our threats to actually use such weapons are hallow 
and hence our ability to deter war is rapidly vanishing, to a point 
where we will be ``self-deterred.'' Something must be done to break the 
current stalemate.
    Ms. Tauscher. How should the stockpile stewardship program be 
executed in a transformed and modernized complex? Will a transformed 
complex require changes to the stockpile stewardship program?
    Ambassador Robinson. My belief is that the following represents the 
right order of things:

    (1) The question of whether the nuclear weapons entities should all 
be moved to become an integral part of the Department of Defense is a 
critical issue, which needs to be faced now.

    (2) Fix the GOCO process (as I discussed earlier) and tailor a 
stand-alone organization to direct and manage the R&D, design, 
development, and manufacturing processes.

    (3) Pull the complex parts into a cohesive whole (functioning as a 
single, high-performance team), rather than continuing the current 
collection of poorly coordinated parts.

    (4) Set a priority order of urgently needed facilities, and prepare 
a long-range budget that puts these in an appropriate budget plan.

    There should be no need to change the Stockpile Stewardship 
program, other than to again free up some activities in advanced 
science and technology and advanced designs, most of which has been 
curtailed or eliminated in recent years. Of course, everyone should 
``wake-up'' to the fact that there is no guarantee that it will yet 
prove possible to replace the confidence that always was provided by 
nuclear testing, by--instead--relying only on computer calculations and 
much improved scientific-understanding. We have made excellent progress 
in developing the supercomputers for the effort, but far less progress 
on improving the unknown scientific mysteries so that they can be 
correctly included in the computer codes. Thus, preservation of the 
ability to test--should it become necessary--is still vital to the US.
    Ms. Tauscher. What are the highest investment priorities for NNSA's 
limited resources?
    Ambassador Robinson. A new and effective (i.e. proven) capability 
to fabricate plutonium pits is a critical first priority. The damage 
done to the US program by the closing of the Rocky Flats Production 
Site (because of environmental issues/protests) has hurt the overall US 
nuclear weapons production program more than almost anyone realizes. We 
are the only nation that cannot build a new, modern arsenal of weapons, 
much less can we reproduce the old designs which now constitute our 
complete stockpile.
    The ultimate priority is of course a realization that the US 
arsenal of deterrent weapons is the only proven factor in preserving 
the peace in the world and prevent world wars or major conflicts. The 
end of the Cold War was not the ``end of history'', as many suggested, 
but it does appear that the emergence of nuclear weapons that ended the 
fighting of World War II may yet prove to be ``the end of the history 
of global conflicts.'' The mindset being advocated in many quarters--
that we must now embark on a policy of ``eliminating all nuclear 
weapons from the earth''--is misguided and premature. It would usher in 
a state of international affairs where nations are free to return to 
unlimited global conflicts, and there is little chance that even if it 
were possible (and it is not) to remove all nuclear weapons, they could 
be reproduced by some nations, who could then easily take advantage of 
the relatively greater power they would have over the US and others.
    I have always believed that there are (at least) two extremely 
major barriers that must be overcome before we could undertake any 
realistic thinking that ``a world free of nuclear weapons would be a 
better world'' than the current situation. These are:

(a) the elimination of nation-states. (Anyone who believes that this 
could be achieved in a matter of decades is either hopelessly 
idealistic or really fooling themselves.), and

(b) a change in the nature of mankind itself to eschew any acts of 
major aggression. Once again, these are merely ``poetic ideas'' but 
there are little grounds to believe that this could be achieved even in 
100 years, if ever. I would note that there are not even any good ideas 
put forward for how to go about same, nor is anyone actually working on 
it. The US already began the nuclear weapons era by putting forward a 
serious proposal (the Baruch Plan) that would have placed all nuclear 
weapons under a common international control, but this plan was 
instantly rejected, and I feel safe in predicting that a revival of 
that proposal would be just as quickly rejected today.

    Thus, we should now all join in putting our best efforts to the 
task of deterring war through the threat of retaliation of nuclear 
weapons, with the best outcome being that we would--as a result--never 
have to use such weapons. But the overarching importance that the US 
must give sufficient attention to the characteristics, numbers, 
performance, and reliability of its nuclear deterrent arsenal should be 
obvious to anyone in a senior government position. I urge the Strategic 
Forces Subcommittee of the HASC to step up and demand that the US 
greatly increase its attention to reverse the decline which now 
characterizes our deterrent and the complex responsible for it.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. The NNSA has indicated that it must develop an 
inventory of plutonium oxide feed material to cover the time gap 
between start-up of the MOX facility and the construction of the PDCF.
    What is NNSA's current planning estimate for the amount of 
plutonium oxide feed material needed to bridge the gap between start-up 
of the MOX facility and completion of PDCF?
    Mr. D'Agostino. In consideration of the current schedules for both 
the MOX and PDCF facility, NNSA currently estimates up to twelve metric 
tons of plutonium oxide feed material will be required to bridge the 
gap between start-up of the MOX facility and completion of PDCF. This 
amount is in addition to the two metric tons of plutonium oxide 
currently planned to be received from the Advanced Recovery and 
Integrated Extraction System (ARIES) project at the Los Alamos National 
Laboratory.
    Mr. Wilson. What is the current estimate of the amount of available 
plutonium oxide feedstock currently in storage?
    Mr. D'Agostino. There is currently 4.1 metric tons of plutonium 
oxide feedstock available in storage at the Savannah River Site to 
support feed for the MOX facility that meets the MOX feed 
specification.
    Mr. Wilson. What is the current estimate of the ``alternate feed 
stock'' or non-pit surplus plutonium in the weapons complex that does 
not rely on PDCF for processing to plutonium oxide?
    Mr. D'Agostino. The current estimate is 7.8 metric tons of 
``alternate feed stock'' or non-pit surplus plutonium is available to 
process into plutonium oxide for feed to the MOX facility. This 
includes the 4.1 metric tons of plutonium oxide currently in storage.
    Mr. Wilson. How much of the alternate feed stock could be converted 
in H-Canyon at the Savannah River Site (SRS)?
    Mr. D'Agostino. The 3.7 metric tons out of 7.8 metric tons of 
``alternate feed stock'' plutonium metal yet to be processed, is 
expected to be processed within the K reactor area of SRS. No material 
to be used for MOX feedstock is currently planned to be processed 
through H-Canyon. However, DOE is evaluating options that could provide 
additional alternative feed stock materials through the use of H-
Canyon.
    Mr. Wilson. NNSA has indicated that the Advanced Recovery and 
Integrated Extraction System (ARIES) facility at Los Alamos can produce 
plutonium oxide feedstock for the MOX facility before PDCF comes 
online. How much plutonium oxide does NNSA intend to produce at ARIES 
with the funding it has requested for FY 09? How much plutonium oxide 
has ARIES produced to date, and has any of this plutonium oxide been 
accepted by the MOX program under its quality control regime?
    Mr. D'Agostino. The funding for ARIES in FY 2009 is primarily to 
conduct final demonstration testing of the equipment to support design 
& operation of the PDCF. The ARIES project will then transition to 
routine oxide production in subsequent years. As a result of the 
demonstration activities, about 40 kilograms of plutonium as oxide will 
be generated in FY 09 and will contribute to the 2 metric tons expected 
to be delivered from Los Alamos through 2018. The ARIES project has 
produced approximately 300 kilograms of oxide via demonstration 
programs in prior years. 120 kilograms of this oxide was accepted by 
MOX services and is currently being irradiated at the Catawba reactor 
in lead test assemblies. Los Alamos was designated as a qualified 
vendor for MOX services during earlier production and will re-establish 
vendor certification as a part of the baseline program.
    Mr. Wilson. The Senate Energy and Water Appropriations Report 
included an additional $22 million for ARIES for FY 09. How much 
additional plutonium oxide could be produced with the additional funds? 
Is the available equipment and hired and trained workers at ARIES/Los 
Alamos capable of safely producing an additional $22 million worth of 
plutonium oxide in FY 09?
    Mr. D'Agostino. The additional $22 million for ARIES in FY 2009 is 
intended primarily for the procurement and installation of additional 
ARIES equipment, not for the production of additional oxide. The 
additional equipment will reduce the dose to workers and provide for 
enhanced operating safety and efficiency improvements during oxide 
production in later years. Depending upon the vendor certification 
schedule and when the funding becomes available, it may result in the 
production of a small amount of additional material in FY 2009.
    Mr. Wilson. Your Memorandum dated July 7, 2008 sets forth 
recommendations for the FY 2010-2014 planning, programming, budgeting, 
and evaluations process. Please explain why PDCF funding is zeroed out 
in the Memorandum. Please also explain how you could approve a CD-2 
decision on PDCF by January 2009, if NNSA's budget profile set out in 
the July 7 Memorandum provides no construction funding for PDCF.
    Mr. D'Agostino. The Administrator's Final Recommendations 
Memorandum dated July 7, 2008, by which we conclude our annual internal 
budget update process, retains construction funding for the PDCF 
construction project for FY 2010 and beyond. The funding was moved 
within the Weapons Activities appropriation from the Directed Stockpile 
Work (DSW) program to Readiness in Technical Base and Facilities (RTBF) 
where most Defense Programs construction projects are funded. The DOE's 
decision to approve the construction baseline, CD-2, is not contingent 
upon a program funding allocation; however, once CD-2 is approved, it 
is NNSA's practice to allocate funding supporting the baseline 
schedule.

                                  <all>

</pre></body></html>
